<html>
<title> - EXAMINING WORKERS' RIGHTS AND VIOLENCE AGAINST LABOR UNION LEADERS IN COLOMBIA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 EXAMINING WORKERS' RIGHTS AND VIOLENCE AGAINST LABOR UNION LEADERS IN 
                                COLOMBIA 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 12, 2009

                               __________

                            Serial No. 111-1

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-097 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 12, 2009................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    71
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     5
        Prepared statement of....................................     6
        Article, the Washington Post, April 19, 2008, 
          ``Colombia's Case: The Intellectual Poverty of a Free-
          Trade Deal's Opponents''...............................    63
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Additional submissions:
            Documents submitted by Colombian Ambassador Carolina 
              Barco, dated February 12, 2009, Internet address to     7
            AFL-CIO letter and fact sheet, dated February 2009, 
              ``Colombia: Continued Violence, Impunity, Flawed 
              Labor Laws and Non-Enforcement of the Law Eclipse 
              the Colombian Government's Few Accomplishments''...    71
            Letter, dated November 5, 2008, from the Colombian 
              Embassy............................................    78
            Letter, dated September 12, 2008, sent to Colombian 
              President Alvaro Uribe Velez.......................    98
            Letter, dated November 20, 2008, from Human Rights 
              Watch..............................................   107
            Letter, dated February 10, 2009, from Gustavo Gallon 
              Giraldo, et al.....................................   110

Statement of Witnesses:
    Morales, Yessika Hoyos.......................................    22
        Prepared statement of (English)..........................    24
        Prepared statement of (Spanish)..........................    26
    Roberts, James M., research fellow for economic freedom and 
      growth, Center for International Trade and Economics, the 
      Heritage Foundation........................................    40
        Prepared statement of....................................    42
    Sanchez, Jose Nirio, former Colombian judge in special court 
      for labor-homicide cases...................................    27
        Prepared statement of (English)..........................    29
        Prepared statement of (Spanish)..........................    30
    Sanchez-Moreno, Maria McFarland, Esq., senior Americas 
      researcher, Human Rights Watch.............................    32
        Prepared statement of....................................    33
        Additional submission: ``Breaking the Grip? Obstacles to 
          Justice for Paramilitary Mafias in Colombia,'' Human 
          Rights Watch, October 2008, Internet address to........    40
    Vasquez, Jose Luciano Sanin, Director of the Escuela Nacional 
      Sindical (``National Labor School'') of Colombia...........     8
        Prepared statement of (English)..........................    10
        Prepared statement of (Spanish)..........................    16


                     EXAMINING WORKERS' RIGHTS AND
                      VIOLENCE AGAINST LABOR UNION
                         LEADERS IN COLOMBIA

                              ----------                              


                      Thursday, February 12, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Miller, Kildee, Payne, Andrews, Woolsey, Kucinich, 
Wu, Davis, Grijalva, Sestak, Hirono, Hare,Courtney, Shea-
Porter, Fudge, Polis, Sablan, Titus, McKeon, Souder, Platts, 
Guthrie, Cassidy, and Roe.
    Staff present: Paulette Acevedo, Legislative Fellow, 
Education; Aaron Albright, Press Secretary; Tylease Alli, 
Hearing Clerk; Tico Almeida, Labor Counsel (Immigration and 
International Trade); Chris Brown, Labor Policy Advisor; Jody 
Calemine, Labor Policy Deputy Director; Lynn Dondis, Policy 
Counsel, Subcommittee on Workforce Protections; Adrienne 
Dunbar, Education Policy Advisor; David Hartzler, Systems 
Administrator; Lloyd Horwich, Policy Advisor, Subcommittee on 
Early Childhood, Elementary and Secretary Education; Jessica 
Kahanek, Press Assistant; Sara Lonardo, Junior Legislative 
Associate, Labor; Ricardo Martinez, Policy Advisor, 
Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness; Alex Nock, Deputy Staff Director; Joe Novotny, 
Chief Clerk; Rachel Racusen, Communications Director; Meredith 
Regine, Junior Legislative Associate, Labor; Melissa 
Salmanowitz, Press Secretary; Michele Varnhagen, Labor Policy 
Director; Mark Zuckerman, Staff Director; Robert Borden, 
Minority General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Ed Gilroy, Minority Director of 
Workforce Policy; Rob Gregg, Minority Senior Legislative 
Assistant; Richard Hoar, Minority Professional Staff Member; 
Alexa Marrero, Minority Communications Director; Jim Paretti, 
Minority Workforce Policy Counsel; Molly McLaughlin Salmi, 
Minority Deputy Director of Workforce Policy; and Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order for the purposes of conducting the 
hearing on examining worker rights and violence against labor 
union leaders in Colombia. This is an important hearing for a 
number of reasons. And I want to thank the members of the 
committee for participating.
    And certainly, I want to thank our witnesses for 
participating. It is my understanding that this hearing--we 
will be using translators for our witnesses. It is my 
understanding that when we speak, there will be simultaneous 
translation so our witnesses will understand what we are 
saying.
    When the witnesses are speaking, the translators will then 
translate to us. So this is going to take a little more time 
than a usual hearing with the witnesses, but we want to provide 
sufficient time so the witnesses can properly give us the 
information that they have traveled this distance to do so.
    I would like to begin by recognizing myself for the 
purposes of an opening statement. And then I will recognize 
Congressman McKeon for his opening statement.
    Today this committee meets to examine whether ongoing 
violence and weak labor protections are impeding the ability of 
Colombian workers to exercise their fundamental human rights. 
Sadly, Colombia has been the most dangerous place in the world 
to belong to a labor union for the past two decades. In some 
recent years, there have been more labor killings in Colombia 
than in the rest of the world combined.
    According to the National Labor School, a leading Colombian 
think-tank, almost 2,700 trade union members have been killed 
in Colombia over approximately the past 20 years. And, the 
number of labor union members killed last year jumped by more 
than 25 percent over the 2007 levels. It remains difficult to 
know who is responsible for most of these deaths because so few 
cases have been investigated, let alone prosecuted.
    The Colombian Commission of Jurists tells us that the 
impunity rate for these crimes still remains at a staggering 96 
percent. At Colombia's current pace of investigations and 
indictments, it would take several decades to get through the 
backlog. This means that thousands of killers continue to 
escape justice.
    We will hear testimony today that many labor killings have 
been perpetrated by rightwing paramilitary death squads, whose 
leaders have acknowledged targeting union leaders. According to 
reports, many of the killings have been carried out by the 
United Self-Defense Forces of Colombia, or AUC. Although the 
right-wing paramilitary group was officially disbanded a few 
years ago, the demobilization process may have been 
unsuccessful.
    Some former AUC paramilitary fighters appear to be now 
operating within organized criminal gangs. When I was in 
Colombia last year, union leaders told me they were 
increasingly receiving death threats from a new deadly gang 
called the Black Eagles.
    Another possible explanation for the rising violence is the 
disturbing phenomenon of extrajudicial killings. This is where 
innocent civilians are murdered by Colombian armed forces and 
inappropriately classified as casualties of war. These so-
called false positives, the deaths of these individuals, have 
taken the lives of thousands of Colombian citizens, including 
union members.
    We will hear testimony today of a case where the Colombian 
Army killed three unarmed labor union leaders and then altered 
the crime scene in order to make it look like the victims had 
engaged in an armed conflict.
    There is concern that some anti-labor violence stems from 
decisions by the Colombian business and political leaders. For 
instance, paramilitary leaders have admitted accepting money 
from a broad array of Colombian and multinational corporations. 
And President Uribe's former director of national intelligence 
has been accused of turning over hit lists to right-wing 
paramilitaries containing the names of union leaders under 
government protection.
    While Colombian prosecutors have made some modest progress 
very recently in securing some convictions in these labor-
homicide cases, important questions still remain. First, do 
these investigations and convictions actually find out the 
truth behind the murders? We will hear testimony today that 
prosecutors often accept motives without investigating the real 
underlying motive.
    And, prosecutors too often investigate with preconceived 
and incorrect theories of the case. One young woman who is 
testifying today intervened in her deceased father's 
investigation. She will tell us that her intervention was 
because prosecutors were advancing a false theory that her 
father's death was a result of a crime of passion stemming from 
an adulterous affair. Indeed, ongoing complaints about the 
publication of inaccurate motives has led the Colombian 
attorney general's office to stop issuing public reports 
regarding motives in these cases.
    Second, are prosecutors conducting thorough and systematic 
investigations aimed at holding all those who are responsible 
for both the planning and executing the labor killings? Some 
legal observers say that prosecutors are shortchanging 
investigations only after securing convictions of the material 
author of the crime. The material author is likely to be a low-
level person who pulled the trigger and not one of the 
intellectual authors who either ordered, planned or paid for 
the killing of that individual.
    Finally, today's hearing will inquire about additional 
obstacles that prevent the Colombian workers from exercising 
their fundamental rights. The International Labor Organization 
has identified significant areas where Colombia's labor laws 
are non-compliant with the core international labor standards.
    By raising these questions today, I hope that we can begin 
to find solutions to ensure that the backlog of murders are 
finally adjudicated and that Colombian workers have basic labor 
rights to which all workers should be entitled and should be 
able to exercise without fear of violence against them and/or 
their families or their organization.
    Thank you very much. And I would like now to recognize 
Congressman McKeon, the senior Republican on the committee for 
the purposes of his opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Today this committee meets to examine whether ongoing violence and 
weak labor protections are impeding the ability of Colombian workers to 
exercise their fundamental human rights.
    Sadly, Colombia has been the most dangerous place in the world to 
belong to a labor union for the last two decades. In some recent years, 
there have been more labor killings in Colombia than in all of the 
other nations of the world combined.
    According to the National Labor School, a leading Colombian think-
tank, almost 2,700 trade union members have been killed in Colombia 
over the past twenty years. And, the number of labor union members 
killed last year jumped by more than 25 percent over 2007 levels.
    It remains difficult to know who is responsible for most of these 
deaths because so few cases have been investigated, let alone 
prosecuted.
    The Colombian Commission of Jurists tells us that the impunity rate 
for these crimes still remains at a staggering 96 percent.
    At Colombia's current pace of investigations and indictments, it 
would take several decades to get through the backlog.
    This means that thousands of killers continue to escape justice.
    We will hear testimony today that many labor killings have been 
perpetrated by right-wing paramilitary death squads, whose leaders have 
acknowledged targeting union leaders.
    According to reports, many of these killings have been carried out 
by the United Self-Defense Forces of Colombia--or A.U.C. Although the 
right-wing paramilitary group was supposedly disbanded a few years ago, 
the demobilization process appears to be unsuccessful.
    Some former A.U.C. paramilitary fighters appear to be now operating 
within organized criminal gangs.
    When I was in Colombia last year, union leaders told me they are 
increasingly receiving death threats from a new deadly gang called the 
``Black Eagles.''
    Another possible explanation for the rising violence is the 
disturbing phenomenon of extrajudicial killings. This is where innocent 
civilians murdered by the Colombian Armed Forces are inappropriately 
classified as casualties of war.
    These ``false positives'' have taken the lives of thousands of 
Colombian citizens, including union members. We will hear testimony 
today of a case where the Colombian Army killed three unarmed labor 
union leaders and then altered the crime scene in order to make it look 
like the victims had engaged in armed conflict.
    There is concern that some anti-labor violence stems from decisions 
made by Colombian business and political leaders.
    For instance, paramilitary leaders have admitted accepting money 
from a broad array of Colombian and multinational corporations.
    And, President Uribe's former director of national intelligence has 
been accused of turning over `hit lists' to right-wing paramilitaries 
containing the names of union leaders under government protection.
    While Colombian prosecutors have made some modest progress very 
recently in securing some convictions in these labor-homicide cases, 
important questions still remain.
    First, do these investigations and convictions actually find out 
the truth behind the murders?
    We will hear testimony today that prosecutors often accept motives 
without investigating the real underlying motive.
    And, prosecutors too often investigate with pre-conceived and 
incorrect theories of the case.
    One young woman, who is testifying today, intervened in her 
deceased father's investigation. She will tell us that her intervention 
was because prosecutors were advancing a false theory that her father's 
death was a result of a ``crime of passion'' stemming from an 
adulterous affair.
    Indeed, ongoing complaints about the publication of inaccurate 
motives has led the Colombian Attorney General's Office to stop issuing 
public reports regarding motives in these cases.
    Second, are prosecutors conducting thorough and systematic 
investigations aimed at holding all those who are responsible for both 
the planning and executing the labor killings?
    Some legal observers say that prosecutors are shortchanging 
investigations after only securing convictions against the ``material 
author'' of the crime. The material author is likely to be the low-
level person who pulled the trigger and not one of the ``intellectual 
authors'' who either ordered, planned or paid for the killing.
    Finally, today's hearing will inquire about additional obstacles 
that prevent Colombian workers from exercising their fundamental 
rights. The International Labor Organization has identified significant 
areas where Colombia's labor laws are non-compliant with core 
international labor standards.
    By raising these questions today, I hope that we can begin to find 
solutions to ensure that the backlog of murders are fully adjudicated 
and that Colombian workers have basic labor rights to which all workers 
should be entitled.
                                 ______
                                 
    Mr. McKeon. Thank you, Mr. Chairman. We are here today for 
the first hearing of the Education and Labor Committee in the 
111th Congress. Last week we learned that nearly 600,000 
Americans lost their jobs in the month of January. About 3.6 
million jobs have been lost since the recession began just over 
a year ago. Stock values are down, and with them the value of 
millions of workers' retirement savings.
    I could go on about the grim economic circumstances before 
us, but I think we are all well-aware of the challenges we face 
and particularly the impact on the American workforce. Any of 
these challenges would seem an appropriate topic for the first 
hearing of this panel.
    Unfortunately, we are not here to examine our nation's dire 
economic straits today. Instead the majority has decided the 
first order of business for this committee, the committee that 
oversees job training and retirement security and health care 
is an examination of the circumstance of workers in Colombia.
    Don't get me wrong. I am troubled by the reports of the 
violence in Colombia. And I personally believe that one of the 
best things we can do to stem the violence and improve 
conditions in that country would be to enact the stalled 
Colombia free trade agreement.
    But here in this room where we have a responsibility to 
look out for the concerns of the American workers, American 
students and American families, I find it baffling that we are 
setting those issues aside to look at the situation facing 
workers in a foreign country. Certainly, this Congress has a 
role to play in protecting human rights around the world. And 
to that end, we have an entire committee dedicated to foreign 
affairs.
    To the witnesses who are here today, I do want to thank you 
for joining us. While I clearly believe we should be focused on 
issues impacting American workers, I know that you have 
compelling stories to share and insights to offer. As long as 
we are here to examine this topic, perhaps we can expand the 
scope of the discussion to reflect the need for free trade to 
help put an end to the unacceptable pattern of violence in the 
nation of Colombia.
    I would also like to point out, Mr. Chairman, that 
Ambassador Barco is here from Colombia. I think she should be 
recognized. I hope as we continue to work on this issue, if we 
are going to do that, it would be good to let her have a chance 
to state perhaps the other side of the issue. It is unfortunate 
that we can't have her testifying here today.
    Once again, I want to thank the witnesses for being here. I 
hope the next time this panel gathers the topic will hit a 
little bit closer to home. I think we owe that to the 600,000 
workers who lost their jobs last month.
    And I yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you. We're here today for the first hearing of the Education 
and Labor Committee in the 111th Congress. Last week, we learned that 
nearly 600,000 Americans lost their jobs in the month of January. About 
3.6 million jobs have been lost since the recession began just over a 
year ago. Stock values are down, and with them, the value of millions 
of workers' retirement savings.
    I could go on about the grim economic circumstances before us, but 
I think we're all well aware of the challenges we face, and 
particularly the impact on the American workforce.
    Any of these challenges would seem an appropriate topic for the 
first hearing of this panel. Unfortunately, we're not here to examine 
our nation's dire economic straits today. Instead, the majority has 
decided that the first order of business for this committee--the 
committee that oversees job training and retirement security and health 
care--is an examination of the circumstances of workers in Colombia.
    Don't get me wrong. I am troubled by reports of the violence in 
Colombia, and I personally believe that one of the best things we can 
do to stem the violence and improve conditions in that country would be 
to enact to the stalled Colombia free trade agreement.
    But here in this room, where we have a responsibility to look out 
for the concerns of American workers, American students, and American 
families, I find it baffling that we're setting those issues aside to 
look at the situation facing workers in a foreign country.
    Certainly, this Congress has a role to play in protecting human 
rights around the world. And to that end, we have an entire committee 
dedicated to foreign affairs.
    To the witnesses who are here today, I do want to thank you for 
joining us. While I clearly believe we should be focused on issues 
impacting American workers, I know that you have compelling stories to 
share and insight to offer. As long as we're here to examine this 
topic, perhaps we can expand the scope of the discussion to reflect the 
need for free trade to help put an end to the unacceptable pattern of 
violence in the nation of Colombia.
    Once again, I want to thank the witnesses for being here today. I 
hope that the next time this panel gathers, the topic will hit a little 
bit closer to home. I think we owe that to the 600,000 workers who lost 
their jobs last month.
    I yield back.
                                 ______
                                 
    Chairman Miller. I thank the gentleman for his statement. 
He will get an opportunity to help those 600,000 workers later 
today on the floor when we vote on the Economic Recovery Act 
that extends their unemployment benefit, extends their food 
stamp benefit, extends their health care benefits. So we will 
get an opportunity to do that later today.
    I, too, want to recognize Ambassador Barco. She has sent, 
on behalf of the Colombian government, transmittal to us 
providing us additional information of documents that have been 
prepared by the government on this continuing issue.
    This is not a minor issue between these two countries. And 
it is not a minor issue with respect to the free trade 
agreement. I am trying to have these hearings outside of the 
consideration of the free trade agreement so we can develop an 
answer to the questions that are being raised by people across 
our country about this issue and whether or not American 
workers are going to be required to compete with people that 
when they try to organize a workplace, the army shows up to put 
an end to it. So this is fundamental to wages in this country 
and to protections in this country.
    So without objection, I would ask that the documents 
submitted by Ambassador Barco be included in the record of this 
hearing. Hearing no objection, so ordered.
    [The information provided by the Colombian Government may 
be accessed at the following Internet address:]

             http://colombiaemb.org/docs/labor%20documents/
 embassy%20of%20colombia%20material%20on%20labor%20february%202009.pdf

                                 ______
                                 
    Chairman Miller. I would also say that Ambassador Barco has 
been very helpful to this committee, to me, both when I 
traveled to Colombia and in following up on questions that we 
have submitted to various agencies of the Colombian government 
with respect to this issue. She has worked very hard to get us 
responses and to go back and get us more comprehensive 
responses when we weren't satisfied with the first ones. So I 
want to thank her for her service. And I would like to 
recognize her.
    Ambassador Barco, please--thank you very much.
    And with that, for those who just came in, we will be 
allowing our witnesses some additional time because of the need 
for translations. And we have discussed this with the minority, 
and both sides have agreed to it.
    With that, I would like to welcome our witnesses today. 
Several of them have traveled all the way from Colombia. And we 
are very grateful for their willingness to come here and to 
share their perspectives and opinions.
    We are aware that some of our witnesses may be taking on 
substantial personal risk by being here today. Far too many 
times, senior government officials in Colombia have made 
statements stigmatizing legitimate human rights work, labor 
union advocacy and criticism of the government's policy as 
somehow a cover for the FARC guerilla activities.
    Such comments were made publicly just this past weekend 
about those Colombians who travel abroad to discuss current 
human rights situations. Given that those unfortunate comments 
have been made just days prior to the travel of the witnesses 
we have invited here today, I must state that I trust and hope 
that the Colombian government will treat our witnesses at 
today's hearings respectfully and will refrain from making 
similar accusations against them.
    I would like to begin by introducing Jose Luciano Sanin, 
who is the professor of constitutional law and director of the 
National Labor School, a research organization based in 
Medellin, Colombia. Mr. Sanin is executive director since 2006. 
And prior to that, he was the organization's academic director. 
He has written extensively on a broad range of topics, 
including the Colombian constitutional court, political and 
human rights and the core labor standards set out by the 
International Labor Organization.
    Our next witness will be Yessika Hoyos from Bogota, 
Colombia, where she recently graduated from law school and now 
works on human rights cases at a nonprofit law firm. Ms. Hoyos 
comes to this work after having personally experienced the loss 
of her father to anti-union violence. She is a founding member 
of the organization called Sons and Daughters Against Impunity, 
which advocates for justice to be done in uninvestigated and 
untried cases currently pending in the Colombian judicial 
system.
    Judge Jose Nirio Sanchez was a distinguished Colombian 
judge for 35 years. And during that time, he received 
commendations from the U.S. Drug Enforcement Agency for his 
work to help bring Pablo Escobar to justice. Judge Sanchez is 
among the original set of three judges appointed in 2007 to 
serve on a special court designed to address the backlog of 
labor-homicide cases.
    After only 6 months on that special court, Judge Sanchez 
was unexpectedly removed by a very narrowly split vote of a 
judicial committee. To my knowledge, nobody has offered any 
meaningful explanation for his removal, though I do note that 
the Colombian vice president wrote me and stated that Judge 
Sanchez was an excellent judge. Given that high 
recommendation,I am glad that Mr. Sanchez has agreed to share 
the lessons learned from his time adjudicating labor-homicide 
cases with the committee today.
    Maria McFarland is a senior America's researcher for Human 
Rights Watch where she covers Latin America and serves as the 
organization's primary expert on Colombia's ongoing internal 
armed conflict. Ms. McFarland has traveled extensively 
throughout Colombia and has researched and written several 
major publications on that topic. She has also testified before 
the U.S. Congress and the Canadian Parliament and is a frequent 
voice in the media on Colombia-related issues.
    Our final witness will be James M. Roberts, who is a 
research fellow in economic freedom and growth at the Heritage 
Foundation's Center for International Trade and Economics. He 
previously served the U.S. State Department as a foreign 
service officer for 25 years and coordinated various U.S. 
assistance programs. Mr. Roberts holds a master's degree in 
international and developmental economics from Yale University, 
an MBA from the University of Pittsburgh and a bachelor's 
degree in international affairs from Lafayette College in 
Eastern Pennsylvania.
    Welcome to all of our witnesses. And again, we will provide 
sufficient time so that you can properly lay out the concerns 
that you want this committee to hear.
    And, Mr. Sanin, we are going to begin with you. And you are 
going to have to figure out how you share the microphone with 
your interpreter.

  STATEMENT OF JOSE LUCIANO SANIN VASQUEZ, DIRECTOR, ESCUELA 
             NACIONAL SINDICAL, MEDELLIN, COLOMBIA

    Mr. Sanin [speaking Spanish].
    Translator. I will be doing the interpretation when he 
finishes.
    Chairman Miller. Why don't you cut it into thirds, if you 
might? Thank you. Don't worry about it. We will get through 
this.
    Mr. Sanin [through translator]. Colombia is in the midst of 
a very serious and unique situation of hostility towards the 
exercise of labor union rights and freedom of association. A 
few statistics are sufficient to demonstrate this fact.
    And first, I am going to talk about violence against labor 
unions in Colombia and impunity as well. Approximately 1 union 
worker has been murdered every 3 days over the past 23 years, 
which translates into 2,694 murders between the first of 
January of 1986 and December 31, 2008.
    After a reduction of 60 percent in the rate of homicides 
between the years 2003 and 2007, in 2008----
    Chairman Miller. We are going to need you to speak right 
into the microphone. I don't know if you need an adjustment. 
Thank you.
    Translator. Sorry about that.
    Mr. Sanin [through translator]. In 2008 we had a serious 
increase of 25 percent, going from 39 homicides in 2007 to 49 
in 2008. Sixteen of those murdered were union leaders. And as 
far as we have gotten this year, we already have three cases of 
homicides and 14 death threats.
    Every year more than 60 percent of union members that are 
murdered throughout the world are Colombians. The rate of union 
murders in Colombia is five times greater than that of any 
other place in the world, including those dictatorial regimes 
that don't allow unionization.
    Union workers in Colombia have been the victims of 9,911 
violent acts in the last 23 years. In addition to the murders, 
231 union members were the victims of attempted murder. One 
hundred and ninety-three were victims of forced disappearance. 
Four thousand, two hundred were threatened with death. And here 
in my hands I have the copies of 70 threats that were issued 
against union members in 2008.
    Thirty-five percent of these acts of violence have occurred 
under the government of President Alvaro Uribe. And 482 of the 
assassinations have occurred during his government.
    Of the 2,694 union members that have been murdered in the 
last 23 years, the attorney general's office informs us that it 
is investigating 1,104, which means that 60 percent of these 
cases either do not exist or we are not told about the 
existence of any criminal investigations that are underway. 
Additionally, only about 90 of the murdered union members have 
had cases successfully prosecuted against their murderers. This 
means that close to 96 percent of these murders remain unsolved 
and in impunity.
    These court decrees do not allow us to see the truth behind 
the facts because they punish only the material authors of 
these crimes and not their intellectual authors. The 
investigation is done case by case without a global strategy 
for investigating them. The union movement has been insistent 
in demanding an investigation of all cases and in proposing 
changes to the method of investigation that is currently being 
used.
    At the current rate of sentencing, justice will take 
approximately 37 years to overcome impunity. And that is under 
the assumption that no more murders occur from today on and 
that the special investigation and prosecutions unit is 
maintained.
    These numbers contradict what the Colombian government is 
telling the world, that anti-union violence and impunity are 
problems that have been overcome. Quite the contrary. The 
measures adopted are insufficient and inadequate because they 
have not been able to break the structural and historic anti-
union violence in the country.
    And I am going to give you some more numbers that have to 
do with the limitations and violations of workers' rights. In 
Colombia we have an institutional design and a governmental 
practice and business practice that goes against union freedom. 
One of these situations is made clear by the following numbers.
    First of all, I am going to talk about the obstacles to 
unionization. There are 18,749,836 workers in Colombia, out of 
whom less than 3 million have the right to associate in a union 
because the law establishes that this can be done only by those 
workers who are related through work contracts. That means that 
only four out of every 100 workers are currently affiliated to 
a union in Colombia.
    Chairman Miller. If you can ask that Mr. Sanin, if you 
might, start to wrap up his testimony. Thank you.
    Mr. Sanin [through translator]. The ministry of social 
protection between 2002 and 2007 denied the registration of 253 
new unions. This situation was reported several times to the 
Committee on Freedom to Unionize at the ILO, which produced 
various recommendations for these acts, arbitrary acts of the 
state to stop the creation and working of these unions.
    These acts began to diminish, thanks, not to the 
government, but because the constitutional court issued several 
decrees according to which the ministry of social protection is 
not authorized to deny the registration of these unions. This 
is partial progress to end the agreements under the ILO. But it 
requires legal regulation that will eliminate the obstacles and 
conflicts that persist today.
    Finally, I just want to talk about how this has affected 
the working cooperatives in Colombia. And this is a new model 
of labor relations that means very low costs and no workers' 
rights. And it is absolutely unsustainable.
    Recently there was a new law issued, but that ignores the 
recommendations that were made by ILO because it does not 
recognize those who are associated under these labor 
cooperatives. And it doesn't recognize their rights of 
association, negotiation or to strike and also does not give it 
sufficient measures to ensure that this is not used as a way to 
cheat on labor rights and to put at risk the conditions, the 
working conditions of Colombian workers.
    And I will be giving you an annex document with more 
details. Thank you.
    [The statement of Mr. Sanin follows:]

   Prepared Statement of Jose Luciano Sanin Vasquez, Director of the 
   Escuela Nacional Sindical (``National Labor School'') of Colombia 
                               (English)

    Colombia is in the midst of a very serious and unique situation of 
hostility towards the exercise of labor union rights and freedom of 
association. A few statistics are sufficient to demonstrate this fact:
1. Violence against labor unions in Colombia
    One union worker has been murdered approximately every three days 
over the past 23 years, which translates into 2,694 murder victims 
between the first of January of 1986 and December 31, 2008.
    Despite the great emphasis the current administration is placing on 
security, after a few years of declining murder rates, violence against 
labor unions showed a steep increase in 2008 of 25%, going from 39 
murders in 2007 to 49 in 2008. In addition, it is very serious that in 
2008, the number of murdered labor union leaders was 16, compared to 10 
murdered in all of 2007.
    More than 60% of the all murdered unionists in the world are 
Colombians. The murder rate of unionists in Colombia is five times that 
of the rest of the countries of the world, including those countries 
with dictatorships that have banned union activity.
    Violence against the union movement in the last 23 years has 
included 9,911 acts, in violation of the right to life, integrity and 
freedom of union members, one act of violence everyday. The highlights 
of these acts include 231 assaults on union leaders and 193 cases of 
forced disappearance. At least 4,200 unionists have received death 
threats because of their union activity, and 1,478 have been forced to 
leave their homes.

   VIOLATIONS OF THE RIGHT TO LIFE, LIBERTY AND PHYSICAL INTEGRITY OF
                          UNIONISTS IN COLOMBIA
                 [January 1, 1986 to December 31, 2008]
------------------------------------------------------------------------
           Type of Violation            Number of Cases     Percentage
------------------------------------------------------------------------
ILLEGAL HOUSE SEARCH..................              43              0.4
THREATS...............................           4,200             42.4
ASSAULT WITH OR WITHOUT INJURY........             231              2.3
DISAPPEARANCE.........................             193              1.9
FORCED DISPLACEMENT...................           1,478             14.9
ARBITRARY ARREST......................             587              5.9
MURDER OF A FAMILY MEMBER.............               3              0.0
MURDERS...............................           2,694             27.2
HARASSMENT............................             246              2.5
OTHERS................................               2              0.0
KIDNAPPING............................             161              1.6
TORTURE...............................              73              0.7
                                       ---------------------------------
      Total...........................           9,911              100
------------------------------------------------------------------------

    Of the 9,911 violations perpetrated against the life, liberty and 
physical integrity of unionists in Colombia between January 1, 1986 and 
December 31, 2008, 3,470, equaling 35%, have occurred during the 
administration of the current president of Colombia, Alvaro Uribe 
Velez.
    Of the 2,694 murders of unionists in Colombia during that same 
historical period, 482, equaling 18%, have occurred during this 
administration. These figures contradict the administration's 
assurances to the international community that the problem of violence 
against labor unions has been overcome, and the government has it under 
control.

   VIOLATIONS OF THE RIGHT TO LIFE, LIBERTY AND PHYSICAL INTEGRITY OF
                          UNIONISTS IN COLOMBIA
                  [August 7, 2002 to December 31, 2008]
------------------------------------------------------------------------
           Type of Violation            Number of Cases     Percentage
------------------------------------------------------------------------
ILLEGAL HOUSE SEARCH..................              23              0.7
THREATS...............................           2,083             60.0
ASSAULT WITH OR WITHOUT INJURY........              65              1.9
DISAPPEARANCE.........................              30              0.9
FORCED DISPLACEMENT...................             316              9.1
ARBITRARY ARREST......................             254              7.3
MURDERS...............................             482             13.9
HARASSMENT............................             175              5.0
KIDNAPPING............................              29              0.8
TORTURE...............................              13              0.4
                                       ---------------------------------
      Total...........................           3,470              100
------------------------------------------------------------------------

    The structural factors that have made violence against labor unions 
possible are still in place. The increase in murders in 2008 is an 
indication of that fact, as are the security plans that more than 1,500 
union leaders still have in place.
    The most worrisome fact is the political exclusion of the labor 
union movement, which has created widespread anti-union sentiment, 
fostered and exacerbated by an increasingly common and recurring 
practice on the part of the President of the Republic and high-level 
government officials, who make statements that undermine the legitimacy 
of labor unions by linking them to guerilla groups, or justifying the 
violence against labor unions as violence between the armed parties to 
the conflict, thereby, suggesting that labor unions are one of these 
groups.
    The ILO has referred to this situation for several years. Recently, 
at the 97th Conference (June of 2008), the Committee on the Application 
of Standards stated: ``(* * *) the Committee expressed its concern over 
an increase in violent acts against trade unionists in the first half 
of 2008. In view of the commitments made by the Government and referred 
to above, the Committee urged it to take further steps to reinforce the 
available protective measures * * * All of these steps were essential 
elements to ensure that the trade union movement might finally develop 
and flourish in a climate that was free from violence (* * *)''
2. Impunity of murders of unionists
    The investigation and prosecution of crimes against labor unionists 
was an obligation of the Colombian government that had been forgotten. 
The Subdivision of the Public Prosecutor and the judges specializing in 
this area constitute the government's first effort to respond to the 
critical situation of human rights and violence against the labor union 
movement.
    However, 2,694 unionists have been murdered in the past 23 years, 
and the Subdivision of Investigation has only recognized the existence 
of 1,302 cases to be prosecuted, and has only been able to physically 
locate the case files of 1,104, which means that 60% of the cases do 
not exist, or are not the subject of any reported on-going criminal 
investigation.
    The reports issued by the Public Prosecutor led to the conclusion 
that there are no important results in terms of moving forward with the 
criminal investigations. According to the January 2009 report of the 
Public Prosecutor, with regard to the 1,104 cases they are 
investigating, 654 cases (59.23%) are in preliminary stages. That means 
that in more than half the cases, no suspect has been identified. Two 
hundred and eight cases (18.84%) are in the preliminary investigation 
stage, which is the stage in which a formal investigation of an 
identified suspect is carried out. In 91 cases (8.24%), the Public 
Prosecutor has filed charges before the judges.
    With regard to the total of 1,104 cases under investigation, the 
number of convictions was 120. This means that only 10.86% of the cases 
have made progress in determining the responsibility of the 
perpetrators of crimes against labor unionists.
    With regard to the 185 prioritized cases, the number of convictions 
covered only 31 victims. That is, with regard to the total number of 
prioritized cases, there have been convictions in only 16.75% of the 
victims' cases.
    There have been convictions in just 90 cases of murdered unionists. 
Presuming that there is some progress in terms of impunity for these 
victims, the percentage of those whose cases remain in impunity is 
96.7% of the crimes. According to the January 2009 report, without 
access to all the information provided in July of 2008, but rather just 
on the basis of the numbers of convictions by judges, and assuming that 
each conviction represents one victim, impunity remains at nearly 96%.
    Calculating the monthly average output of the judges, between 
September and December of 2007, an average of 11 convictions were 
issued per month. This same monthly calculation for all of 2008 and 
January of 2009 yields 5.9 convictions per month. We can conclude from 
this quantitative analysis of the work of the subdivision and the 
judges, that at the rate of 70 convictions handed down annually by the 
country's judges and the ILO sentencing judges, each one representing 
one labor unionist victim, it would take the justice system around 37 
years to overcome the prevailing impunity, presuming no more murders 
occur starting today, and the continued existence of the special 
investigation and prosecution division.
    With regard to the convictions handed down, the following matters 
are cause for grave concern:
    1. The convictions have primarily identified the material authors 
and their intentions. In the majority of cases, the chain of 
responsibility of those responsible has not been established.
    2. In the majority of the convictions, no reference is made to the 
personal context of the victim, or the union affiliation, or regional 
context, in which the violence against labor unions occurred.
    3. Investigations are carried out on a case-by-case basis, with no 
comprehensive investigational strategy for cases that are clearly 
systematic, deliberate and selective, as are the cases of violence 
against labor unions. The labor union movement has consistently 
proposed changes to the methods of investigation used. Given that 
nearly 75% of the violence against labor unions has been committed 
against 30 labor union organizations in 6 departments of the country, 
the investigations should be re-organized.
    4. The investigations fail to identify all the crimes committed 
and, therefore, the convictions fail to punish the perpetrators for all 
of them. In multiple convictions, for example, torture and forced 
disappearance are not punished, and the perpetrators are sentenced for 
the murder only. This leaves acts that constitute violence against 
labor unionists in impunity.
    5. There are only convictions at the level of second instance in 
five cases. That means that of the 108 convictions counted as of July 
of 2008, 103 could still be reversed by means of appeals the convicted 
persons may file, and they could, therefore, ultimately be acquitted.
    On several occasions, the ILO has referred to the matter of 
impunity. Recently, during the 97th Conference, June 2008, the 
Committee on the Application of Standards stated: ``(* * *) the 
Committee urged it (. * * *) to render more efficient and expedient the 
investigations of murders of trade unionists and the identification of 
all of its instigators. Such measures should include an enhanced 
investment of necessary resources in order to combat impunity, 
including through the nomination of additional judges specifically 
dedicated to resolving cases of violence against trade unionists. All 
of these steps were essential elements to ensure that the trade union 
movement might finally develop and flourish in a climate that was free 
from violence (* * *)''
3. Limitations and violations of Freedom of Association
    In Colombia, we have an institutional design, as well as government 
and company practices that are contrary to the freedom of association. 
This places a large number of obstacles in the way of the creation of 
union organizations, and the free functioning of existing unions. This 
includes election of representatives, modification of by-laws, 
collective bargaining, striking, participation in public dialogue, etc. 
The following figures are evidence of this:
            a. Obstacles to Freedom of Association
    In Colombia today, there are 18,749,836 workers, of which, fewer 
than 3 million have the right to join a union. This is because the law 
specifies that only those workers working under employment contracts 
can exercise that right. This is in violation of international labor 
conventions and standing ILO recommendations to the Colombian 
government. Thus, only 4 of every 100 workers are affiliated with a 
labor union in Colombia.
    The Ministry of Social Protection, in the period of 2002-2007, 
denied the registration of 515 labor union registry petitions. Of 
these, 253 were denials of new labor union charters.
----------------------------------------------------------------------------------------------------------------
                  Registration
  Labor Union      of Board of     Creation of      Creation of     Changes to     Revocation of       Total
    Charters        Directors     Subcommittees     Committees        Bylaws       Registration
----------------------------------------------------------------------------------------------------------------
          253             189               47               9               7              10             515
----------------------------------------------------------------------------------------------------------------

    This situation has been reported on multiple occasions before the 
ILO Committee on Freedom of Association, which issued recommendations 
to register these charters, as it considered these acts to constitute 
undue government interference. Just by way rulings C-465, C-621 and C-
672 of 2008 among others, of the Constitutional Court, the Ministry of 
Social Protection lost its jurisdiction to deny registration in the 
labor union registry. This is an advance that partially satisfies ILO 
conventions.
    These rulings address only one problem, that of arbitrary 
government interference at the time of registration in the registry. 
However, an additional series of legal limitations of the right of 
association persist in Colombia, which have not been modified. Laws 
that impede the right of free association for all types of workers, 
Art. 5 CST, must be modified or repealed. Likewise, laws that limit the 
freedom to choose the union structure the workers see fit, Art. 365 
CST, must also be modified or repealed. The establishment of an 
expedited judicial mechanism, that would provide a means of quickly 
resolving possible conflicts in the registration of labor union 
charters and other matters related to union representation, is also 
necessary.
    The ILO has repeatedly made comments and recommendations in the 
area of the right to free labor union association. Recently, during the 
97th ILO Conference, the Committee on the Application of Standards 
stated: ``(* * *) it called upon the Government to ensure that all 
workers, including those in the public service, may form and join the 
organization of their own choosing, without previous authorization, in 
accordance with the Convention. In this regard, the Committee called 
upon the Government not to use discretionary authority to deny trade 
union registration * * *''
            b. Collective Bargaining, a right accorded to few
    In Colombia, only 1.2 of every 100 workers benefit from a 
collective bargaining agreement. If we compare the period of 1996-1997 
with the period of 2006-2007, we will find that in the first period, 
1,579 collective bargaining agreements were signed, of which 983 were 
collective contracts, 592 were collective pacts, and 5 were union 
contracts, covering 462,641 beneficiaries; while in the second period, 
925 collective bargaining agreements were signed, of which 639 were 
collective contracts, 276 were collective pacts, and 10 were union 
contracts, covering 176,948 beneficiaries. This demonstrates a 
significant reduction in collective bargaining and its coverage: 
285,693 beneficiaries lost their contractual guarantees, approximately 
62% of the beneficiaries of a decade ago are now unprotected. This 
phenomenon is explained by the enormous legal and practical obstacles 
to the existence and free operation of workers' organizations, to the 
lack of promotion of bargaining, to the small number of workers able to 
bargain, and to the failure of the government to modify its legislation 
to comply with the labor standards of conventions 87, 98, 151 and 154, 
ratified by Colombia.
    The primary problems are as follows:
    <bullet> Collective pacts and extralegal benefits plans are 
permitted, to the detriment of the unions' right to collective 
bargaining.
    <bullet> Unionization is hampered, and therefore, so is the signing 
of collective bargaining agreements for workers with contracts 
differing from employment contracts, Art. 5 CST. This excludes workers 
with service contracts, those associated with work cooperatives, those 
with apprenticeship contracts, the unemployed, workers with a 
regulatory relationship with the government, and workers in the 
informal sector, which make up more than 85% of the working population.
    <bullet> The Ministry of Social Protection exercises poor 
oversight. It does not investigate or sanction the union-busting 
practices of employers, nor does it promote the protection of the right 
of association and bargaining.
    <bullet> The imposition of obligatory arbitration courts to resolve 
points not agreed upon in negotiations. This is an intervention by 
authorities that, in principle, impinges on, and makes collective 
bargaining more difficult.
    <bullet> The prohibition of collective bargaining and striking by 
unions of public employees.
    <bullet> The lack of bargaining by field or economic activity, and 
the inability to bargain for different levels.
    The right to promote and defend the interests of workers by means 
of collective bargaining that seeks to improve working conditions is, 
in current practice, illegal for some and nearly impossible to exercise 
for others. This is due to legal provisions that limit or prohibit free 
bargaining between the parties. This is a situation that ILO oversight 
bodies have identified as contrary to the conventions ratified by 
Colombia, and whose recommendations have been intentionally ignored by 
the government, which has failed to take measures to promote 
bargaining.
            c. Right to Strike--its exercise is practically impossible
    The right to strike is a fundamental right of all workers, used to 
defend their labor rights in a peaceful manner. This right is not 
absolute in nature. The ILO acknowledges that the right to strike can 
be limited in those services whose interruption may endanger the life, 
safety or health of a person or a portion of the population, but these 
limits can only be established for democratic reasons, and those 
necessary to protect the rights and freedoms of others, and always by 
way of law.
    In the period 2002-2007, 122 petitions of illegality of suspension 
of activities were submitted to the Ministry of Social Protection, of 
which, 66 were declared illegal.
    Against this backdrop, we can understand why unions stage few 
strikes in Colombia. The legislative limitations and the actions of the 
Ministry of Social Protection demonstrate that staging a strike is 
nearly impossible, because of legislation contrary to the conventions 
on freedom of association. More so, if we take into account the fact 
that Art. 450 num. 2 allows employers to fire workers who participate 
in an illegal strike. In this context, on July 14, the Congress 
promulgated Law 1210 of 2008, which modifies the provisions that 
regulate the exercise of the strike in the country. Law 1210 includes 
only two of the ILO's ten recommendations to Colombia in the area of 
strike regulation. First, it transfers the jurisdiction the Ministry of 
Social Protection formerly had, to determine the illegality of a strike 
to labor jurisdiction. And second, it creates of a voluntary 
arbitration court, which was formerly obligatory if a strike went 
beyond 60 days.
    On the other hand, in violation of ILO doctrine, article 1, 
paragraph 2, of this law gave the President of the Republic the 
authority to order the cessation of strikes ``* * * If a strike 
seriously impairs the health, safety, public order or economy of all or 
part of the population due to its nature or scope * * *''
    The changes introduced by the law are procedural and not 
substantive. This, being the case, going forward, judges will declare 
strikes to be illegal for the same reasons the Ministry of Social 
Protection did so in the past.
    The most critical part of Law 1210 of 2008 is not so much what it 
includes, but rather what it fails to include, given that the exercise 
of the right to strike is extremely limited in Colombia, when compared 
to the recommendations of the Committee on Freedom of Association 
(CFA), and the Committee of Experts on the Application of Conventions 
and Recommendations (CEACR) of the ILO. The following are the most 
serious omissions in the law:
    1. The Colombian legislation defines the strike as a point in 
collective bargaining, and not as the fundamental means of defense of 
workers. It is only permitted in the process of negotiation of a list 
of demands and in no other case.
    2. Contrary to the principles of freedom of association, the 
prohibition of strikes by federations and confederations, or those 
staged by unions by field of economic activity was not repealed. This 
right remains reserved for company unions, which represents a 
curtailment of the right to strike.
    3. It is necessary to define what is meant by essential public 
service, and to regulate the concept of provision of minimal services. 
The lack of such definitions results in near total prohibition of the 
exercise of the strike by workers employed by companies that provide 
public services.
    4. Changes must be made to current strike regulations such that 
solidarity strikes are not prescribed.
    5. The law requires a qualified majority to declare a strike, that 
is, half plus one of the workers of a company. This makes it nearly 
impossible to achieve a strike declaration in practice, especially in 
companies with a large number of workers or when the union is in the 
minority.
    6. The omission regarding strikes for the purpose of resolving a 
local or section problem must be resolved.
    7. The legislation should allow workers with contractual 
relationships different from employment relationships to exercise their 
right of association and their right to strike.
    8. A declaration of illegality of a strike results in the 
employer's ability to fire workers, who intervene in or participate in 
an illegal suspension of activities.
4. The large deficit of good jobs in Colombia--the case of the 
        Associated Work Cooperatives
    The labor policies and laws of recent years have been characterized 
by maintaining the exclusion from social and labor protection of more 
than two thirds of workers, and by denying and evading the minimum 
labor rights of 12 million workers. The Colombian government, rather 
than advancing in terms of minimum labor standards, produces 
legislation and practices that are contrary to decent work, thereby, 
leaving nearly 70% of workers in a situation of job insecurity. The 
Associated Work Cooperatives are evidence of this situation of job 
insecurity.
    The recent strikes of African palm workers and cane cutters, the 
conflict with the workers of the Port of Buenaventura, as well as the 
situation of workers in superstores, the apparel industry, 
floriculture, the health sector, security guards, etc., demonstrate 
that the so-called associated work cooperatives (AWC), have contributed 
to the deterioration of the quality of employment in Colombia. The 
organizations that have been established under the legal definition of 
the AWC do not, in fact, represent cooperative principles, and they 
abuse the right to cooperative association, in order to evade workers' 
rights to the benefit of employers and of those who seek to establish 
such organizations as fronts for employers. The so-called AWCs are 
pseudo cooperatives.
    The AWCs are used by companies as a form of outsourcing, that has 
allowed them to transfer company costs and replace or fire workers with 
employment contracts, and, in many cases, unionized workers with 
collective bargaining agreements. The hugely lower cost, and an 
employment relationship with no rights, resulted in the spread of the 
AWCs as a ``new model of labor relations'' to the extent that in 
February of 2008, there were 12,068 registered AWCs. In 2007, it was 
estimated that there were 4,221,108 \1\ AWC members.
---------------------------------------------------------------------------
    \1\ Statist published on the web site of the superintendency for 
economic solidarity, accessed February 6, 2009
---------------------------------------------------------------------------
    In the face of this job insecurity, Law 1233 of 2008 was 
promulgated, which had its origins in a bill presented by the 
government, as the North American congress was approaching a vote on 
the FTA with Colombia. The bill was limited to establishing the 
obligation to pay parafiscal taxes on the part of the Associated Work 
Cooperatives (AWC). While this bill was making its way through the 
Congress of the Republic, there were many debates and proposals, and as 
a result, the law addresses additional matters as well.
    However, the government will not be able to point to this law as an 
advance in relation to international demands in this area, since the 
recommendations of the ILO oversight bodies have been clearly ignored. 
Law 1233 does not recognize the rights of association, bargaining and 
strike of the affiliates of an AWC, nor does it provide sufficient 
measures to prevent the AWC from being used as a means of evading labor 
and union rights. In sum, we can affirm that this law allows the AWCs 
to continue to be used as tools for evading labor rights, and creating 
insecure conditions for workers since it did not resolve crucial 
matters such as:
    1. AWC members do not enjoy the fundamental and essential rights 
they would have as workers under labor contracts.
    2. When hiring AWCs, companies are able to externalize payroll 
costs and render them not chargeable to the company. The companies are 
only responsible for what they sign off on in the commercial bid, with 
no possibility even of suing them for violation of labor rights.
    3. In order to avoid the costs of social security contributions, 
employers prefer to hire AWCs, in which such contributions are wholly 
the responsibility of the members.
    4. The primary activity of the AWC is to act as a labor 
intermediary. The great majority of the activities of the AWC stem from 
contracts with companies as labor intermediaries, and in practice, 
companies replace their workers with AWC members.
    5. There is a near complete lack of oversight of AWCs. Thus, only a 
small fraction of them are currently in compliance with applicable 
regulations.
    6. There is a lack of democratic participation of AWC members. Due 
to the lack of reasonable limits on the terms of the administrative 
boards of the AWCs, many members believe that the AWCs have owners 
instead of administrator, since the commercial bid signed by the 
company and the AWC is not subject to the approval of a general 
assembly of the members.
    7. There is competition among AWCs to offer the worst and cheapest 
contracts, which creates a sort of war for pennies among them.
    8. The AWCs are used as a tool to weaken and diminish the unions. 
AWC members do not have the right to unionize, because according to the 
Ministry of Social Protection, they are not employees, but rather, 
providers of labor.
    The ILO has issued several comments and recommendations regarding 
Associated Work Cooperatives. Recently, during the 97th Conference 
(June of 2008), the Committee on the Application of Standards stated: 
``* * * In particular, the Committee expected that legislation would be 
adopted rapidly so as to ensure that service contracts, other types of 
contracts, cooperatives and other measures were not used as a means of 
undermining trade union rights and collective bargaining * * *''
                                 ______
                                 

       Prepared Statement of Jose Luciano Sanin Vasquez (Spanish)

    En Colombia se vive una muy particular y grave situacion de 
hostilidad para el ejercicio de los derechos laborales y las libertades 
sindicales, basta mencionar algunas cifras para demostrar esta 
situacion:
1. Violencia antisindical en Colombia
    Aproximadamente cada tres dias durante los ultimos 23 anos ha sido 
asesinada una trabajadora o un trabajador sindicalizado, lo que se 
traduce en 2.694 victimas asesinadas entre el primero de enero de 1986 
y el 31 de diciembre de 2008.
    Pese al gran enfasis que el actual gobierno hace en la seguridad, 
la violencia antisindical luego de algunos anos de disminucion en los 
homicidios, presento en 2008 un grave incremento del 25%, pasando de 39 
homicidios en 2007 a 49 en 2008. Adicionalmente, resulta muy grave que 
en 2008 los dirigentes asesinados son 16 frente a 10 asesinados durante 
todo el 2007.
    Mas del 60% de los sindicalistas asesinados en todo el mundo son 
colombianos. La tasa de sindicalistas asesinados en Colombia es cinco 
veces mayor a la del resto de paises del mundo incluidos aquellos donde 
regimenes dictatoriales proscriben el sindicalismo.
    La violencia contra le movimiento sindical en lo ultimos 23 anos ha 
significado 9911 hechos violatorios del derecho a la vida, la 
integridad y la libertad personal de las personas sindicalizadas, un 
hecho de violencia cada dia. Entre las que se destacan 231 atentados 
contra lideres sindicales y 193 casos de desaparicion forzada. Por lo 
menos 4200 sindicalistas han recibido amenazas de muerte por su 
actividad sindical y 1478 han tenido que desplazarse forzadamente.

   VIOLACIONES DEL DERECHO A LA VIDA, A LA LIBERTAD Y A LA INTEGRIDAD
                   FISICA DE SINDICALISTAS EN COLOMBIA
                   [1 Enero 1986 al 31 Diciembre 2008]
------------------------------------------------------------------------
           Tipo de Violacion              Numero Casos          %
------------------------------------------------------------------------
ALLANAMIENTO ILEGAL...................              43              0,4
AMENAZAS..............................            4200             42,4
ATENTADO CON O SIN LESIONES...........             231              2,3
DESAPARICION..........................             193              1,9
DESPLAZAMIENTO FORZADO................            1478             14,9
DETENCION ARBITRARIA..................             587              5,9
HOMICIDIO DE FAMILIAR.................               3              0,0
HOMICIDIOS............................            2694             27,2
HOSTIGAMIENTO.........................             246              2,5
OTROS.................................               2              0,0
SECUESTRO.............................             161              1,6
TORTURA...............................              73              0,7
                                       ---------------------------------
      Total...........................            9911              100
------------------------------------------------------------------------

    De las 9.911 violaciones perpetradas contra la vida, libertad e 
integridad de sindicalistas en Colombia entre el 1 de enero de 1986 y 
el 31 de diciembre de 2008, 3470 equivalentes al 35% se han presentado 
durante el gobierno del actual presidente de Colombia Alvaro Uribe 
Velez.
    De los 2.694 asesinatos de sindicalistas ocurridos en Colombia en 
ese mismo periodo historico, 482 equivalentes al 18% se han presentado 
durante este Gobierno, cifras que contradicen el argumento del Gobierno 
ante la comunidad internacional, de que la violencia antisindical es un 
problema superado y esta bajo control por parte del Estado.

   VIOLACIONES DEL DERECHO A LA VIDA, A LA LIBERTAD Y A LA INTEGRIDAD
                   FISICA DE SINDICALISTAS EN COLOMBIA
                  [7 Agosto 2002 al 31 Diciembre 2008]
------------------------------------------------------------------------
           Tipo de Violacion              Numero Casos          %
------------------------------------------------------------------------
ALLANAMIENTO ILEGAL...................              23              0,7
AMENAZAS..............................            2083             60,0
ATENTADO CON O SIN LESIONES...........              65              1,9
DESAPARICION..........................              30              0,9
DESPLAZAMIENTO FORZADO................             316              9,1
DETENCION ARBITRARIA..................             254              7,3
HOMICIDIOS............................             482             13,9
HOSTIGAMIENTO.........................             175              5,0
SECUESTRO.............................              29              0,8
TORTURA...............................              13              0,4
                                       ---------------------------------
      Total...........................            3470              100
------------------------------------------------------------------------

    Los factores estructurales que han posibilitado la violencia 
antisindical persisten, el incremento de homicidios en el ano 2008 es 
muestra ello, asi como los esquemas de proteccion que aun tienen mas de 
1500 dirigentes sindicales.
    El facto mas preocupante es el referido al proceso de exclusion 
politica del movimiento sindical que ha generado una profunda cultura 
antisindical, promovida y agravada por una practica cada vez mas comun 
y recurrente del Presidente de la Republica y de altos funcionarios del 
gobierno nacional, que realizan declaraciones en contra de la 
legitimidad del sindicalismo, vinculandolo con los grupos guerrilleros, 
o justificando la violencia antisindical como una violencia entre los 
actores armados del conflicto, senalando de paso que el sindicalismo es 
parte de alguno de ellos.
    Desde hace varios anos la OIT se ha referido a esta situacion, 
recientemente en la 97 Conferencia (junio de 2008) la Comision de 
aplicacion de normas senalo: ``(* * *) la Comision expreso su 
preocupacion en relacion con el aumento de actos de violencia contra 
sindicalistas durante la primera mitad del ano 2008. En vista de los 
compromisos asumidos por el Gobierno antes mencionados, la Comision lo 
insto a que adopte nuevas acciones para reforzar las medidas de 
proteccion disponibles. * * * Todas estas medidas son elementos 
esenciales para asegurar que le movimiento sindical pueda finalmente 
desarrollarse y afirmarse en un clima libre de violencia (* * *)''
2. Impunidad en los homicidios contra sindicalistas
    La investigacion y juzgamiento de los crimenes contra sindicalistas 
era una obligacion del Estado colombiano echada al olvido. La Subunidad 
de Fiscalia y los jueces especializados en el tema constituyen el 
primer esfuerzo del Estado por responder a la critica situacion de 
derechos humanos y de violencia contra el movimiento sindical.
    Sin embargo, 2.694 sindicalistas han sido asesinados en los ultimos 
23 anos y la a Subunidad de investigacion ha reconocido tan solo la 
existencia de 1.302 casos que deben ser llevados y tan solo han 
encontrado fisicamente los expedientes de 1.104, lo que significa que 
en el 60% de los casos no existen o no se informa la existencia de 
investigaciones penales en curso.
    De los informes producidos por la Fiscalia se puede concluir que no 
hay resultados importantes en materia de impulso a las investigaciones 
penales. Segun el informe de la Fiscalia de enero de 2009, respecto de 
los 1.104 casos que estan investigando, 654 casos (59,23%) se 
encuentran en etapa preliminar, es decir, en mas de la mitad de los 
casos no hay identificacion del presunto autor. 208 casos (18,84%) se 
encuentran en instruccion, etapa en la que se adelanta la investigacion 
formal contra alguna persona identificada. En 91 casos (8,24%) de los 
casos tienen acusacion frente a los jueces por parte de la Fiscalia.
    Respecto de la totalidad de los 1.104 casos investigados, las 
sentencias producidas fueron 120, esto significa que solo el 10,86% de 
los casos tiene algun tipo de avance en determinacion de 
responsabilidad de los autores de los crimenes contra sindicalistas.
    Sobre los 185 casos priorizados el numero de sentencias producidas 
es solo sobre 31 victimas. Es decir, respecto del total de los casos 
priorizados solo el 16,75% de las victimas llega a obtener sentencia.
    Solo sobre 90 sindicalistas asesinados hay sentencias 
condenatorias. Suponiendo que para esas victimas haya algun tipo de 
avance en materia de impunidad, el porcentaje de los que continuarian 
en ella es del 96,7% de los crimenes. De acuerdo al informe de enero de 
2009, sin tener la posibilidad de conocer todos los datos 
proporcionados en julio de 2008, sino solamente por el dato numerico de 
las sentencias de los jueces, y asumiendo que cada una de las 
sentencias contiene una victima, la impunidad se mantiene en casi el 
96%.
    Haciendo un promedio mensual del trabajo de los jueces, entre 
septiembre y diciembre de 2007 se produjeron en promedio 11 sentencias 
al mes. Ese mismo calculo mensual durante todo el 2008 y enero de 2009 
ha arrojado 5,9 sentencias al mes. Este analisis cuantitativo del 
trabajo de la subunidad y de los jueces nos permite concluir que al 
ritmo de unas 70 sentencias anuales emitidas por los jueces del pais y 
los de descongestion de OIT, en las que cada una de ellas se refiriera 
a una victima sindicalista, se tomaria la justicia alrededor de 37 anos 
para superar la impunidad, bajo el supuesto de que no ocurran mas 
asesinatos a partir de hoy, y se mantenga la unidad especial de 
investigacion y juzgamiento.
    Respecto de las sentencias emitidas, estos aspectos son de honda 
preocupacion:
    1. Las sentencias han encontrado fundamentalmente autores 
materiales y sus intenciones. En la mayoria de los casos no se 
establece la cadena de responsabilidad de los autores.
    2. En la mayoria de las sentencias no existe ninguna referencia al 
contexto personal de la victima ni de la organizacion sindical y/o 
regional en la que la violencia antisindical ocurre.
    3. La investigacion se realiza caso a caso sin una estrategia 
integral de investigacion en casos de caracter claramente sistematicos, 
deliberados y selectivos como los son los casos de violencia 
antisindical. El movimiento sindical ha sido insistente en proponer 
cambios en el metodo de investigacion utilizado, si cerca del 75% de 
violencia antisindical ha ocurrido contra 30 organizaciones sindicales 
en 6 departamentos del pais, la investigacion deberia reestructurarse.
    4. Las investigaciones omiten la calificacion juridica de todos los 
delitos cometidos y por tanto, las sentencias no sancionan a los 
autores por todos ellos. En multiples sentencias la tortura o la 
desaparicion forzada, por ejemplo, no son sancionadas, condenando 
exclusivamente por homicidio. Esto deja en la impunidad las acciones 
que integran la violencia contra sindicalistas.
    5. Solo en cinco casos hay sentencia de segunda instancia, es decir 
que de las 108 sentencias contabilizadas a julio de 2008, en 103 de 
ellas esta pendiente la posibilidad de que la decision sea cambiada por 
los recursos que puede interponer el condenado, y por tanto, pasar a 
tener una absolucion.
    La OIT en varias ocasiones se ha referido al tema de impunidad, 
recientemente en la 97 Conferencia junio de 2008) la Comision de 
aplicacion de normas senalo: ``(* * *) la Comision lo insto a (. * * *) 
garantizar una mayor eficacia y rapidez de las investigaciones de 
asesinatos de sindicalistas y la identificacion de todos sus 
instigadores. Tales medidas deberan incluir un aumento de los recursos 
necesarios para combatir la impunidad, incluido el nombramiento de 
jueces adicionales especialmente dedicados a resolver los casos de 
violencia contra sindicalistas. Todas estas medidas son elementos 
esenciales para asegurar que el movimiento sindical pueda finalmente 
desarrollarse y afirmarse en un clima libre de violencia (* * *)''
3. Limitaciones y violaciones a las libertades sindicales
    En Colombia contamos con un diseno institucional y una practica 
gubernamental y empresarial contraria a las libertades sindicales, que 
impone una gran cantidad de obstaculos para que las organizaciones 
sindicales puedan ser creadas o para que las existentes puedan 
funcionar libremente, esto es, elegir sus representantes, modificar sus 
estatutos, negociar colectivamente, ejercer la huelga, participar de 
los escenarios de dialogo social, etc. Una muestra de esta situacion 
son las siguientes cifras:
            a. Obstaculos a la Asociacion sindical
    Hoy en Colombia existen 18.749.836 de trabajadores, de los cuales 
menos de 3 millones tiene derecho a asociarse a una organizacion 
sindical, pues la legislacion establece que pueden ejercer dicho 
derecho solo aquellos trabajadores vinculados a traves de contratos de 
trabajo, contrariando con ello los convenios internacionales del 
trabajo y las recomendaciones realizadas por la OIT de manera 
permanente al Estado Colombiano. Por ello tan solo 4 de cada 100 
trabajadores se encuentran afiliados a una organizacion sindical en 
Colombia.
    El Ministerio de la Proteccion Social en el periodo de 2002-2007 
nego el registro de 515 actos de registro sindical, de estos 253 fueron 
negativas a constitucion de nuevas organizaciones sindicales.
----------------------------------------------------------------------------------------------------------------
                   Inscripcion de
 Constitucion de  junta directiva    Creacion de      Creacion de      Reformas      Revocatorias      Total
   sindicatos                       subdirectivas       comites      estatutarias    del registro
----------------------------------------------------------------------------------------------------------------
          253               189               47               9               7              10            515
----------------------------------------------------------------------------------------------------------------

    Esta situacion fue denunciada en multiples ocasiones ante el Comite 
de Libertad Sindical de OIT, emitiendo este recomendaciones para 
alcanzar la inscripcion de dichos actos por considerarlo una injerencia 
indebida por parte del Estado. Tan solo con las sentencias C-465, C-621 
y C-672 de 2008 entre otras, de la Corte Constitucional, el Ministerio 
de Proteccion Social perdio la competencia para negar la inscripcion en 
el registro sindical, un avance que satisface parcialmente los 
convenios de OIT.
    Estas sentencias abarcan tan solo un problema, la injerencia 
arbitraria por parte del Estado al momento de la inscripcion en el 
registro, sin embargo en Colombia persisten otra serie de limitaciones 
legales al derecho de asociacion que no han sido modificadas, se hace 
necesario derogar o modificar las normas que impiden el derecho de 
asociacion a todo tipo de trabajadores, art. 5 CST, de igual forma 
derogar o modificar las normas que limitan la libertad de eleccion de 
la estructura sindical que los trabajadores estimen convenientes, Art. 
365 CST, se hace necesario establecer un mecanismo judicial, y 
expedito, que permita en corto tiempo solucionar los posibles 
conflictos en el tramite del registro sindical y otros temas 
relacionados con la representacion sindical.
    La OIT de manera reiterada ha senalado observaciones y 
recomendaciones en materia del derecho de asociacion sindical, 
recientemente en la 97 Conferencia de la OIT, la Comision de aplicacion 
de normas senalo: ``(* * *) solicito tambien al Gobierno que se asegure 
que todos los trabajadores, incluidos aquellos del sector publico, 
puedan formar las organizaciones que estimen convenientes, sin 
autorizacion previa, y afiliarse a las mismas de conformidad con el 
Convenio. A este respecto la Comision solicito al Gobierno que no 
utilice discrecionalmente su autoridad para denegar el registro 
sindical * * *''
            b. Negociacion Colectiva un derecho para pocos
    En Colombia tan solo 1,2 de cada 100 trabajadores se beneficia de 
una convencion colectiva, comparando el periodo 1996-1997 con el 
periodo 2006-2007, encontramos que en el primero se suscribieron 1579 
convenios colectivos, de los cuales 983 eran convenciones colectivas, 
592 eran pactos colectivos y 5 contratos sindicales, con una cobertura 
de 462.641 beneficiarios; mientras que en el segundo periodo se 
firmaron 925 convenios colectivos, de los cuales 639 eran convenciones 
colectivas, 276 pactos colectivos y 10 contratos sindicales, con una 
cobertura de 176.948 beneficiarios. Se muestra una significativa caida 
en la negociacion colectiva y su cobertura: 285.693 beneficiarios 
perdieron sus garantias convencionales, aproximadamente un 62% de los 
beneficiarios de hace una decada hoy estan desprotegidos. Este fenomeno 
encuentra explicacion en los enormes obstaculos juridicos y practicos 
que se imponen a las organizaciones de los trabajadores para existir y 
desenvolverse libremente, a la falta de fomento de la negociacion, a 
los pocos trabajadores que pueden negociar, y al incumplimiento por 
parte del Estado de modificar su legislacion para que cumpla con los 
estandares laborales de los convenios 87, 98, 151 y 154 ratificados por 
Colombia.
    Los principales problemas son los siguientes:
    <bullet> Es permitida la celebracion de pactos colectivos y planes 
de beneficios extralegales, en perjuicio del derecho de negociacion 
colectiva de los sindicatos
    <bullet> Se impide la sindicalizacion y por tanto la firma de 
convenciones colectivas de trabajadores con contratos diferentes al 
laboral, art. 5 CST, excluyendo a quienes tienen contratos de 
prestacion de servicios, asociados a cooperativas de trabajo, los de 
contrato de aprendizaje, desempleados, trabajadores con una relacion 
reglamentaria con el Estado o trabajadores del sector informal que 
constituyen mas del 85% de la poblacion ocupada.
    <bullet> El Ministerio de la Proteccion Social ejerce un pobre 
control, no investiga ni sanciona las practicas antisindicales de los 
empleadores, ni tampoco promueve la defensa del derecho de asociacion y 
negociacion.
    <bullet> La imposicion de tribunales de arbitramento obligatorio 
para decidir los puntos en los que no se llegue a un acuerdo durante la 
negociacion, es una intervencion de la autoridad que en principio 
vulnera y hace mas dificil la negociacion colectiva
    <bullet> La prohibicion de la negociacion colectiva y de la huelga 
a los sindicatos de empleados publicos
    <bullet> La inexistencia de negociacion por rama o actividad 
economica, y la imposibilidad de negociar por diversos niveles
    El derecho a fomentar y defender los intereses de los trabajadores 
por medio de negociaciones colectivas que busquen mejorar las 
condiciones de empleo, es en la practica actual, ilegal para algunos o 
casi imposible de ejercer para otros, esto se debe a disposiciones 
legales que limitan o prohiben una libre negociacion entre las partes, 
situacion que los organismos de control de la OIT han previsto como 
contrarias a los convenios ratificados por Colombia y cuyas 
recomendaciones han sido intencionalmente ignoradas por el gobierno, 
omitiendo tomar medidas que fomenten la negociacion.
            c. Derecho de Huelga practicamente imposible su ejercicio
    El derecho a la huelga es un derecho fundamental de todos los 
trabajadores, por medio del cual se busca defender sus derechos 
laborales de una manera pacifica. Este derecho no tiene caracter de 
absoluto, es aceptado por OIT que la huelga puede verse limitada en los 
servicios cuya interrupcion pueda poner en riesgo la vida, seguridad o 
la salud de una persona o parte de la poblacion, pero estos limites 
solo pueden establecerse por razones democraticas y necesarias para 
proteger los derechos y libertades de los demas, siempre a traves de la 
ley.
    En el periodo 2002-2007 se presentaron al Ministerio de la 
Proteccion Social 122 solicitudes de ilegalidad de cese de actividades, 
de los cuales 66 fueron declarados ilegales.
    Bajo este panorama se entiende como los sindicatos realizan pocas 
huelgas en Colombia, las limitaciones legislativas y las actuaciones 
del Ministerio de Proteccion Social muestran como ejercer una huelga 
resulta casi imposible debido a que la legislacion es contraria a los 
convenios de libertad sindical, mas si se tiene en cuenta el Art. 450 
num. 2 da la posibilidad para que el empleador despida a los 
trabajadores que hayan participado en una huelga ilegal, bajo este 
panorama el Congreso expidio el pasado 14 de julio, la Ley 1210 de 
2008, por la cual se modifican disposiciones que regulan el ejercicio 
de la huelga en el pais. Esta Ley 1210 recoge tan solo dos de las diez 
recomendaciones que la OIT le ha hecho a Colombia en materia de 
regulacion de la huelga, uno, la competencia que tenia el Ministerio de 
la Proteccion Social para calificar la ilegalidad de la huelga, la 
traslada a la jurisdiccion laboral y dos, la creacion de un tribunal de 
arbitramento voluntario, que antes era obligatorio, cuando la huelga 
pasaba de 60 dias.
    De otro lado contrariando la doctrina de la OIT, esta ley su 
articulo 1, parrafo 2, le dio la Facultad al Presidente de la Republica 
de ordenar la cesacion de las huelgas ``* * * Si una huelga en razon de 
su naturaleza o magnitud, afecta de manera grave la salud, la 
seguridad, el orden publico o la economia en todo o en parte de la 
poblacion * * *''
    Los cambios introducidos por la ley son procedimentales y no 
sustanciales, asi las cosas los jueces en adelante declararan ilegales 
las huelgas por las mismas razones que lo hacia antes el Ministerio de 
la Proteccion Social.
    Lo mas critico de la Ley 1210 de 2008 no es tanto lo que incluye 
sino lo que le quedo faltando, toda vez que el ejercicio del derecho de 
huelga en Colombia, cuando se compara con las recomendaciones del 
Comite de Libertad Sindical (CLS) y la Comision de Expertos en 
Aplicacion de Convenios y Recomendaciones (CEACR) de la OIT, se 
encuentra en extremo limitado. Estos son los faltantes mas serios de la 
Ley:
    1. En la legislacion colombiana se entiende la huelga como un 
momento de la negociacion colectiva y no como el medio esencial de 
defensa de los trabajadores, permitida solamente en un proceso de 
negociacion de un pliego de peticiones y no en otro caso.
    2. Contraria a los principios de libertad sindical, se omitio 
derogar la prohibicion de huelgas a federaciones y confederaciones, o 
las que hagan sindicatos por rama de actividad economica, derecho que 
queda reservado a los sindicatos de empresa, lo cual representa un 
recorte al derecho de huelga.
    3. Es necesario definir que se entiende por servicio publico 
esencial y regular la figura de la prestacion de servicios minimos, 
pues la falta de dichas definiciones provoca la prohibicion casi 
absoluta para ejercer la huelga a los trabajadores de empresas que 
prestan servicios publicos.
    4. Es necesario realizar cambios en la regulacion actual de la 
huelga de tal forma que no queden proscritas las huelgas de 
solidaridad.
    5. La ley exige una mayoria calificada para declarar la huelga, o 
sea la mitad mas uno de los trabajadores de la empresa, haciendo que en 
la practica la declaratoria de las huelgas sea casi imposible de 
alcanzar, sobretodo en empresas con gran cantidad de trabajadores, o 
cuando el sindicato sea minoritario.
    6. Se hace necesario solucionar la omision que existe sobre huelgas 
cuya finalidad sea la solucion de una problematica local o seccional.
    7. La legislacion debe permitir a los trabajadores vinculados con 
formas contractuales diferentes a la laboral, ejercer su derecho de 
asociacion y su derecho a la huelga.
    8. De la declaratoria de ilegalidad de la huelga se sigue como 
consecuencia la facultad del empleador de despedir a los trabajadores 
que hubieren intervenido o participado en una suspension ilegal de 
actividades.
4. El gran deficit de trabajo decente en Colombia. El caso de las 
        Cooperativas de Trabajo Asociado
    Las politicas y leyes de los ultimos anos en materia laboral se han 
caracterizado por mantener en la exclusion de la proteccion social y 
laboral a mas de las dos terceras partes de los trabajadores; por negar 
y evadir los derechos laborales minimos a mas de 12 millones de 
trabajadores; el Estado colombiano, antes que avanzar en estandares 
minimos laborales, genera legislacion y practicas contrarias al trabajo 
decente, dejando a casi el 70% de los trabajadores en condiciones de 
precariedad laboral. Las Cooperativas de Trabajo Asociado son una 
muestra de esta situacion de precariedad laboral
    Las recientes huelgas de los trabajadores de la palma africana y de 
los corteros de cana, el conflicto con los trabajadores del Puerto de 
Buenaventura, asi como la situacion de los trabajadores de los 
hipermercados, las confecciones, la floricultura, el sector de la 
salud, la vigilancia, etc., evidencian que las llamadas cooperativas de 
trabajo asociado (CTA), han contribuido a deteriorar la calidad del 
empleo en Colombia. Las entidades que se han constituido al amparo de 
la figura legal de las CTA, no responden realmente a los principios 
cooperativos y hacen uso abusivo del derecho de asociacion cooperativa, 
para burlar los derechos de los trabajadores, en beneficio de los 
empresarios y de quienes a manera de testaferros de empleadores 
promueven la creacion de las mismas. Las llamadas CTA son seudo 
cooperativas.
    Las CTA son usadas por las empresas como forma de tercerizacion que 
han permitido externalizar costos de la propia empresa, y remplazar o 
despedir trabajadores con contrato laboral y en muchos casos 
trabajadores sindicalizados con convencion colectiva. El costo 
inmensamente inferior, y una relacion laboral sin derechos, produjo que 
las CTA se extiendan como un ``nuevo modelo de relaciones laborales'' 
al punto que en febrero de 2008 existian 12,068 CTA registradas, en 
2007 se estimaba que habian 4.221.108 \1\ asociados a CTA.
---------------------------------------------------------------------------
    \1\ Estadistica publicada en la pagina web de superintendencia de 
economia solidaria, tomado el 6 de febrero de 2009.
---------------------------------------------------------------------------
    Ante semejante precariedad se expidio la Ley 1233 de 2008 que tuvo 
como origen un proyecto de ley presentado por el gobierno cuando se 
aproximaba la decision del congreso norteamericano sobre el TLC con 
Colombia; proyecto que se limitaba a crear la obligacion del pago de 
los impuestos parafiscales en las Cooperativas de Trabajo Asociado 
(CTA). Durante el tramite de este proyecto en el Congreso de la 
Republica fueron muchos los debates y propuestas, y por ello el 
resultado fue una ley que considera otros temas adicionales.
    Sin embargo, el Gobierno no podra presentar esta Ley como un avance 
en relacion con las exigencias internacionales sobre la materia, pues 
de manera clara se ignoran las recomendaciones realizadas por los 
organos de control de la OIT. Esta Ley 1233 no reconoce a los asociados 
de las CTA los derechos de asociacion, negociacion y huelga, y tampoco 
preve medidas suficientes para impedir que no se utilicen las CTA como 
forma de defraudacion de derechos laborales y sindicales. En suma, 
podemos afirmar que esta ley les permite a las CTA seguir siendo 
herramientas para evadir derechos laborales y precarizar las 
condiciones de vida de los trabajadores pues no resolvio temas 
cruciales como:
    1. Los asociados a las CTA no cuentan con derechos fundamentales y 
esenciales que si tendrian como trabajadores vinculados por contrato.
    2. Al contratar CTA, las empresas logran que los costos de nomina 
laboral sean externos y no imputables a ellas. Las empresas unicamente 
responden por lo que firmen en la oferta mercantil, sin que sea posible 
siquiera demandarlas por vulneracion de derechos laborales.
    3. Para evadir los costos por aportes a seguridad social, los 
empresarios prefieren contratar con CTA, en las que dichos aportes 
corren, en su totalidad, a cargo de los asociados.
    4. La principal actividad de las CTA es la intermediacion laboral. 
La inmensa mayoria de actividades que realizan las CTA se da por 
contrataciones que hacen las empresas como intermediacion laboral, y en 
la practica las empresas remplazan sus trabajadores por asociados a 
CTA.
    5. Hay una ausencia casi total de control a las CTA, por lo que un 
numero infimo de ellas se encuentra actualmente cumpliendo con la 
normatividad vigente.
    6. Hay ausencia de participacion democratica de los asociados de 
las CTA. Por la inexistencia de limites razonables para el periodo de 
las juntas de administracion de la CTA, son muchos los casos en que los 
asociados estan convencidos de que estas tienen dueno en vez de 
gerente, porque la oferta mercantil firmada entre empresa y CTA no esta 
sujeta a la aprobacion de la asamblea de asociados.
    7. Hay competencia entre las CTA por ofrecer peores y mas baratas 
formas de contratacion, lo que genera una especie de guerra del centavo 
entre ellas.
    8. Las CTA se usan como herramienta para debilitar y disminuir a 
los sindicatos. Los asociados a CTA no tienen derecho a sindicalizarse 
porque, segun el Ministerio de la Proteccion Social, no tienen la 
calidad de trabajadores sino de aportantes de su fuerza de trabajo.
    La OIT ha emitido varias observaciones y recomendaciones sobre las 
Cooperativas de Trabajo Asociado, recientemente en la 97 Conferencia 
(junio de 2008), la Comision de aplicacion de Normas senalo: ``* * * En 
particular, la Comision espero firmemente que se adoptaran sin demora 
disposiciones legislativas para asegurar que los contratos de servicio 
o de otro tipo y las cooperativas u otras medidas no sean utilizados 
como medios para menoscabar los derechos sindicales y la negociacion 
colectiva * * *''
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much. Some of 
you looked a little perplexed as you hear the whistling here. 
It is very high winds today. Others have suggested it is not 
the winds, that it is really the ghost of Chairman Perkins who 
spoke with a whistle. Whenever he spoke, he also whistled at 
the same time. You can pick your explanation of it, but 
apparently the architects have never been able to fix it.
    So with that, we will go--Ms. Hoyos, please? Welcome to the 
committee. And we look forward to your testimony.

      STATEMENT OF YESSIKA HOYOS MORALES, BOGOTA, COLOMBIA

    Ms. Hoyos [through translator]. I am Yessika Hoyos Morales, 
the daughter of Jorge Dario Hoyos Franco, one of the 2,694 
labor unionists murdered with impunity in Colombia.
    Eight years ago, I was living with my mother, my sister and 
my father in Fusagasuga. My father was a dreamer. He was very 
committed to the cause of justice, deeply concerned about 
oppression and poverty. That is why he was committed to the 
union struggle from the time that he was very young.
    He started working with national agrarian organizations, 
and his leadership led him to the International Federation of 
Agricultural Workers and then on to the International 
Federation of Miners.
    In our town, my father worked broadly with labor unions, 
student organizations and women's organizations. He worked to 
defend the rights of communities, and he was widely recognized 
and loved by the people for his work. My father was a cheerful, 
generous man. He was kind to us and showed us love and showed 
solidarity with others. He was our friend and our hero, the man 
who gave us advice, who helped us discover the world.
    From the time I was very young, I was witness to raids on 
our house by the police, threats to my father. We got phone 
calls, funeral prayer cards, funeral wreaths. We were 
persecuted. That is how I learned that union activity in 
Colombia is dangerous and that thinking and protesting puts 
your life at risk.
    Still, we were happy until the night of March 3, 2001, when 
two confessed hit men of the paramilitary, shot my father 
repeatedly in the face until they killed him. My mother and my 
sister, who was only 14, found him on the ground with blood 
running out of his body, having lost his smile and his dreams 
and the kisses and hugs that he used to give us.
    The murderers made good on their threats. My father made 
good on his word. He never gave in to the demand that he stop 
fighting for the people. That was the first union death, my 
father's. But then, the murderers attempted a second and 
definitive killing, the one that they are trying to impose on 
us in Colombia, the one that is clad in forget and impunity.
    The day of the funeral itself, tragedy took another turn. 
Threats, harassment and persecution started against the rest of 
us so that we wouldn't make any reports or claims. And because 
of that, we were forced to leave our home and hide out in 
Bogota, where they found us anyway, to the extent that we had 
to move five times in a single year.
    As with the other 2,694 murders of union members, impunity 
began to be cast the very night of that horrific crime when the 
perpetrators where caught. They were two young hit men who 
immediately were visited in their cell by a police officer who 
told them what to say in their statements. The investigational 
hypothesis cast by the authorities held that it was a crime 
caused because my father was involved with another man's wife. 
This is the typical explanation that Colombian authorities give 
to cover up the truth.
    True to my father and following his example of passion for 
truth and justice, at 17 I joined the same battle that 
thousands of young people, widows, parents, brothers and 
sisters have had to wage in search of truth, justice and 
reparation, victims' rights that are denied in my country. To 
this end, I granted power of attorney to the law firm of Jose 
Alvear Restrepo to represent me in my civil intervention in the 
government's criminal case.
    In 2003, the two hit men were sentenced to 23 years in jail 
for aggravated homicide of a protected person, since my father 
was the labor leader. This weak sentence, however, did not 
overcome impunity because the search for those who ordered the 
murder only got to the point of linking it, in absentia, to a 
second police lieutenant by the name of Monroy, who after the 
crime and using another instrument of impunity, was 
retroactively relieved of his post in the month of February, 
2001 in an attempt to demonstrate that on March 3, 2001, he was 
no longer an active-duty police officer. Still, the criminal 
proceedings established that my father's murder had been 
planned in December of 2000.
    Officer Monroy was always a fugitive who was never caught. 
In August of 2007, he was sentenced to 40 years in prison for 
homicide of the unionist Jorge Dario Hoyos Franco. This fact 
was publicized by the Colombian government as a great stride in 
justice.
    And perhaps it would have represented progress if not for 
the fact that I discovered in December of last year by a simple 
request for information at vital statistics that Monroy had 
died on May 3, 2006. In other words, a dead man had been 
condemned, somebody who was still wanted by the prosecutor's 
office.
    Despite two court decrees in which Colombian judges ruled 
that my father was murdered for being a labor unionist, the 
prosecutor's office, in order to continue hiding the truth, 
continued to maintain that it was a crime of passion up through 
August of 2008. It took international pressure for the 
prosecutor's to acknowledge the truth with respect to the 
motivation of this crime.
    I have forgiven my father's killers, but we will continue 
to demand that the intellectual authors of this crime be 
investigated because the murder of union members in Colombia is 
the result of systematic government policy. We know that there 
is evidence of other guilty parties, including members of the 
national army. The investigation is still open, but with no 
follow-up of evidence as requested and no identification of 
other possible perpetrators.
    I continue to look for justice, along with other sons and 
daughters of those who remember and are against impunity, this 
organization that sprang from our need to oppose barbarism. We 
have many brothers and sisters, and we know that we are the 
children of the dreams of justice and equality of our parents 
hoping to have a better country in the future where there is 
life and the right to think, to dissent and to dream.
    [The statement of Ms. Hoyos follows:]

         Prepared Statement of Yessika Hoyos Morales (English)

    I am Yessika Hoyos Morales, daughter of Jorge Dario Hoyos Franco, 
one of the 2,694 labor unionists murdered with impunity in Colombia.
    Eight years ago I was living with my mother, my sister and my 
father in Fusagasuga. He was a man with dreams; he was very committed 
to the cause of justice; he was deeply pained by oppression and 
poverty. That is why he was very committed to the union fight from the 
time he was very young. He started working with national agrarian 
organizations, and his leadership took him to the international 
federation of agricultural workers, and then to the international 
federation of miners.
    In our town, my father worked broadly with the labor unions, 
student organizations, women's organizations. He worked to defend the 
rights of communities, he was widely recognized and loved by the people 
for his work.
    My father was a cheerful, generous man. He showed us tenderness, 
love and solidarity with others. He was our friend and our hero, the 
man who gave us advice, who helped us discover the world.
    From the time I was a little girl, I was witness to raids on our 
house by police, threats to my father. We received phone calls, funeral 
prayer cards, funeral wreaths, persecution. That was how I learned that 
union activity in Colombia is dangerous, and that thinking and 
protesting puts your life at risk.
    However, we were happy until the night of March 3, 2001, when two 
confessed paramilitary hit men, shot my father repeatedly in the face 
until he was dead. My mother, and my sister, who was only 14 years old, 
found him on the ground with blood running down his body, now without 
his smile, without his dreams, without his kisses and hugs to give us.
    The murderers made good on their threats. My father made good on 
his word--he never gave in to the demand that he stop fighting for the 
people. That was the first death, the death of a union leader, my 
father. But then, the murderers attempted a second and definitive 
killing, the one they are trying to impose on us in Colombia, the one 
that is clad with forgetting and impunity.
    The very day of the funeral, the tragedy took another turn. 
Threats, harassment, persecution started against us, so that we 
wouldn't make any denouncements or claims. And because of that we had 
to leave our home and hide out in Bogota, where we were found anyway, 
to the extent that we had to move five times in a single year.
    And as with the other 2,694 murders of unionists, impunity began to 
be cast the very night of that horrific crime, when the perpetrators 
where caught, two young hit men, who were immediately visited in their 
cell by a police officer who told them what to say in their statements. 
The investigational hypothesis cast by the authorities held that it was 
a crime caused because my father had gotten involved with another man's 
wife. This is the typical explanation the Colombian authorities give to 
cover up the truth, to deny that people are murdered there for being 
labor unionists.
    True to my father, following his example of passion for truth and 
justice, at 17, I joined the same battle that thousands of young 
people, widows, parents, brothers and sisters have had to wage in the 
search for TRUTH, JUSTICE AND REDRESS--victims' rights that are denied 
in my country. To this end, I have granted power of attorney to the law 
firm of Jose Alvear Restrepo to represent me in my civil intervention 
in the government's criminal case.
    In 2003, the two hit men were sentenced to 23 years in prison for 
aggravated homicide of a protected person, since my father was a labor 
unionist. This weak sentence did not overcome the impunity since the 
search for those who ordered the murder only got to the point of 
linking it, in absentia, to a second lieutenant of police by the name 
of MONROY, who, after the crime, using another instrument of impunity, 
was retroactively relieved of his post in the month of February, 2001, 
in an attempt to show that on March 3, 2001, he was no longer an 
active-duty police officer. However, the criminal proceedings 
established that my father's murder had been planned in December of 
2000.
    Officer MONROY was always a fugitive. He was never caught. In 
August of 2007, he was sentenced to 40 years in prison for homicide 
against the unionist JORGE DARIO HOYOS FRANCO. This fact was publicized 
by the Colombian government as a great stride for justice, and perhaps 
it would have been an advance, if not for the fact that I discovered in 
December of last year, through a simple information request at the 
national registry of vital statistics, that MONROY died on May 3, 2006. 
In other words, a dead man was sentenced--one who is still wanted by 
the prosecutor's office.
    Despite the two sentences, in which the Colombian judges have ruled 
that my father was murdered for being a labor unionist, the 
prosecutor's office, in order to continue hiding the truth, maintained 
the hypothesis of a crime of passion up until August of 2008. It took 
international pressure for the prosecutor's office to acknowledge the 
truth with respect to the motive for the crime.
    I have forgiven my father's perpetrators, but we will continue to 
demand that the intellectual authors be investigated, as the murder of 
unionists in Colombia is the result of a systematic government policy. 
We know there is evidence of other perpetrators, including members of 
the national army. The investigation remains open, but with no follow-
up of the evidence as requested, and no identification of other 
possible perpetrators.
    I am Yessika Hoyos Morales, one of many daughters of Colombian men 
and women, who like Jorge Dario Hoyos Franco, were murdered with 
complete impunity. I am not alone. We are not alone. We are brothers 
and sisters united by hope, by dreams of justice, truth and freedom. We 
are Sons and Daughters for Remembering and Against Impunity, an 
organization that sprang from our need to oppose barbarism. With the 
good fortune of love and solidarity, we have found many older brothers 
and sisters around the world who keep us going on the path of hope with 
their encouragement and faith. We know that we are the children of the 
dreams of justice and equality of our parents, and it is for that very 
reason that we are ethically and morally obligated to build a great 
country, where there is respect for life, where there is the right to 
think, to dissent and to dream.
                                 ______
                                 

         Prepared Statement of Yessika Hoyos Morales (Spanish)

    Soy Yessika Hoyos Morales, hija de Jorge Dario Hoyos Franco uno de 
los 2.690 sindicalistas asesinados impunemente en Colombia.
    Ocho anos atras vivia con mi madre, mi hermana y mi padre en 
Fusagasuga. El era un hombre sonador, comprometido con las causas 
justas, a el le dolia en el alma la opresion y la miseria, por eso 
desde muy joven se decidio por la lucha sindical. Inicio con 
organizaciones agrarias nacionales, y por su liderazgo llego a la 
federacion internacional de trabajadores agrarios y luego a la 
federacion internacional de mineros.
    En nuestro pueblo, mi papi desarrollo una amplia labor social con 
los sindicatos, con organizaciones estudiantiles, de mujeres, en pos de 
reivindicar los derechos de las comunidades, labor por la que adquirio 
reconocimiento y carino de las personas.
    Mi papa era un hombre alegre, generoso, nos enseno su ternura, su 
amor, y la solidaridad con la gente; el era nuestro amigo y nuestro 
heroe, el hombre que nos daba consejos, con el que descubrimos el 
mundo.
    Desde nina fui testigo de allanamientos a la casa por la fuerza 
publica, de amenazas a mi papi, recibimos llamadas, sufragios, coronas 
funebres, persecuciones, por eso aprendi que la actividad sindical en 
Colombia es peligrosa y que pensar y protestar pone en riesgo la vida.
    Sin embargo, eramos felices hasta la noche del 3 de marzo de 2001, 
cuando dos sicarios confesos paramilitares dispararon repetidamente en 
la cara de mi papi hasta quitarle la vida. Mi madre y mi hermana, quien 
tan solo tenia 14 anos, lo encontraron en el suelo, con la sangre 
corriendo por su cuerpo, ya sin su risa, sin sus suenos, sin el beso y 
el abrazo para darnos.
    Los asesinos cumplieron sus amenazas. Mi papa cumplio con su 
palabra pues jamas cedio a la exigencia de abandonar la lucha social. 
Esa fue la primera muerte del lider sindical, mi padre, pero luego los 
asesinos intentaron una segunda y definitiva muerte, esa que nos 
quieren imponer en Colombia, la que esta revestida de olvido e 
impunidad.
    El mismo dia del funeral, la tragedia tomo otra cara, comenzaron 
las amenazas, hostigamientos, persecuciones contra nosotras, para que 
no fuesemos a denunciar, para que no fuesemos a reclamar. Por ello 
tuvimos que salir desplazadas a escondernos en Bogota, donde aun asi 
fuimos ubicadas al punto que en un solo ano tuvimos que cambiar 5 veces 
de residencia.
    Y como en los otros 2.690 homicidios contra sindicalistas la 
impunidad empezo a fraguarse desde la misma noche de ese horrendo 
crimen, cuando capturaron a los autores materiales, dos jovenes 
sicarios, a quienes de inmediato visito en su celda un policia quien 
les advirtio lo que tenian que decir en sus declaraciones. La hipotesis 
de investigacion forjada por las autoridades senalo que era un crimen 
ocasionado porque mi padre se habia involucrado con la mujer de otro 
hombre. Tipica explicacion que dan las autoridades colombianas para 
ocultar la verdad, para negar que alli se asesina a las personas por 
ser sindicalistas.
    Fiel a mi padre, siguiendo su ejemplo y pasion por la verdad y la 
justicia, a los 17 anos inicie la misma batalla que miles de jovenes, 
viudas, padres, hermanos han tenido que librar en busca de VERDAD, 
JUSTICIA Y REPARACION, derechos de las victimas que son negados en mi 
pais. Por ello otorgue poder a la Corporacion Colectivo de Abogados 
``Jose Alvear Restrepo'' para que me representara como parte civil.
    En el ano 2003, los dos sicarios fueron condenados a 23 anos de 
prision, por homicidio agravado en persona protegida por ser mi padre 
un sindicalista. Esta tenue condena no significo superacion de la 
impunidad, pues la busqueda de los determinadores solo alcanzo para 
vincular como persona ausente a un sub teniente de la policia de 
apellido MONROY, a quien con posterioridad al crimen, utilizando otro 
mecanismo de impunidad, lo destituyeron retroactivamente en el mes de 
febrero de 2001, intentando demostrar que para el dia 3 marzo de 2001 
ya no era policia activo, sin embargo en el proceso penal esta 
demostrado que el homicidio de mi papi, lo planearon desde el mes de 
diciembre de 2000.
    El policia MONROY siempre estuvo profugo, nunca se le capturo, en 
el mes de agosto 2007 fue condenado a 40 anos de prision por homicidio 
contra el sindicalista JORGE DARIO HOYOS FRANCO. Este hecho fue 
publicitado por el Estado colombiano como un gran logro de justicia, y 
tal vez hubiese sido un avance si no fuera porque descubri, en 
diciembre del ano pasado, con un simple derecho de peticion a la 
registraduria nacional del estado civil, que MONROY fallecio desde el 
03 de mayo de 2006, es decir se condeno a un muerto, al cual todavia la 
fiscalia busca.
    No obstante las dos condenas, donde los jueces colombianos han 
fallado que a mi papa lo asesinaron por ser sindicalista, la fiscalia, 
con el fin de seguir ocultando la verdad, hasta agosto de 2008 mantuvo 
la hipotesis de un crimen pasional, fue necesario la presion 
internacional para que esta reconociera la verdad en cuanto al movil 
del crimen.
    He perdonado a los asesinos materiales de mi padre, pero seguimos 
exigiendo que se investigue a los autores intelectuales pues el 
asesinato de sindicalistas en Colombia es producto de una sistematica 
politica de Estado. Sabemos que hay pruebas de otros responsables 
incluyendo miembros del ejercito nacional, la investigacion sigue 
abierta pero sin practicar las pruebas solicitadas y sin vincular a 
otros posibles responsables.
    Soy Yessika Hoyos Morales, soy otra hija de hombres y mujeres 
colombianos que como Jorge Dario Hoyos Franco fueron asesinados en 
total impunidad. No estoy sola, no estamos solos, somos hermanos unidos 
por la esperanza por los suenos de justicia, verdad y libertad. Somos 
Hijos e Hijas por la memoria y contra la impunidad, una organizacion 
surgida de la necesidad de oponernos a la barbarie. Por la fortuna del 
amor y la solidaridad, hemos encontrado en todo el mundo muchos 
hermanos mayores que con su aliento y su fe nos mantienen vivos y en el 
camino de la esperanza. Tenemos la certeza de que somos hijos de los 
suenos de justicia e igualdad de nuestros padres, y que justamente por 
ello estamos en la obligacion etica y moral de construir un pais grande 
en el que se respete la vida, el derecho a pensar, a disentir, a sonar.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Judge Sanchez?

  STATEMENT OF JOSE NIRIO SANCHEZ, FORMER COLOMBIAN JUDGE IN 
    SPECIAL COURT FOR LABOR-HOMICIDE CASES, BOGOTA, COLOMBIA

    Mr. Sanchez [through translator]. I would like to extend a 
sincere and cordial greeting to all of those present. Thank you 
for inviting me. My name is Jose Nirio Sanchez, former second 
criminal judge of the specialized circuit of the Republic of 
Colombia. I held this post from July 1, 2007 until December 31, 
2007. I served the Colombian government for 35 years.
    I had national jurisdiction to rule on acts of violence 
committed against labor union leaders and unionists. During my 
tenure as judge, I issued eight convictions. And my conclusion 
from this personal experience and from having read my 
colleagues' rulings is that there is a clear pattern in all of 
these investigations.
    The public prosecutor formally orders an investigation, but 
does not carry it out fully. They make mistakes in legal 
classifications of the crime. And for one reason or another, 
they misdirect the investigations, and they fail to investigate 
the intellectual authors.
    I want to tell you about the facts and legal outcomes of 
three of the cases that I ruled on. In the case of the murder 
of Mr. Dario Hoyos, father of Yessika, who is here with us, the 
motives that led to the death of this labor union, community 
and civic leader were his union convictions and battles. The 
threats were not only aimed at him, but even at his family.
    However, the prosecutor developed another hypothesis, 
arguing that the death was a crime of passion. The evidence did 
not support this hypothesis, which was later rejected during 
the sentencing.
    Mr. Monroy, a former police officer, was sentenced to 40 
years in prison for this crime. However, several days ago, I 
discovered that this sentence was in vain since the accused had 
died more than one year earlier.
    This crime, as in other cases, thus remains unpunished. The 
true intellectual authors were not brought to account. Also, it 
is disturbing that the prosecutor did not realize that a person 
with an outstanding arrest warrant was, in fact, deceased. And 
in this manner, the prosecutor wasted a large amount of 
physical and human resources that could have been used to clear 
up other criminal acts and to identify the intellectual authors 
of the crime.
    A second case--in the murder of three unionists in Arauca, 
Colombia, four Colombian servicemen and one civilian were 
sentenced to 40 years in prison as material authors because 
they conspired in their criminal intent. Their objective was to 
cause the death of the three unionists.
    From the moment these acts occurred, both those charged and 
those who were responsible for the operation, directly or 
indirectly, allowed the scene of the crime to be concealed, 
destroyed or changed in order to throw the investigation off 
course. In fact, the firing test on the person who was said to 
have fired the weapon came out negative as an inoperable pistol 
was placed upon that person.
    The material authors were convicted, but the officers 
higher up in the chain of command were not investigated. As far 
as their conduct, direction and responsibility for the outcome, 
Colonel Medina Corredor and two other captains never had to 
explain their behavior. They kept silent. They must at least be 
held accountable as guarantors, which is why I ordered they be 
investigated.
    I understand that the Inspector General of the nation 
removed them from their positions and disqualified them from 
holding official positions for 20 years. However, in this case 
as well, the prosecutors failed to investigate these officials, 
officers, even though they could have been tried along with the 
material authors.
    Lastly, in the murder of the unionist Luciano Romero, two 
material authors were sentenced to 40 years in prison. The 
deceased was preparing to testify as a witness in the policies 
of the transnational company, Nestle-Cicolac, at the session of 
the permanent people's tribunal in Switzerland. Three labor 
union leaders from the same union as well as employees from the 
same company were also murdered under similar circumstances.
    I ordered an investigation of the case. And as always, 
verification of attested copies were ordered from the Nestle-
Cicolac board in order to investigate the presumed 
participation in, and/or, determination of the murder of labor 
union leader Luciano Romero. Mr. Carlos Alberto Velez, in his 
capacity as Nestle-Cicolac's chief of security for Latin 
America, sent a letter to the prosecutor's office warning that 
if this investigation were to become public, it would seriously 
affect its reputation and foreign investment.
    And as a final conclusion, it is a systematic pattern that 
in all of these criminal acts, the prosecutor is satisfied with 
establishing the responsibility of the material authors, 
leaving out the intellectual authors, who are the most 
important ones, given that they are the ones who sponsor, order 
the executions, put up the money, and they always remain in 
impunity. Thus, these crimes will not stop, since the true 
perpetrators are not prosecuted.
    The investigations are directed off course toward other 
hypotheses that the judge ultimately debunks in his ruling or 
accepts with no reservations whatsoever. By then, it is already 
too late.
    The evidence no longer exists and the authors disappear, 
when the normal thing would be for them to be identified in the 
initial phase of the investigation. This waste of resources 
causes an increase in crime and a decrease in the credibility 
of the institution, which is reflected in the unwillingness of 
witnesses to testify.
    And finally, I would like to say that I love my country 
very much, and that I am very pained by these murders committed 
against unionists and labor leaders. And I want to say that you 
are very brave for fighting for this cause, which is our cause. 
But this will surely have benefit for the entire international 
community. Thank you very much.
    [The statement of Mr. Sanchez follows:]

           Prepared Statement of Jose Nirio Sanchez (English)

    I would like to extend a sincere and cordial greeting to all those 
present. Thank you for inviting me to help shed light on the truth 
regarding the criminal acts against Colombian labor union leaders. With 
my testimony, I hope to contribute to reducing these criminal acts to 
zero, and to making sure those that have been committed do not remain 
in impunity.
    My name is Jose Nirio Sanchez, former 2nd criminal judge of the 
specialized circuit of the Republic of Colombia. I held this post from 
July 1, 2007 to December 31, 2007, by unanimous designation. I was 
replaced January 12, 2008 in an election, in which I lost re-election 
by one vote. I served the Colombian government for 35 years.
    I had national jurisdiction to rule on acts of violence committed 
against labor union leaders and unionists, as part of the program to 
fight impunity that the national government is pursuing.
    During my tenure as judge, I issued 8 convictions. My conclusion 
from this personal experience and from having read my colleagues' 
rulings, is that there is a determining pattern in all of these 
investigations. The Public Prosecutor formally orders an investigation, 
but does not carry it out. They make mistakes in judicial 
classification of the crime. For one reason or another, they misdirect 
the investigations, and they fail to investigate the intellectual 
authors.
    I want to tell you about the facts and legal outcomes of three of 
the cases I ruled on.
    1. For the Murder of Mister Dario Hoyos: The motives that led to 
the death of this labor union, community and civic leader were his 
union convictions and battles. The threats were not only directed at 
him, but even at his family. But the Public Prosecutor developed 
another hypothesis, arguing that the death was a crime of passion. The 
evidence did not support this hypothesis, which was later rejected in 
the sentence.
    Mr. Monroy was sentenced to 40 years in prison for this crime. 
However, several days ago, I discovered that this sentence was in vain, 
since the accused had died more than one year earlier. This case, like 
other cases, thus, remains in impunity. The true intellectual authors 
were not brought to account. Also, it is disturbing that the Public 
Prosecutor did not realize that a person with an outstanding arrest 
warrant was in fact deceased. In this manner, the Public Prosecutor 
wasted a large amount of physical and human resources that could have 
been used to clear up other criminal acts and to identify the 
intellectual authors of the crime.
    2. For the murder of three unionists in Arauca, Colombia, 4 
Colombian servicemen and one civilian were sentenced to 40 years in 
prison as material authors because they conspired in their criminal 
intent. Their objective was to cause the death of the three unionists. 
From the moment these acts occurred, both those charged and those who 
were responsible for the operation, directly or indirectly, allowed the 
scene of the crime to be concealed, destroyed or changed, in order to 
throw the investigation off course (the firing test on the person who 
was said to have fired the weapon was negative, an inoperable pistol 
was placed on him).
    The material authors were convicted but the officers up the chain 
of command were never investigated. With regard to their conduct, 
direction and responsibility for the outcome, Coronel LUIS FRANCISCO 
MEDINA CORREDOR, and other officials, Captain HIZNARDO ALBERTO BRAVO 
ZAMBRANO and Captain LUIS EDUARDO CASTILLO ARBELAEZ, never explained 
their behavior. They remained silent. They must at least be held 
accountable as guarantors, which is why it was ordered they be 
investigated. I understand that the Inspector General of the Nation 
removed them from their posts, and disqualified them from holding 
official posts for 20 years. However, in this case as well, the public 
prosecutors failed to investigate these officials, even though they 
could have been tried along with the material authors.
    3. For the murder of the unionist Luciano Romero, 2 material 
authors were sentenced to 40 years in prison and other accessory 
penalties. The deceased was preparing to testify as a witness to the 
policies of the transnational company, NESTLE-CICOLAC, at the session 
of the Permanent People's Tribunal, which was to take place October 29 
and 30, 2005, in Bern, Switzerland. Three labor union leaders from the 
Union of Food Industry Workers and former CICOLAC workers were also 
murdered in similar circumstances: VICTOR MIELES, ALEJANDRO MARTINEZ 
TORIBIO DE LA HOZ and HARRY LAGUNA. As always, verification of attested 
copies was ordered from the NESTLE-CICOLAC board, in order to 
investigate their presumed participation in, and/or, determination of 
the murder of labor union leader LUCIANO ROMERO. Mr. Carlos Alberto 
Velez, in his capacity as Chief of Security for Latin America, sent a 
letter to the Public Prosecutor, warning that if this investigation 
were to become public, it would seriously affect its reputation and 
foreign investment. As I considered the situation serious and abnormal, 
I ordered an investigation, as I stated earlier.
Final Conclusion
    It is a systematic pattern that in all of these criminal acts, the 
Public Prosecutor is content to determine the responsibility of the 
material authors, leaving out the intellectual authors, who are the 
most important, given that they are the ones who sponsor, order the 
executions, put up the money, and always remain in impunity. Thus, 
these crimes will not stop, since the true perpetrators are not 
prosecuted. The investigations are directed off course toward other 
hypotheses that the judge ultimately debunks in his ruling, or accepts 
with no reservations whatsoever. Then, it is already too late. The 
evidence no longer exists and the authors disappear, when the normal 
thing would be for them to be identified in the initial phase of the 
investigation. This waste of resources causes an increase in crime and 
a decrease in the credibility of the institution, which is reflected in 
the unwillingness of witnesses to testify.
                                 ______
                                 

           Prepared Statement of Jose Nirio Sanchez (Spanish)

    Un atento y cordial saludo a todos los presentes gracias por 
invitarme a contribuir al esclarecimiento de la verdad que se relaciona 
con los actos criminales contra la dirigencia sindical colombiana. Con 
mi testimonio pretendo que esta criminalidad se reduzca a cero y la 
existente no quede impune.
    Mi nombre es Jose Nirio Sanchez, Exjuez 2nd. penal del circuito 
especializado--de la republica de Colombia, ejerci el cargo desde el 
primero de julio de 2007 al 31 de diciembre de 2007, designacion por 
unanimidad. Fui reemplazado en enero 12 de 2008 en eleccion en la que 
me falto un voto para ser reelegido. Preste mis servicios al estado 
Colombiano por 35 anos.
    Tenia competencia nacional para fallar los hechos de violencia 
cometidos contra dirigentes sindicales y sindicalistas, dentro del 
programa de lucha contra la impunidad que adelanta el gobierno 
nacional.
    Durante el ejercicio como juez dicte 8 fallos condenatorios, mi 
conclusion de esa experiencia personal y por haber leido los otros 
fallos de mis colegas, es que en todas estas investigaciones existe un 
patron determinante la fiscalia formalmente ordena una investigacion 
pero no la realiza, se equivoca en la calificacion juridica de los 
hechos, por una u otra razon desvia las investigaciones, y omite 
investigar los autores intelectuales.
    Quiero contarles los hechos y conclusiones juridicas de tres de los 
casos en que yo dicte fallos
    1- Por el Homicidio del senor Dario Hoyos: Los motivos que 
condujeron al deceso de este lider sindical, comunitario y civico 
fueron sus convicciones y luchas sindicales. Desde un comienzo se 
establecio que, las amenazas no solamente se cernian sobre el sino 
hasta su familia. Sin embargo, la Fiscalia desarrollo otra hipotesis, 
que era un crimen pasional. Las pruebas no sustentaron esta hipotesis y 
esta se rechazo en la sentencia.
    El senor Monroy fue sentenciado a 40 anos de prision. Sin embargo, 
hace unos dias me entero que esta sentencia fue en vano puesto que el 
sentenciado habia fallecido hacia mas de un ano. Este como otros casos 
queda entonces en la impunidad. No se responsabilizaron los verdaderos 
autores intelectuales. Por otra parte, es preocupante que la Fiscalia 
no se dio cuenta que habia fallecido una persona que tenia orden de 
captura. De esta manera, la Fiscalia desperdicio recursos fisicos y 
humanos que se habrian podido utilizar en el esclarecimiento de otros 
hechos delictivos y en la busqueda de los autores intelectuales del 
hecho.
    2- Por el homicidio de tres sindicalista en Arauca Colombia, fueron 
sentenciados a 40 anos de prision 4 militares colombianos y un civil en 
calidad de autores materiales porque convergieron en su voluntad 
dolosa, su objetivo era causar la muerte a los tres sindicalistas. 
Desde el primer instante de la ocurrencia de estos hechos, tanto los 
acusados como las personas que tenian a cargo la operacion directa o 
indirectamente permitieron que se ocultara, destruyera o modificara la 
escena, para desviar el curso de la investigacion (la prueba de disparo 
resulto negativa a quien le imputaban haber disparado, colocandole una 
pistola inservible).
    Se condenaron los autores materiales pero no se investigaron los 
oficiales en la cadena de mando. Estos ultimos nunca explicaron su 
comportamiento. Guardaron silencio. En lo que respecta a la conducta 
del Coronel LUIS FRANCISCO MEDINA CORREDOR, y de otros oficiales 
Capitan HIZNARDO ALBERTO BRAVO ZAMBRANO, Capitan LUIS EDUARDO CASTILLO 
ARBELAEZ, la direccion y responsabilidad de su resultado; al menos 
deben responder como garantes, razon por la que se ordeno 
investigarlos. Tengo entendido que la procuraduria general de la Nacion 
los destituyo y los inhabilito para ejercer cargos oficiales durante 20 
anos. Aqui tambien la Fiscalia dejo de investigar a estos oficiales, a 
pesar de que se les habria podido resolver en el mismo fallo con los 
autores materiales.
    3- Por el homicidio del sindicalista Luciano Romero, fueron 
sentenciados 2 autores materiales a 40 anos de prision y demas 
accesorias. El occiso se preparaba para ser testigo de la politica de 
la trasnacional NESTLE-CICOLAC, en la sesion del Tribunal Permanente de 
los Pueblos, que se realizaria los dias 29 y 30 de octubre de 2005 en 
Berna Suiza, en similares circunstancias tambien fueron asesinados 3 
dirigentes sindicales del Sindicato de Trabajadores de la Industria de 
Alimentos y extrabajadores de CICOLAC: VICTOR MIELES, ALEJANDRO 
MARTINEZ TORIBIO DE LA HOZ y HARRY LAGUNA, como siempre se dispuso la 
compulsa de copias contra los directivos de NESTLE-CICOLAC , a efecto 
de investigar su presunta injerencia y/o determinacion en el homicidio 
del lider sindical LUCIANO ROMERO, y en razon a una carta que enviara 
el senor Carlos Alberto Velez a la Fiscalia, en su condicion de Gerente 
de Seguridad para America Latina, advirtiendo que de conocerse esta 
investigacion se afectaria gravemente su reputacion y la inversion 
extranjera. Por considerar grave y anomala la situacion ordene se 
investigara como dije anteriormente.
    Conclusion final
    Es sistematico que en todas los hechos criminales, la fiscalia se 
conforme con la responsabilidad de los autores materiales, dejando de 
un lado los autores intelectuales, quienes son los mas importantes por 
ser quienes auspician, ordenan las ejecuciones, aportan los dineros, 
quedando siempre en la impunidad. Por consiguiente los crimenes no 
pararan en razon a que no se judicializa a verdaderos autores. Desvian 
las investigaciones hacia otras hipotesis que finalmente destruye el 
juez en el fallo o lo acepta sin reparo alguno, cuando ya es tarde, las 
pruebas se pierden y los autores desaparecen, siendo lo mas normal 
descubrirlos en la etapa inicial de la investigacion. Este desgaste de 
recursos hace que aumente la criminalidad y disminuya la credibilidad 
en la institucion, fenomeno que se refleja en el rechazo de los 
testigos en declarar.
                                 ______
                                 
    Chairman Miller. Ms. McFarland?

  STATEMENT OF MARIA MCFARLAND SANCHEZ-MORENO, LATIN AMERICA 
         SPECIALIST, HUMAN RIGHTS WATCH, WASHINGTON, DC

    Ms. McFarland. Thank you very much. Colombia has by far the 
world's highest rate of trade unionist killings. As previously 
stated, more than 2,600 unionists are reported to have been 
killed since 1986. And some 4,200 are reported to have received 
threats.
    More than 400 of the killings have happened during the 
administration of current president Alvaro Uribe. After hitting 
a peak in the 1990s, the rate of killings dropped for several 
years. But it has recently risen again to 49 killings in 2008 
from 39 in 2007. Also, union members reported receiving 485 
threats last year, almost twice the number recorded the 
previous year.
    The overwhelming majority of these cases have never been 
solved. Colombia's attorney general reports that in the last 8 
years there have been 171 convictions for anti-union violence. 
This number reflects a big jump in convictions starting a 
couple of years ago when the attorney general's office 
established a specialized group of prosecutors to reopen many 
of the uninvestigated cases.
    But despite this increase, 96 percent of all the unionist 
killings remain unsolved. And even at the current rate of 
conviction with no new killings, it would take 37 years for the 
prosecutor to get through the backlog.
    Also, as we explained in a November letter to Speaker 
Pelosi, which I would like to submit for the record, there are 
serious reasons to be concerned about the sustainability of the 
increasing convictions. For one, the specialized prosecutors 
are only investigating 1,104 of the total cases of 2,694 
killings, 4,200 threats and other acts of violence. And they do 
not have a clear plan to review the remaining cases.
    Second, many of the convictions involve paramilitaries who 
are participating in what is known as the justice and peace 
process in which in exchange for their supposed demobilization, 
they will serve only very short sentences of 5 to 8 years for 
all of their crimes. These convictions do little to clarify the 
truth, as in many cases, the convicted paramilitaries simply 
accept responsibility for the crimes without explaining the 
circumstances surrounding them, who ordered them or why.
    And once the process is over, it is likely the conviction 
rates will drop again. Finally, in some of the most high 
profile cases like the investigation of Uribe's former 
intelligence chief, Jorge Noguera for alleged involvement in 
union killings, there has been little progress.
    While some of the violence is attributable to the military, 
left wing guerrillas or to common crime, by far the largest 
share of the killings where perpetrators have been identified 
are attributable to paramilitary mafias who have deliberately 
persecuted unionists. So to address anti-union violence 
effectively, it is crucial that the government dismantle the 
paramilitary groups that are most responsible for it. But the 
government has failed to do so.
    The Uribe administration claims that the paramilitaries 
have demobilized. But scores of new groups closely linked to 
the paramilitaries are operating all over the country engaging 
in extortions, killings, forced disappearances, forced 
displacement and drug trafficking just like their predecessors. 
I have personally interviewed many of their victims.
    The bulk of the threats received by unionists last year 
have been signed by these groups. The paramilitaries have also 
infiltrated some of the highest circles of political power, 
including much of the Colombian congress. Seventy-four members 
of the congress, nearly all of whom are members of President 
Uribe's coalition, are under investigation or have been 
convicted for collaborating with paramilitaries. Unfortunately, 
as I documented in our latest report, which I would also like 
to submit for the record, the Uribe administration has often 
taken steps that would undermine these investigations.
    President Uribe has launched personal public attacks 
against the supreme court justices who have led the 
investigations. And he has blocked meaningful efforts to reform 
the congress to eliminate paramilitary influence.
    Another problem the government must address is the large 
number of extrajudicial killings of civilians by the Colombian 
Army. The attorney general's office is currently investigating 
cases involving more than 1,000 victims of such killings in 
recent years. Twenty-two of the union killings in the last few 
years are believed to have been executions by the military.
    It is difficult to take the government's commitments to 
contain anti-union violence seriously when its security forces 
appear to be engaged in widespread executions of civilians. It 
is also difficult when senior government officials, including 
President Uribe himself, continuously make statements 
stigmatizing union activity and human rights work as linked to 
guerrillas like he did just last weekend.
    In sum, the Colombian government has a long way to go to 
make sure that workers in Colombia can exercise their rights. 
But the Colombian government senses that change has come to 
Washington and that more progress is expected.
    The United States should seize this opportunity by standing 
firm on the need for fundamental changes in Colombia and 
providing support to achieve those changes. Thank you very 
much.
    [The statement of Ms. McFarland follows:]

  Prepared Statement of Maria McFarland Sanchez-Moreno, Esq., Senior 
                Americas Researcher, Human Rights Watch

    Mr. Chairman, Committee members: I am honored to appear before you 
today. Thank you for your invitation to address the situation of 
workers' rights and violence against trade unionists in Colombia.
    I am the Senior Americas Researcher at Human Rights Watch, where I 
have been covering Colombia for several years. I frequently travel 
throughout different regions of the country to conduct research and 
interviews with a wide array of sources, and I have written numerous 
reports and public documents about the horrific abuses committed by 
left-wing guerrillas, paramilitary groups, as well as the armed forces 
in Colombia.
    Despite the rosy picture of the human rights situation that is 
often painted by Colombian government officials, Colombia to this day 
presents widespread human rights abuses, including extrajudicial 
executions of civilians, enforced disappearances, kidnappings, use of 
child soldiers and antipersonnel landmines, extortion and threats. More 
than 3 million Colombians are internally displaced, having been forced 
to flee their homes due to the violence.
Violence against Trade Unionists
    One of the issues I monitor closely in Colombia is the plight of 
Colombia's trade unionists. Over the last couple of decades, Colombia's 
unions have suffered extreme violence, mostly at the hands of right-
wing paramilitary groups that have deliberately targeted unions.
    In fact, Colombia has the highest rate of trade unionist killings 
in the world. According to the National Labor School (Escuela Nacional 
Sindical or ENS), Colombia's leading organization monitoring labor 
rights, 2,694 unionists have been killed since 1986, the year the ENS 
started recording the rate of killings. In addition, some 4,200 
unionists have reported receiving threats.
    The rate of yearly killings has fluctuated over time, increasing 
dramatically in the 1990s, when paramilitary groups were rapidly 
expanding throughout the country, and then dropping again between 2001 
and 2007.
    This reduction may be explained by many factors, including the 
consolidation of paramilitary control in many regions of Colombia 
starting around 2002, as well as the establishment of a protection 
program--partly funded and supported by the United States--for 
threatened union leaders.
    But according to statistics maintained by ENS after dropping to 39 
in 2007, the number of killings of trade unionists has increased once 
again, to 49 in 2008. This represents a 25% increase in the number of 
killings compared to 2007. Of those killed in 2008, 16 were union 
leaders. In addition, the ENS recorded 485 threats against trade 
unionists in 2008, almost twice the number--246--recorded the previous 
year.
    The national government also recorded a substantial increase in 
trade unionist killings in 2008, going up from 26 in 2007 to 38 in 
2008. The official statistics are lower than the ENS numbers because of 
differing definitions of who counts as a trade unionist, among other 
reasons. The Office of the Attorney General of Colombia (the Fiscalia), 
however, uses numbers that are closer to the ENS's, reporting 42 trade 
unionist homicides in 2008.
    Some commentators--including the Washington Post's editorial page--
have sought to downplay the gravity of the problem by arguing that it 
is safer to be ``in a union than to be an ordinary citizen,'' noting 
that the rate of unionist killings is lower than the national homicide 
rate. But this rhetorical claim compares apples and oranges: the 
supposedly ``ordinary'' citizen includes many people at unusually high 
risk of being killed, including drug traffickers, criminals, and people 
living in combat zones, which skew statistical results. The national 
homicide rate (33 per 100,000 in 2008) is exactly the same for all 
these people as it is for civilians in the safest neighborhood in the 
capital, Bogota.
    Such loose comparisons fluctuate easily: for example, as explained 
recently by Colombian political analyst Claudia Lopez, if instead of 
looking at the rate of unionist killings, one looks at the rate of 
killings of union leaders for 2008, one finds that the homicide rate 
for union leaders in 2008 was approximately 48 per 100,000. In other 
words, union leaders are about 50% more likely to be killed than the 
supposedly ``ordinary'' citizen. Lopez also points out that just 
looking at raw numbers, one finds that in 2002, 2003, and 2004, more 
trade unionists than police officers were killed each year in Colombia.
    Setting aside the statistical discussion, it's important to bear in 
mind that trade unionists are not random victims who are being killed 
accidentally or in crossfire.
    While some of the killings are attributable to the military, 
guerrillas, or common crime, by far the largest share of the killings--
based on the information compiled by the Office of the Attorney General 
as well as analyses by the ENS--are attributable to paramilitaries, who 
view labor organizing as a threat to their interests, and who 
stigmatize unionists as guerrilla collaborators. For example, the New 
York Times described in one article last year how a unionist was 
forcibly ``disappeared,'' burned with acid and killed after he 
participated in protests against paramilitary violence in March 2008. 
Such targeted killings--unlike common crime--have a profound chilling 
effect on workers' ability to exercise their rights.
Impunity
    An important factor perpetuating the violence is the overwhelming 
impunity in these cases. The Office of the Attorney General reports 
that from 2001 to this day, there have been 171 convictions in 130 
cases of anti-union violence. Of these, 151 convictions are for 
homicides, while 20 are listed as being for other crimes.
    This number reflects a substantial increase in yearly convictions 
starting in 2007, when the Attorney General's office established a 
specialized group of prosecutors to reopen many of the uninvestigated 
cases. Between 2002 and 2006 the rate of convictions fluctuated between 
7 and 12 per year. Then, in 2007, they jumped to 44, and they went up 
again, to 76, in 2008.
    Yet as the Colombian Commission of Jurists, a prominent Colombian 
human rights group, pointed out in a letter to Chairman Miller this 
week, 96 per cent of all trade unionist killings remain unsolved. At 
the current rate of convictions, it would take approximately 37 years 
for the prosecutors to get through the backlog.
    Also, as we explained in a November 20, 2008 letter to Speaker 
Nancy Pelosi (which I would like to submit for the record), there are 
serious reasons to be concerned about the sustainability of this 
increase:
    1. The specialized prosecutors are not investigating the majority 
of reported cases.
    The Office of the Attorney General reports that as of January 20, 
2009 the specialized prosecutors unit is only reviewing a total of 
1,302 cases involving 1,544 victims of anti-union violence. They have 
only located the physical case files in 1,104 of these cases. The cases 
under review include 610 cases involving the killings of 816 victims, 
as well as 289 cases involving threats.
    In other words, the Attorney General's office is reviewing less 
than one third of the 2,695 killings reported by the ENS and only a 
tiny percentage of the threats.
    When I met with representatives of the Office of the Attorney 
General last November, I asked what they planned to do with the 
thousands of other reported cases of threats and killings. They gave 
multiple explanations:
    First, the Office said that the specialized group was only looking 
at the cases that had already been reported to the International Labor 
Organization (ILO) at the time the specialized group was created. But 
the ENS and trade unions later submitted all information they have on 
all 2,685 cases recorded as of May 2008 to the ILO. It makes no sense 
to exclude many cases from investigation just based on the date on 
which they were reported to the ILO.
    Second, the Office said they had decided not to expand the number 
of cases assigned to the specialized prosecutors simply because they do 
not have the resources to handle that many cases. Thus, the remaining 
cases would be assigned to ordinary prosecutors who may be spread out 
around the country, who will not be focused specifically on anti-union 
violence and are more vulnerable to pressure or threats. This 
explanation is surprising in light of the vast resources the US 
Congress has already assigned to the Human Rights Unit, precisely to 
strengthen these sorts of investigations. It is also not a good reason 
to simply exclude more than half the cases from the specialized 
prosecutors' workload, rather than organizing and prioritizing them in 
a useful manner.
    Third, the Office said that many of the cases had been inaccurately 
reported as trade unionist killings. According to the Office, in some 
cases the victims were not union members or had been killed for non-
union-related reasons. Yet when Human Rights Watch asked the Office for 
a list of all the cases that the specialized group was investigating, 
as well as the list of cases that they had decided not to investigate 
because they did not really involve unionist killings, they refused to 
provide such a list. The Office has also refused to provide such lists 
to union representatives, making it impossible to have a meaningful 
discussion about the basis on which they are excluding many cases from 
investigation.
    2. Many convictions involve paramilitaries in the Justice and Peace 
process.
    One factor that appears to have contributed to the increase in 
convictions is that some paramilitary commanders participating in what 
is known as the ``Justice and Peace'' process have been accepting 
responsibility for unionist killings. But this means that once the 
Justice and Peace process is over, the rate of convictions is likely to 
quickly drop off. Also, the convictions in these cases often do little 
to further truth or justice.
    Under the ``Justice and Peace Law,'' paramilitaries known to be 
responsible for atrocities are given an opportunity to admit all their 
crimes. In exchange, they are set to receive a single reduced sentence 
of five to eight years, rather than the much longer sentences--up to 40 
years, in some cases--that would normally be ordered in individual 
cases of trade unionist assassinations.
    The law began to be applied in 2007, around the same time as the 
convictions for unionist killings started to go up. Based on Human 
Rights Watch's review of several of the rulings in these cases, as well 
as the statements of persons close to the investigations, a substantial 
share of the convictions in unionist cases are of paramilitaries who 
are participating in the Justice and Peace Law process. According to 
the Office of the Attorney General, of the 76 convictions obtained in 
2008 (in 57 cases), 50 were reached pursuant to plea bargains. The 
Office states that six of the convictions were obtained with 
``information from'' the Justice and Peace Law process, but it does not 
specify how many of the convicted persons are Justice and Peace Law 
participants. In our review of a portion of the 2008 sentences, we 
found that a substantially larger number than six were convictions of 
Justice and Peace Law participants. The Office of the Attorney General 
also states that it has already prepared plea bargains for 75 
individuals in the Justice and Peace Law process.
    The statements in these cases are often general. For example, 
paramilitary commanders like Ever Veloza (also known as ``HH'') have 
admitted having commanded responsibility for thousands of killings, 
including unionist killings. But they often do not describe the 
circumstances surrounding the killings or identify other accomplices or 
participants in the crime. As a result, these convictions often do 
little to establish the truth about the killings.
    3. Lack of progress in high-profile cases
    In some of the most high-profile cases of unionist killings there 
has been little progress.
    One example is the investigation of the former head of the National 
Intelligence service, Jorge Noguera. Noguera has been under 
investigation since 2005 for allegedly cooperating closely with 
paramilitary groups, including by giving sensitive information about 
trade unionists and others under government protection to 
paramilitaries who later targeted and killed some of the protected 
persons. The Noguera investigations have moved slowly and have 
repeatedly been delayed due to procedural errors. At this time, Noguera 
is under arrest pursuant to a December order by the Attorney General 
that found probable cause to hold him for collaborating with 
paramilitaries. Investigations for his alleged involvement in trade 
unionist killings have shown little signs of progress.
    Similarly, in the murder of labor leader Luciano Romero, despite a 
court order to investigate potential involvement of the Nestle 
Corporation in the killings, the Office of the Attorney General has 
failed to move any such investigation forward. When I interviewed 
officials from the Office in November, they told me that they had not 
pursued the investigation of Nestle because they disagreed with the 
judge.
Stigmatization of Union Activity
    High-level officials continue to stigmatize legitimate union 
activity as a cover for the abusive left-wing guerrillas. Colombian 
President Alvaro Uribe has in the past dismissed international concerns 
over the violence, describing the unionists as ``a bunch of criminals 
dressed up as unionists.''
    More recently, President Uribe has just last week suggested that 
those who criticize his government's human rights record abroad, or 
oppose the US-Colombia Free Trade Agreement, belong to a sort of 
``intellectual block'' of the Revolutionary Armed Forces of Colombia 
(FARC) guerrillas.
    Such statements put unionists and human rights defenders at grave 
risk, suggesting that the violence against them might be justified and 
that accountability for the killings may not be a priority for the 
government.
Paramilitary Violence
    Most trade unionist killings have never been investigated, so it is 
impossible to know exactly who is responsible and why all the killings 
have been committed. What is clear is that in many cases, the killers 
have been mafia-like paramilitary groups, who have admitted to 
deliberately persecuting unions.
    As of March 2008, the Office of the Attorney General reported that 
of all the persons convicted in unionist killings, 73 (the largest 
share) belonged to paramilitary groups.
    As a result, to address the violence against unionists in a 
sustained manner, it is crucial that the Colombian government 
effectively dismantle the paramilitary groups that have historically 
posed the greatest threat to unions.
    Uribe administration officials often dismiss concerns about 
paramilitary violence by claiming that the paramilitaries are now 
``extinct'' thanks to the government's demobilization program. But 
while more than 30,000 individuals supposedly demobilized, Colombian 
prosecutors have turned up evidence that many of them were not 
paramilitaries at all, but civilians recruited to pose as 
paramilitaries. Law enforcement authorities never investigated most of 
them.
    Meanwhile, scores of ``new'' groups closely linked to the 
paramilitaries and composed of thousands of members are operating all 
over the country.
    A recent report by the Colombian organization Nuevo Arco Iris 
estimates, based on official data, that there are 21 of these armed 
groups operating in 246 municipalities around the country, and that 
they could be composed of over 10,000 members.
    These groups are engaging in extortion, killings, forced 
displacement, and drug trafficking--just like their predecessors. 
Several foreign embassies in Bogota, the Organization of American 
States' mission verifying the demobilization, and dozens of human 
rights defenders have reported receiving threats from the new groups 
since 2007.
    In Medellin, where the homicide rate had been dropping 
substantially for years, violence has shot up, with murders jumping 
from 771 in 2007 to 1044 in 2008--a 35% increase, largely due to the 
activities of these new groups. The former head of the prosecutor's 
office in the city, who is also the brother of Colombia's Interior and 
Justice Minister, is now under investigation for alleged links to these 
groups.
    The new groups are also contributing to a rise in internal 
displacement. In fact, starting in 2004, around the same time 
paramilitaries supposedly started to demobilize, the rate of internal 
displacement in the country began steadily rising. The Colombian 
organization CODHES, which monitors internal displacement, has reported 
that 270,675 people had become internally displaced in just the first 
six months of last year--a 41% increase in displacement over the first 
six months of 2007. It is still collecting data on the second half of 
2008. In a large share of these cases, the victims report being 
displaced by new armed groups that operate in the regions that were 
historically under paramilitary control.
    There are good reasons to believe that these new armed groups pose 
a serious threat to trade unionists. In fact, the bulk of the threats 
received by unionists last year have been signed by groups purporting 
to be paramilitaries, such as the Black Eagles. And the regions where 
the most cases of anti-union violence were registered in 2008 are the 
same regions where the new armed groups are most active. These include, 
for example, Santander, Norte de Santander, Magdalena, and the coffee-
growing states of Quindio, Risaralda and Caldas.
Paramilitary Infiltration of Colombia's Democratic Institutions
    Colombia's democracy today faces a serious threat due to 
paramilitary infiltration of key institutions like the Colombian 
Congress, which is now undergoing a major crisis of legitimacy, one 
that is unprecedented not only in Colombia but in all of Latin America. 
Seventy-four members of the Congress--including approximately 35% of 
the Senate--are under investigation or have been convicted for rigging 
elections or collaborating with paramilitaries. Nearly all the 
congresspersons under investigation are members of President Uribe's 
coalition.
    The fact that these investigations are occurring at all is of 
historic importance. But these gains are still tentative and fragile. 
They are the result of a fortuitous combination of factors, including 
the independence and courage of a select group of judges and 
prosecutors, a Constitutional Court ruling that created incentives for 
paramilitary commanders to disclose some of the truth about their 
crimes, the actions of Colombian civil society and a handful of 
journalists, and international pressure on the Colombian government.
    And unfortunately, as we documented in a report we released in 
October 2008, entitled ``Breaking the Grip? Obstacles to Justice for 
Paramilitary Mafias in Colombia'' (which I would like to submit for the 
record) the administration of President Uribe is squandering much of 
the opportunity to truly dismantle paramilitaries' mafias. While there 
has been progress in some areas, some of the administration's actions 
are undermining the investigations that have the best chance of making 
a difference.
    Of greatest concern, the Uribe administration has repeatedly 
launched public personal attacks on the Supreme Court and its members 
in what increasingly looks like a concerted campaign to smear and 
discredit the Court.
    It has also opposed and effectively blocked meaningful efforts to 
reform the Congress to eliminate paramilitary influence. In particular, 
Uribe blocked an effort to apply what is known as the ``empty chair 
reform'' to current members of Congress. That reform would have 
sanctioned political parties linked to paramilitaries, barring them 
from simply replacing the congresspersons who are investigated or 
convicted with other politicians who were elected in the same manner.
    What is at stake here is Colombia's future: whether its 
institutions will be able to break free of the control of those who 
have relied on organized crime and often horrific human rights abuses 
to secure power, and whether they will be able to fulfill their 
constitutional roles unhindered by fear, violence, and fraud.
    Also at stake is the future of labor rights in the country. As long 
as important Colombian institutions remain under the influence of 
paramilitaries who have persecuted trade unionists, it will be 
impossible for union members to freely exercise their rights.
Extrajudicial executions by the Army
    In recent years there has been a substantial rise in the number of 
extrajudicial killings of civilians attributed to the Colombian Army. 
Under pressure to demonstrate operational results by increasing their 
body count, army members apparently take civilians from their homes or 
workplaces, kill them, and then dress them up to claim them as 
combatants killed in action. The Attorney General's Office is currently 
investigating cases involving more than a thousand victims of such 
extrajudicial executions dating back to mid-2003.
    While most of these cases do not involve trade unionists, an 
increasingly significant share of trade unionist killings are believed 
to be attributable to state actors. Twelve per cent of the killings 
recorded by the ENS in 2008 were believed to have been committed by 
state actors.
    One significant case involves the military's killing of three trade 
unionists in the region of Arauca in 2003. Unfortunately, while lower 
level soldiers have been convicted of the killings, prosecutors appear 
to have made little progress in investigating the potential 
responsibility of military officers up the chain of command.
    More broadly, the large number of extrajudicial executions being 
attributed to the Army has contributed to the broader climate of 
intimidation that severely affects union activity. And the government's 
commitment to contain anti-union violence cannot be taken seriously so 
long as its security forces appear to be engaged in widespread 
executions of civilians.
    The Defense Ministry has issued directives indicating that such 
killings are impermissible. But such directives have been regularly 
undermined by statements from high government officials, including 
President Uribe, who until recently accused human rights defenders who 
reported these killings of colluding with the guerrillas in an 
orchestrated campaign to discredit the military.
    Since October of last year, after a major scandal over the 
military's alleged execution of several young men from the capital of 
Bogota, the Uribe administration has started to more explicitly 
acknowledge the problem and has dismissed several soldiers and officers 
from some military units in connection with some of the most well known 
killings. However, it is crucial that these dismissals be followed by 
effective criminal investigations, prosecution, and punishment of those 
responsible for executions--including commanding officers who may have 
allowed or encouraged them--that have been reported on a regular basis 
all over the country. It is too early at this time to determine whether 
such punishment will occur.
    It is also crucial that the government review and reform military 
policies, such as its rewards and promotions system, that may be 
creating incentives to produce false results by executing civilians.
Colombia is not meeting international labor standards
    Anti-union violence is so pervasive in Colombia, that it is 
impossible for workers to fully exercise their rights. This is a 
fundamental problem that must be confronted head-on if workers' rights 
are ever to be respected in that country.
    But violence is not the only problem affecting labor rights in 
Colombia. Colombia's labor law itself also falls short of international 
standards, as reported repeatedly by the International Labor 
Organization (ILO) in its annual review of Colombia. The Colombian 
government has attempted to downplay the shortcomings, asserting in a 
2008 embassy publication that legal reforms passed in 2000, combined 
with additional ``legislative, regulatory and judicial opinions during 
the Uribe Administration'' have eliminated ``most'' of the 
inconsistencies between Colombian labor law and ILO norms. But that 
same year, the ILO Committee of Experts on the Application of 
Conventions and Recommendations (Committee of Experts) noted in its own 
2008 report that glaring problems remain. The problems criticized by 
the ILO include obstacles to trade union registration, violations of 
workers' rights to strike, and the use of cooperatives to undermine 
workers' right to organize.
Human Rights and the US-Colombia Free Trade Agreement
    Human Rights Watch takes no position on free trade per se. But we 
believe any free trade agreement should be premised on respect for 
fundamental human rights, especially the rights of the workers 
producing the goods to be traded. In Colombia, those conditions are far 
from being met. That's why we have called on Congress to delay 
consideration of the US-Colombia Free Trade Agreement (FTA) at this 
time, until Colombia shows concrete and sustained results in addressing 
the violence against trade unionists, impunity for that violence, and 
the broader human rights context that makes it difficult for workers to 
exercise their rights.
    Without concrete and sustained results in addressing these basic 
problems, ongoing anti-union violence, impunity and human rights abuses 
would, as President Barack Obama has noted, make a ``mockery'' of labor 
protections in the agreement. Colombia should be in compliance with 
such protections before the accord takes effect, as has generally been 
demanded with FTA commercial provisions.
    We believe that the US Congress's decision to delay consideration 
of the FTA has put pressure on the Colombian government to take some 
initial steps to address these issues. As previously described, the 
Office of the Attorney General has established a specialized group of 
prosecutors to investigate some of the country's thousands of unsolved 
cases of trade unionist killings, and the group has obtained an 
increase in convictions. Yet this progress is still fragile and 
incomplete, and there are many reasons (as previously described) to be 
concerned about the sustainability of this effort. And in other areas 
(such as the rate of violence), Colombia has been sliding back this 
year. Meanwhile, the government has yet to address the rise of 
successor groups to the paramilitaries, the influence of these groups 
in the political system, continuing stigmatization of unionists, and 
the Army's disturbing practice of extrajudicial executions of 
civilians.
    Among other steps, Colombia should be required to meet concrete 
benchmarks in the following areas:
    <bullet> Demonstrating a sustained and meaningful increase in well-
grounded convictions of perpetrators of anti-union violence. These 
should include convictions in a sufficient number of the 2,695 killings 
of trade unionists reported since 1986 to show a significant shift in 
the long-term pattern of impunity. The convictions should be based on 
more than the mere admissions of guilt by paramilitary commanders 
participating in the ``Justice and Peace'' process, as these 
confessions often do little to establish the truth about the killings 
or accountability for the perpetrators. To achieve this goal, there are 
many steps Colombia has yet to take. For example, it must ensure that 
the specialized prosecutors for labor union cases handle all the 
reported cases, not just the reduced number they are currently 
investigating.
    <bullet> Dismantling the paramilitary groups that pose the greatest 
threat to unions, by holding accountable paramilitaries and their 
accomplices in the military, political system, and business sectors; 
confiscating paramilitaries' illegally obtained assets and returning 
stolen lands to their rightful owners; and actively investigating and 
confronting new or never demobilized paramilitary groups that have 
appeared in the wake of the supposed demobilization of the AUC 
paramilitaries.
    <bullet> Ensuring accountability for the extrajudicial executions 
of civilians that the Army has allegedly been committing by the 
hundreds in recent years. It is crucial that the government response go 
beyond mere internal investigations and dismissals of officers to also 
include criminal investigations, prosecutions, and appropriate 
punishment, as well as the reform of policies that may create 
incentives for such executions.
    In any case, Congress should make clear that, given the serious 
crisis of legitimacy in the current Colombian Congress, the Free Trade 
Agreement should not be considered until the Colombian Congress has 
been meaningfully reformed to remove paramilitary influence, or until 
after the current Colombian Congress ends its term in 2010. The United 
States should urge the Uribe administration to promptly take the 
necessary measures to clean up its political system. Such measures 
include approving political and electoral reforms to sanction the 
political parties that have, in past elections, allowed paramilitaries 
to infiltrate them. In particular, political parties should lose any 
seats held by congresspersons who are convicted or resign due to 
investigations for collaborating with paramilitaries. The Uribe 
administration should provide full support to criminal investigations 
of public officials, ceasing its attacks on the courts and 
investigators handling the parapolitics investigations.
    The United States can take several additional steps to maximize the 
effectiveness of this principled approach to the Colombia FTA.
    First, it should make clear that the delay in the Colombia FTA does 
not reflect political or anti-trade agendas. Given Colombia's specific 
labor rights and human rights situation, the Colombia FTA should not be 
bundled with the Panama FTA or any other free trade agreement.
    Second, the US should substantially increase assistance to the 
institutions on the front lines of this fight. This means not only 
supporting the specialized group of prosecutors investigating trade 
unionist killings, but more broadly increasing aid to institutions--
including the Attorney General's Office and Supreme Court--that are 
conducting investigations of paramilitaries' past crimes and networks 
(including paramilitaries' accomplices in the military and political 
system). The United States should also increase aid to institutions and 
organizations--such as the Ombudsman's Office's Early Warning System, 
as well as civil society groups--that monitor the actions of armed 
groups, including the new paramilitary groups, and play a key role in 
preventing human rights abuses around the country.
    Given what is at stake for Colombia--the success or failure of a 
generational struggle to break the hold of brutal mafias over the 
country's political life, and in turn the ability of Colombia's workers 
to exercise their rights without fear of being threatened or killed--
and given the Uribe government's reluctance to engage in that struggle 
except when under pressure to do so, the United States should not seek 
FTA ratification prematurely or in exchange for partial measures. The 
Uribe government recognizes that change has come to Washington and 
senses that it will have to demonstrate greater progress if there is to 
be any chance for the FTA. The United States should seize this 
opportunity by standing firm on the need for fundamental changes in 
Colombia, and providing support to achieve those changes.
    Colombia still has a lot of work to do before the FTA should be 
considered. By continuing to delay the deal's approval, the United 
States will show that human rights are not just words, but rather basic 
values that have real consequences for US policy.
                                 ______
                                 
    [The study, ``Breaking the Grip? Obstacles to Justice for 
Paramilitary Mafias in Colombia,'' Human Rights Watch, October 
2008, may be accessed at the following Internet address:]

   http://www.hrw.org/sites/default/files/reports/colombia1008web.pdf

                                 ______
                                 
    Chairman Miller. Mr. Roberts?

   STATEMENT OF JAMES ROBERTS, RESEARCH FELLOW, THE HERITAGE 
                   FOUNDATION, WASHINGTON, DC

    Mr. Roberts. Thank you, Mr. Chairman, Mr. Ranking Member. I 
am here today in my personal capacity. And the title of my 
testimony states my theme, which is that the best protection 
for both Colombian and American workers is stronger market-
based democratic institutions in Colombia.
    Colombia is one of America's best friends in the Caribbean-
Andean region. The government is one of the oldest in South 
America and is solidly committed to its partnership with the 
United States and is following a similar path toward market-
based democracy and rule of law that has made the United States 
the most prosperous nation on Earth.
    A decade ago, Colombia was wracked by violence and seized 
with fear, drug pins, narco-funded leftists, terrorists and 
guerrillas, far right paramilitaries and an assortment of other 
gangsters operated with impunity while government, military and 
law enforcement officials cowered in their offices and 
barracks. Today by comparison, Colombia is bustling with people 
excited to see their homeland growing more prosperous and at 
last more peaceful.
    The majority of Colombians are focused on enhancing their 
peace and prosperity by accelerating Colombia incorporation 
into the globalized economy. And it is interesting to note that 
many pro-globalization Colombians are unionized workers 
enjoying the prosperity from the hundreds of thousands of jobs 
created in Colombian export industries.
    Progress is explained by several factors. Plan Colombia, 
the U.S. joint effort with the U.S. government started under 
former President Bill Clinton. President Alvaro Uribe has been 
an exceptionally effective president--and a new spirit among 
the Colombian people. In my written testimony, I outline the 
historical context the tragic violence that has plagued 
Colombia for 60 years. Indeed, violence in the entire region 
from Mexico through the Andes is far too high.
    The combination of FARC, drug traffickers and 
paramilitaries nearly destroyed the Colombian state. The 
restoration of order and civilian authority with the help of 
Plan Colombia has allowed President Uribe's free market 
policies to bear fruit. And economic growth in Colombia has 
taken off.
    Indeed, our recently published index of economic freedom 
the Heritage Foundation publishes with the Wall Street Journal 
ranks Colombia's economy as 72nd freest in the world out of 179 
countries. By comparison, in neighboring Venezuela, the score 
held at the bottom at 174 just ahead of Cuba. And in Ecuador, 
which is also headed by a populist leftist government, did not 
do much better at a score of 137.
    In addition to Plan Colombia, to stabilize market-based 
democracy, President Uribe and former President Bush signed the 
U.S. Colombia Free Trade Agreement in February of 2006. The FTA 
is much more than just a trade agreement. It would help 
Colombia and the United States complete a contiguous free trade 
zone alone the entire Pacific rim. It would further stabilize 
many Latin nations from Mexico through Central America and into 
the Andes in their struggles against both extreme poverty in 
certain segments of the populations and the malignant affects 
of narco-terror on their societies.
    It would also increase U.S. exports to Colombia. 
Regrettably, the Congress has delayed approval of the U.S./
Colombia FTA. Protectionist U.S. labor unions and anti-
globalization leftist groups have joined with far left allies 
in the region to try to block the Colombia FTA. Their main 
argument, as we have heard this morning, is that the history of 
violence against leaders of Colombian trade unions and 
allegations that Colombia has tolerated or sanctioned violence 
and impunity for extrajudicial killings should disqualify 
Colombia for an FTA.
    I would argue that Congress put the violence and the 
benefits to Colombia and the United States into context. 
Stronger democratic institutions in Colombia will reduce 
violence. It is clear that all of Colombian society has 
suffered from violence. But when Uribe took office, there were 
almost 29,000 people murdered every year in Colombia. That rate 
has dropped.
    But the Washington Post reported last year that only .2 
percent of victims were members of trade unions. Some of them 
were members of the household. And union membership in Colombia 
is just 2 percent of the population.
    Plan Colombia has really helped, and Uribe has had, as we 
have heard, a demobilization program. Thirty thousand AUC and 
other paramilitaries demobilized, a truth and reconciliation 
process. Violence is down. Extraditions are up, including key 
narco-traffickers due to the--strategy of the United States to 
face prosecution. The murder rate has dropped dramatically by 
40 percent. Kidnappings are down 83 percent, terror attacks 
down 75. Murders of trade unions also dropped 75 percent, 
although, as was noted, they did increase very slightly in 
2008.
    There has been also a dramatic drop in extrajudicial 
killings. And it is not, I don't think, true to allege that 
impunity is still tolerated, although some AUC and 
paramilitaries have become common criminals.
    Judicial reform has also helped Colombia with help of the 
USAID going to a U.S. model of accusatory system. The labor 
standards have been improved. General Barry McAffrey has 
reported that the human rights record has improved. And, in 
fact, progress has been made across the board in poverty 
reduction, education and health in Colombia since 1999.
    The U.S./Colombia FTA will lock in these gains for both 
countries. It will spur additional economic development in 
Colombia and push the Colombian government to build up and 
strengthen institutions and judicial/economic regulation. And a 
full spectrum of voices across the aisle, Republican and 
Democrat, have supported its approval. And if it is not 
approved, we think that it will have serious negative 
consequences. So I would urge the Congress to approve it. Thank 
you very much.
    [The statement of Mr. Roberts follows:]

 Prepared Statement of James M. Roberts, Research Fellow for Economic 
 Freedom and Growth, Center for International Trade and Economics, the 
                          Heritage Foundation

    My name is Jim Roberts. I am the Research Fellow for Economic 
Freedom and Growth in the Center for International Trade and Economics 
at The Heritage Foundation. Prior to joining Heritage in 2007, I served 
for 25 years as a Foreign Service Officer with the State Department and 
worked on a variety of economic and political issues in a number of 
Latin American countries. The views I express in this testimony are my 
own, and should not be construed as representing any official position 
of The Heritage Foundation.
    Colombia is one of America's best friends in the Caribbean--Andean 
region. The Colombian government--the oldest democracy in South 
America--is solidly committed to its partnership with the United States 
and is following a similar path toward market-based democracy and 
strong rule of law that has made the United States the most prosperous 
nation in world history.
    A decade ago Colombia was a nation wracked by violence and seized 
with fear, where drug kingpins, narco-funded leftist terrorists and 
guerillas, far-right paramilitaries, and an assortment of other 
gangsters operated with impunity, while government, military, and law 
enforcement officials cowered in their offices and barracks.
    Today, by comparison, Colombia is again bustling with people who 
are excited to see their homeland growing more prosperous and, at last, 
more peaceful. The vast majority of Colombians are focused on enhancing 
their peace and prosperity by accelerating Colombia's incorporation 
into the globalized economy. Interestingly, many of these pro-
globalization Colombians are unionized workers enjoying the prosperity 
created in recent years by the hundreds of thousands of jobs in 
Colombian export industries (e.g., cut flowers, mining, petroleum 
products, coffee, textiles, sugar, and bananas).
    In the intervening years, many things changed, but they can be 
summarized in a few words: Plan Colombia, President Alvaro Uribe, and a 
new spirit among the Colombian people. Plan Colombia is a bold, multi-
year program begun in 1999 by former President Bill Clinton and 
President Andres Pastrana, Uribe's predecessor. Through this plan, 
which was continued and strengthened under former President George W. 
Bush, the two countries began rebuilding the Colombian state. Plan 
Colombia has helped the Colombian government regain control of 
territory and extend security to the towns and the countryside. 
Progress has been especially dramatic since 2002 when President Uribe 
took office and Congress significantly increased U.S. funding for Plan 
Colombia.
A History of Violence
    Colombia's tragic history of violence in the modern era goes back 
to at least 1948, when revolutionaries began rioting to protest the 
assassination of Jorge Eliecer Gaitan, a lawyer and somewhat populist 
leftist politician who was running for president against the 
conservative oligarchy then in power.\1\
    Thousands perished in the Bogotazo, as the riots came to be known, 
including Colombian soldiers, revolutionaries, and innocent bystanders. 
Colombia's major political parties were unable to put a stop to the 
extreme levels of violence (La Violencia) triggered by the Bogotazo 
until a decade later in 1958, after more than 200,000 Colombians had 
been killed. The 1970s and 1980s saw the rise of violent leftist 
guerilla warfare groups such as the Marxist-oriented Revolutionary 
Armed Forces of Colombia (FARC), the Colombian Liberation Army (ELN) 
and M-19 movement. During this insurgency by the FARC and ELN, drug 
cartels in Cali and Medellin dramatically increased cocaine production 
and smuggling. Drug traffickers enlisted guerrillas to make direct 
assaults on the government as occurred in October 1985. By the late 
1980s, Pablo Escobar, the notorious leader of the Medellin Cartel, had 
become the seventh richest man and the most feared terrorist in the 
world. His power was such that he threatened ``to usurp the Colombian 
state.'' \2\
    Colombians' penchant for resolving disputes through violence has 
many root causes, including the longstanding existence of criminal and 
violent narco-terror/trafficking gangs; the Colombian government's lack 
of effective control in the past over much of its vast territory (the 
combined size of California and Texas); the fiercely independent and 
stubborn nature of the average hard scrapple Colombian, who must carve 
out a living from often rough and inhospitable terrain; and the long 
history of class warfare that has been stoked, organized, and funded by 
Marxist revolutionary groups over the past 60 years. Other countries in 
the region have also been disproportionately affected by violence, for 
many of the same reasons.
Colombia's Ongoing Struggle for Modernity and Prosperity
    The FARC is a long-time enemy of Colombian democracy. Long isolated 
in the Colombian jungles, FARC leaders are out of touch with the 21st 
century. They reject market-based democracy, individual freedoms, urban 
life, and modernity in general. Their visions of Colombia's future 
would follow in the footsteps of the apostles of revolutionary violence 
from Mao Zedong to Che Guevara. Colombia government officials say that 
negotiations with the FARC are very difficult, since there is little 
the government can offer to them.
    FARC continued to pursue the overthrow of the government of 
Colombia during the 1990s, but more worldly FARC members also turned to 
the lucrative and fast-growing businesses of drug trafficking, 
kidnapping, and extortion. The resulting violence led some far-right 
landowners in Colombia to form paramilitaries to protect their property 
in the absence of effective governmental authority. The government's 
negotiations with the FARC ended in 2002 after the FARC turned a safe 
haven twice the size of El Salvador into a laboratory for violence, 
misrule, drug trafficking, and kidnapping.\3\
    The best known of the paramilitary groups was the United Self-
Defense Forces of Colombia (AUC),\4\ which waged war against the left 
and the government in the general chaos generated by the armed left and 
the drug trade. AUC members engaged in a vicious guerrilla campaign 
against the FARC and the ELN, drug traffickers, and the Colombian army. 
Some AUC members were also corrupted by the temptation of easy money 
from narco-trafficking, and a significant number of large landowners in 
Colombia who sponsored paramilitaries were the drug lords themselves. 
The combination of FARC, drug traffickers, and paramilitaries nearly 
destroyed the Colombian state.
Defending Market-based Democracy in Colombia
    The restoration of order and civilian authority has allowed 
President Uribe's free market policies to bear fruit, and economic 
growth in Colombia has taken off. The gross domestic product (GDP) has 
been growing at an increasing rate since Uribe took office, reaching an 
estimated 7 percent in 2007 \5\ before falling back slightly last year 
in the wake of the worldwide economic slowdown. Colombia's economic 
growth has been spurred by the duty-free access it has enjoyed under 
the Andean Trade Preference and Drug Eradication Act (ATPDEA), [which] 
gives Colombia access to the U.S. market as a way to reduce poverty and 
fight the drug trade.'' \6\
    The 2009 Index of Economic Freedom, which was recently published by 
The Heritage Foundation and The Wall Street Journal and scored 179 
countries worldwide, ranked Colombia's economy at 62.3 out of a 
possible 100 (with 0 equaling ``repressed'' and 100 indicating 
``free''), making it the world's 72nd freest economy. Colombia is 
ranked 15th out of 29 countries in the Latin America/Caribbean 
region.\7\ By comparison, neighboring Venezuela's score fell all the 
way to the bottom of the 2009 Index, to 174th place (just ahead of 
Cuba),\8\ while Ecuador was not much higher ranked at 137th out of 179 
countries.\9\
    For the first time in memory people are enjoying the freedom of 
safely walking Colombia's once mean streets. Uribe's popularity has 
soared along with the economy, while the favorable rating of the FARC 
has plummeted to almost zero.\10\
The U.S.-Colombia Free Trade Agreement
    To stabilize market-based democracy, President Uribe and former 
President George W. Bush negotiated the U.S.-Colombia Free Trade 
Agreement (FTA), which the two governments signed in February 2006. It 
is much more than just a simple trade agreement. The Colombia FTA would 
help the United States complete a contiguous free trade zone along the 
Pacific Rim from Canada to Chile and further stabilize many Latin 
nations from Mexico through Central America and into the Andean region 
in their struggles against both the extreme poverty in segments of 
their populations and the malignant effects of narco-terror on their 
societies. Importantly, the FTA would also increase U.S. exports to 
Colombia and would seal a deeper partnership between two nations that 
are long-time friends and great defenders of market-based democracy. 
The FTA would fortify a bulwark against the rising tide of Chavism that 
nearly surrounds Columbia and threatens to undermine U.S. hemispheric 
interests.
    Regrettably, Congress has delayed approval of the U.S.-Colombia 
FTA. Protectionist U.S. labor unions and anti-globalization leftist 
groups have joined with far-left allies in the region to try to block 
Congressional approval of the FTA.
    On the surface at least, their main argument against the FTA is 
that a history of violence against leaders of Colombian trade unions 
and allegations that the Colombian government has tolerated or even 
sanctioned that violence should disqualify Colombia from further 
consideration for a FTA with the United States. However, these 
opponents conspicuously ignore the historical context of the violence 
(both within Colombia as well as in the region) as well as the 
considerable progress the Uribe government has made in reducing it.
Stronger Democratic Institutions in Colombia Will Reduce Violence
    FTA opponents place heavy emphasis on the tragic history of 
violence against Colombian labor leaders and the alleged impunity for 
their government assailants. All of Colombian society, including union 
members, has clearly suffered from the horrifically high murder rate of 
the past few decades. However, more than half of all union members are 
in the Colombian public sector, with teachers comprising the largest 
union in the public sector. Given the nature of their work and the lack 
of any direct connection to paramilitaries sponsored by large 
landowners, most killings of teachers were likely the result of 
apolitical, ``normal'' motives (e.g., robbery and crimes of passion).
    Over the years certain labor union members and leaders were 
undeniably targeted for assassination by paramilitaries and others in 
Colombia. Yet while the AFL-CIO reports the overall toll of violence 
against teachers and other union members, it fails note that the vast 
majority of the ``2,500 murders of trade unionists since 1986'' \11\ 
occurred prior to 2001. According to statistics from the Embassy of 
Colombia, the number of murders of union members in Colombia has 
dropped drastically since 2001, one year before Colombian President 
Alvaro Uribe was sworn into office. In 2001 and 2007, union killings 
totaled roughly 200 killings annually. The number fell by half in 2003 
and has declined since then.\12\
    By the time President Uribe took office in 2002, almost 29,000 
Colombians were being murdered annually. Many politicians from Uribe's 
own political party were among the dead. While a few teachers were 
certainly killed because of their leftist ideology, a large number of 
the killings should not be included in the AFL-CIO's ``union killings'' 
figures. Many of the murders involved persons in union members' 
households, not the union members themselves. A high percentage of them 
occurred for reasons unrelated to union affiliation. As The Washington 
Post recently noted: ``There were 17,198 murders in 2007. Of the dead, 
only 39 (0.226 percent) were even members of trade unions, let alone 
leaders or activists, according to the Colombian labor movement. (Union 
members make up just under 2 percent of the Colombian population.)'' 
\13\
Strengthened Colombian Government Institutions Have Reduced Violence
    Plan Colombia and a strong, market based economy have helped 
President Uribe's government to achieve many successes to reduce 
violence in Colombia.
    Demobilization: The Office of the U.S. Trade Representative reports 
that more than 30,000 AUC and other paramilitaries have been 
demobilized since 2005, when the Colombian government implemented the 
Justice and Peace Law, which set the rules for the demobilization 
process.\14\
    Truth and Reconciliation: Under the Justice and Peace Law of 2005, 
over 1600 bodies of some of the victims of the FARC and the AUC have 
been recovered and their families have been partially compensated with 
assets seized for a reparation fund. There are more people now in jail 
in Colombia for human rights violations that at any other similar 
(post-conflict) period in the history of any Latin American 
country.\15\
    Violence Down: As the Center for Strategic and International 
Studies recently noted, the FARC and other drug-traffickers are on the 
run, and violence is down significantly. The government has ``a 
legitimate state presence in all of Colombia's 1,099 municipalities'' 
and ``[t]he guerrillas have been driven out of many areas that they 
previously dominated and their military capability sapped by the 
resurgence of state security force.''\16\
    Extraditions up: Another indicator of the success of Plan Colombia, 
and a development also very helpful to U.S. law enforcement efforts in 
the war against drugs, is the dramatic increase in the number of 
significant narcotics traffickers extradited to face prosecution in the 
United States since President Uribe took office.
    Dropping Murder Rate: When President Uribe assumed power, violence 
was ripping the very fabric of the Colombian nation. However, the 
overall murder rate has dropped by 40 percent, kidnappings are down 83 
percent, and terror attacks are down 76 percent.\17\ Plan Colombia has 
helped to cut cocaine production and smuggling significantly.\18\ The 
streets of Medellin, once ruled by Pablo Escobar, are now safe enough 
for visits by senior Bush Administration and congressional 
officials.\19\ The number of murders of trade unionists has dropped by 
75 percent.\20\ Although the number of trade unionist murders increased 
very slightly in 2008, to 32, the Uribe government has maintained and 
accelerated its efforts to reduce the level to zero.\21\
    One pro-FTA Colombian union leader's courageous advocacy of the 
U.S.-Colombia trade agreement apparently cost him his life. Jairo 
Giraldo Rey was murdered in his hometown of Cali in November 2007, just 
before he was to travel to Washington with other pro-FTA Colombian 
union leaders to lobby Congress to pass the agreement. As reporter 
Monica Showalter noted, ``Giraldo's murder not only silenced an 
unexpected voice for free trade, it also jacked up union killings data 
to stoke the case in the U.S. against Colombia's pact.'' \22\
    Dramatic Drop in Extrajudicial Killings: A constant refrain heard 
from U.S. and Colombian leftist NGOs and unions is that the 
paramilitaries can still act with impunity and are protected by the 
Colombian government. This allegation is false.
    While extrajudicial killings are still occurring, they have been 
greatly reduced. President Uribe made it clear from the day he took 
office that his government would not tolerate paramilitary activity and 
would prosecute criminals in the AUC and other far-right groups. In 
fact, nearly all of the paramilitaries have been demobilized and 
disbanded under the Uribe administration.
    Furthermore, ``[t]he Colombian government has tripled spending on 
protection for unionists, human rights activists, and other at-risk 
individuals and established a special unit to prosecute crimes against 
trade unionists.'' \23\ In 2008, the Colombian government spent US$42 
million on this security program to protect at-risk individuals.\24\ Of 
the 9,400 individuals benefiting from individual protection schemes--
which range from bodyguards and armored vehicles to cell phone 
networks--1,959 are unionists, which is an increase from 2006, when 
unionists accounted for 1,504 of the 6,097 individuals being 
protected.\25\
    The Prosecutor General's office has led the charge in dealing with 
past killings, resolving 73 cases of union member murder and convicting 
156 individuals since 2001. In November 2006, a special labor Sub-unit 
was created in the Office of the Prosecutor General to focus on labor 
union killings and has since resolved 40 cases and convicted 67 
people.\26\ The unit has three specialized judges, 19 prosecutors, 22 
additional lawyers, and almost 100 judicial police investigators.\27\
    Adoption of U.S. Legal System Model: With technical assistance from 
the U.S. government, beginning in 2004 Colombia switched from the 
Napoleonic inquisitorial legal system to the accusatory, open-court 
criminal trial procedures based upon U.S. and English common law. These 
reforms will strengthen Colombia's judicial system and make it more 
efficient with a speedier trial process. The transition to the new 
system will take time, however, and the first new law school students 
rained in the new procedures only graduated recently.\28\
    Improved Labor Standards: The AFL-CIO alleges that the Colombian 
government is ``not in compliance with International Labor Organization 
(ILO) core labor standards.'' \29\ Yet a November 2007 ILO report 
concluded, based on a visit to Colombia, that the labor situation in 
Colombia is positive and that the government has made significant 
progress. The ILO report praised the ``the cooperation of the 
Government of Colombia with the ILO officials in their work to conclude 
the Tripartite Agreement on Freedom of Association and Democracy.'' 
\30\
    Opponents are also willfully blind to the many successes stemming 
from a wide variety of substantial USAID programs that are jointly 
funded with the Colombian government. These programs target development 
assistance to address the problems that festered during the ``lost 
years'' of rampant violence. These programs train all employers--small, 
medium, and large--in proactively ensuring compliance with all 
Colombian labor laws on occupational safety, child labor, working 
hours, and other issues of concern to Colombian workers.
    These programs are also intended to bring more workers into formal 
economy, where they can receive benefits and contribute to the tax 
base. USAID and the Colombian government are working cooperatively with 
business owners, but are also establishing protocols to enforce laws 
with a system of fines and incentives. The Colombian Labor Ministry is 
also funding programs to increase availability of vocational training 
programs.\31\
    Improved Human Rights Record. Human rights activists opposed to the 
FTA have faulted the Colombian government's treatment of Internally 
Displaced Persons (IDPs).\32\ However, some of those persons labeled as 
IDPs by the left are actually economic migrants who have gravitated to 
large cities in search of work and a better life, as is common in many 
developing countries. Furthermore, numerous neutral observers have 
noted tremendous progress on human rights in recent years. Retired 
General Barry McCaffrey, former commander of the U.S. Southern Command 
and Director of the White House Office of National Drug Control Policy, 
visited Colombia in October 2007 and reported that ``[t]he human rights 
situation has improved immeasurably during the President Uribe 
tenure.'' \33\
    According to a report from the Colombian government:
    Impressive progress has been made in poverty reduction, education 
and health since 1999. Increased stability has allowed the government 
to provide more and better services to the country's poor.
    <bullet> Social spending represents 40 percent of the national 
budget
    <bullet> Poverty levels have decreased since 1999 from 55 percent 
to 45 percent
    <bullet> Programs have been developed to improve infant nutrition 
and health, encourage school enrollment, empower women, and provide 
food for millions of children
    <bullet> More than 20 million of the country's poor receive full or 
partial health coverage
    <bullet> Infant and child mortality have decreased
    <bullet> Child immunizations have steadily increased
    <bullet> Student completion of elementary school has increased to 
almost 100 percent, while the number of completing secondary school has 
also significantly risen.\34\
The U.S.-Colombia FTA Will Lock-in Gains for Both Countries
    My colleague at Heritage, Dr. Ray Walser, has noted that former 
Bolivian president Jorge Quiroga recently observed the irony that two 
key ``commodity exports'' (oil and cocaine) are entering the U.S. duty 
free from several countries in Latin America, while the U.S. Congress 
debates the duty-free entry of legal products from pro-American 
Colombia (which already has duty-free access to the U.S. market for 
most of its products through ATPDEA).\35\
    The FTA will spur additional economic development in Colombia and, 
just as importantly, push the Colombian government to build up and 
strengthen government institutions and judicial and economic regulation 
to ensure that continued economic progress will not depend on any 
particular political personalities.
    As Dr. Walser has already reported to Congress, a full spectrum of 
the wisest voices--U.S. and Latin American presidents, former senior 
officials, both Democratic and Republican--and the Council on Foreign 
Relations, the Brookings Institute, the American Enterprise Institute, 
The Heritage Foundation, to name a few, as well as mainstream-media 
editorials are unanimous in urging swift passage of pending agreements 
with Colombia and Panama.\36\ Colombia will certainly be willing to 
work with the Obama Administration and Congress to accommodate 
additional reasonable measures aimed at protecting labor and 
environmental standards.
    If the Congress votes down the Colombia FTA, it will deliver a 
major psychological victory to the FARC, the narco-traffickers that the 
U.S. has battled for decades in Colombia, and other enemies of market-
based democracy in the region. It will seriously risk the progress and 
momentum made by the Plan Colombia war on drugs on which the U.S. has 
spent hundreds of millions of dollars during the Clinton and Bush 
Administrations.
    Iinflicting economic punishment on a U.S. ally in the Andean region 
by defeating the FTA is not in the U.S. interests. Left-wing populism 
is fueled by poverty and lack of opportunities, as seen in Venezuela, 
Ecuador, and Bolivia. To counter this possibility in Colombia, the 
development of strong democratic institutions must be accompanied by 
continued economic development and growth.\37\
    A defeated FTA might also force Colombia reluctantly into closer 
ties with a very eager and suddenly conciliatory Venezuela, which is 
already Colombia's second largest export market after the U.S., and 
Colombia cannot afford to ignore it. Chavez's dangling of petroleum 
carrots will not be ignored by the Colombians. If Colombia is spurned 
by the U.S., it will continue to seek trade agreements with many other 
countries (e.g., Canada and Mexico) and trading blocs, such as the EU, 
the European Free Trade Association (EFTA), and MERCOSUR (Southern 
Common Market). This would only further isolate the U.S.
    A failed FTA will lead Colombia and other Latin American countries 
to conclude that the U.S. is not a reliable partner. It will also fuel 
a return to narco-trafficking and other illicit activity by the urban 
and rural poor, who would not benefit from the many jobs that would be 
created by the legitimate alternative economic development that will be 
created by the Colombia FTA.
    Congress should quickly approve the pending trade agreements with 
Colombia and Panama. These actions will send a strong signal that the 
new Congress and the Obama Administration will be adopting a forward-
looking trade policy agenda that emphasizes the creation of new U.S. 
jobs through expanded export opportunities.
                                endnotes
    \1\ Brian Latell, After Fidel: Raul Castro and the Future of Cuba's 
Revolution: The Inside Story of Castro's Regime and Cuba's Next Leader 
(New York, N.Y.: Palgrave MacMillan, 2007), pp. 101--106.
    \2\ Mark Bowden, Killing Pablo: The Hunt for the World's Greatest 
Outlaw (New York: Penguin Books, 2001), p. 15.
    \3\ Author's notes from visit to Bogota, Columbia, December 2007.
    \4\ Peter DeShazo, Phillip McLean, and Tanya Primiani, Back from 
the Brink: Evaluating Progress in Colombia, 1997-2007 (Washington, 
D.C.: Center for Strategic and International Studies Press, 2007), p. 
6, at www.csis.org/media/csis/pubs/071112-backfromthebrink-web.pdf.
    \5\ International Monetary Fund, World Economic Outlook Database, 
April 2008, at www.imf.org/external/pubs/ft/weo/2008/01/weodata/
index.aspx (April 9, 2008).
    \6\ Christopher A. Padilla, Under Secretary for International 
Trade, U.S. Department of Commerce ``Outlook on the Americas 2008,'' 
remarks at Association of American Chambers of Commerce in Latin 
America, Coral Gables, Florida, January 24, 2008, at www.ita.doc.gov/
press/speeches/padilla--012408.asp (April 14, 2008).
    \7\ Terry Miller and Kim R. Holmes, 2009 Index of Economic Freedom 
(Washington, D.C.: The Heritage Foundation and Dow Jones & Company, 
Inc., 2009), pp. 135-136, at www.heritage.org/research/features/index/
countries.cfm.
    \8\ Ibid., pp 423-424
    \9\ Ibid., pp. 163-164
    \10\Author's notes from visit to Bogota, Colombia, December 2007.
    \11\ James Parks, ``Act Now to Stop Colombia Free Trade Deal,'' 
AFL-CIO Weblog, March 24, 2008, at http://blog.aflcio.org/2008/03/24/
act-now-to-stop-colombia-free-trade-deal (April 5, 2008).
    \12\ Embassy of Colombia, ``Progress Report: Strengthening the 
Rights, Benefits and Security of Unions,'' October 2007, and the 
Colombia Ministry of Social Protection, cited in Daniel Griswold and 
Juan Carlos Hidalgo, ``A U.S.-Colombia Free Trade Agreement: 
Strengthening Democracy and Progress in Latin America,'' Cato Institute 
Free Trade Bulletin No. 32, February 7, 2008, Figure 1, at 
www.freetrade.org/node/839 (March 17, 2008).
    \13\ Editorial, ``Columbia's Case,'' The Washington Post, April 18, 
2008, p. A14, at www.washingtonpost.com/wp-dyn/content/article/2008/04/
18/AR2008041802900.html (April 21, 2008).
    \14\ Office of the U.S. Trade Representative, ``Columbia FTA 
Facts,'' March 2008, at www.ustr.gov/assets/Trade--Agreements/
Bilateral/Colombia--FTA/asset--upload--file144--13716.pdf (April 11, 
2008).
    \15\ Embassy of Colombia, ``Colombia: Actions to Advance Labor 
Justice and Labor Rights,'' Washington, DC, November 2008 (also 
available at www.colombiaemb.org).
    \16\ DeShazo et al., Back from the Brink, p. viii.
    \17\ Office of the U.S. Trade Representative, ``Columbia FTA 
Facts.''
    \18\ U.S. Department of State, Bureau of International Narcotics 
and Law Enforcement Affairs, ``International Narcotics Control Strategy 
Report, 2008,'' March 2008, at www.state.gov/p/inl/rls/nrcrpt/2008/
vol1/html/100776.htm (April 21, 2008).
    \19\ Press release, ``Secretary Gutierrez to Lead Fourth 
Congressional Delegation to Colombia,'' U.S. Department of Commerce, 
February 28, 2007, at www.commerce.gov/NewsRoom/PressReleases--
FactSheets/PROD01--005275 (April 5, 2008).
    \20\ Hugh Bronstein, ``Colombia Trade Deal Dead This Year, U.S. 
Unions Say,'' The Washington Post, February 12, 2008.
    \21\ Embassy of Colombia, ``Colombia: Actions to Advance Labor 
Justice and Labor Rights,'' Washington, DC, November 2008 (also 
available at www.colombiaemb.org). See also Jose de Cordoba, 
``Colombia's Uribe Says Passage of Free-Trade Pact Is Critical,'' The 
Wall Street Journal, April 4, 2008.
    \22\ Monica Showalter, ``U.S.-Colombia Deal Faces Labor Deceit,'' 
Investor's Business Daily, April 7, 2008, at www.investors.com/
editorial/IBDArticles.asp?artsec=16&issue=20080407 (April 11, 2008).
    \23\ Doug Palmer, ``Labor Leaders to Visit Colombia As Bush Presses 
for Vote,'' Reuters, February 7, 2008, at www.reuters.com/article/
domesticNews/idUSN0739641220080207 (February 19, 2008).
    \24\ Embassy of Colombia, ``Colombia: Actions to Advance Labor 
Justice and Labor Rights,'' Washington, DC, November 2008 (also 
available at www.colombiaemb.org).
    \25\ Office of the U.S. Trade Representative, ``Columbia FTA 
Facts,'' and author's notes, meeting with U.S. Embassy officials in 
Bogota, Columbia, December 2007.
    \26\ Ibid.
    \27\ Embassy of Colombia, ``Colombia: Actions to Advance Labor 
Justice and Labor Rights,'' Washington, DC, November 2008 (also 
available at www.colombiaemb.org).
    \28\ Ibid.
    \29\ American Federation of Labor and Congress of Industrial 
Organizations, ``Worker's Rights, Violence, and Impunity in Colombia,'' 
January 9, 2008, p. 8, at www.aflcio.org/issues/jobseconomy/
globaleconomy/upload/colombia--briefing.pdf (April 5, 2008).
    \30\ U.N. International Labour Office, ``Fourth Supplementary 
Report: Implementation Process of the Tripartite Agreement on Freedom 
of Association and Democracy in Colombia,'' GB.300/20/4, November 1, 
2007, para. 8, at www.ilo.org/wcmsp5/groups/public/--ed--norm/--
relconf/documents/meetingdocument/wcms--087328.pdf (April 5, 2008).
    \31\ U.S. Agency for International Development, ``FY 2006 Budget 
Justification to the U.S. Congress,'' s.v. ``Colombia Program: 
Alternative Development,'' June 14, 2005, at www.usaid.gov/policy/
budget/cbj2006/lac/pdf/co514-008.pdf (December 13, 2007), and author's 
notes, meeting with USAID officials, U.S. Embassy, Bogota, Colombia, 
December 5, 2007.
    \32\ News release, ``Colombia: Death Threats Drive Thousands from 
Their Homes Every Year,'' International Committee of the Red Cross, 
February 4, 2008, at www.icrc.org/web/eng/siteeng0.nsf/html/colombia-
news-020408!OpenDocument (April 5, 2008), and Human Rights Watch, 
Displaced and Discarded--The Plight of Internally Displaced Persons in 
Bogota and Cartagena, October 2005, at http://hrw.org/reports/2005/
colombia1005 (April 5, 2008).
    \33\ General Barry McCaffrey, quoted in Embassy of Colombia 
(Washington, D.C.), Colombia: Perspectives on Progress, January 2008, 
p. 5, at www.colombiaemb.org/docs/2008perspectivesonprogressreport.pdf 
(April 5, 2008).
    \34\ Ibid, p. 11 (original bullet points).
    \35\ Ray Walser, Ph. D., ``U.S Policy toward Latin America in 2009 
and Beyond,'' Testimony before The Subcommittee on the Western 
Hemisphere, Committee on Foreign Affairs, United States House of 
Representatives, February 4, 2009
    \36\ (From Walser Testimony) Some examples recommending approval 
include: Jose Miguel Insulza, Secretary General, Organization of 
American States (OAS), ``Recognize and Build on Our Progress,'' 
Americas Quarterly, Fall 2008, pp 103--105, at http://as.americas-
society.org/article.php?id=1332 (January 28, 2009); Council on Foreign 
Relations, ``U.S.--Latin America Relations: A New Direction For A New 
Reality,'' Independent Task Force Report No. 60. pp. 17--19; 
``Rethinking U.S.--Latin Relations: A Hemispheric Partnership for A 
Turbulent World,'' Report of the Partnership for the Americas 
Commission, November 2008, p. 22; and ``Democrats Support Colombia 
FTA,'' Latin Business Chronicle, April 21, 2008, at http://
www.latinbusinesschronicle.com/app/article.aspx?id=2314 (January 28, 
2009).
    \37\ Griswold and Hidalgo, ``A U.S.-Colombia Free Trade 
Agreement,'' Cato Institute, Center for Trade Policy Studies, February 
7, 2008, at http://www.freetrade.org/pubs/FTBs/FTB-032.pdf (February 
11, 2009)
                                 ______
                                 
    Chairman Miller. Thank you
    And thank you to all of the witnesses for your testimony.
    Mr. Sanin, I would like to ask you a question. And then I 
would like to have Judge Sanchez comment on the question.
    The question is to Mr. Sanin, in your written testimony, 
you state that almost 75 percent of the violence against union 
members and leaders is concentrated against just 30 labor 
unions that are in six of Colombia's departments, suggesting 
that those unions have experienced most of the violence. And 
you raised the question that, given this fact, and what appear 
to be the targets of much of the violence, that the attorney 
general's office might rethink how they are prosecuting the 
cases, especially if you were trying to get to the intellectual 
authors of that violence.
    And then I would like to have Judge Sanchez comment on this 
question and the answer also since he has raised the same 
question about how do you move the prosecution to the 
intellectual authors.
    Mr. Sanin [through translator]. Yes, thank you very much. 
What we would like to bring up here is that the method that the 
attorney general's office uses is a case by case methodology. 
It is something that allows them to see the trees but they 
can't see the forest of anti-union violence.
    What we are saying is that we need to be clear in the 
investigations, that the concentration of these cases against 
30 unions and in six departments has a very unique character. 
And we need to talk about having a systematic way of 
investigating this as a global problem.
    In this way, we would get not only the actual perpetrators 
of these crimes, but also the intellectual authors. And more 
importantly, we need to get behind to what their motivation is, 
what the reasons are and who benefits from these crimes. That 
is it. I will let the judge comment now.
    Chairman Miller. Thank you.
    Mr. Sanchez [through translator]. Thank you for letting me 
use the floor. I suppose we could present a potential solution 
here, which is that of institutional and political commitment 
from the government of Colombia. However, there is one more 
aspect. And that is a personal, deeply rooted commitment, both 
from the prosecutors and the judges. First from the 
prosecutors, they must be willing to investigate so that the 
judge is then able to rule.
    However, the problem is that for both judges and 
prosecutors, sometimes they see these incidents as one more 
case file, a simple, routine number to be filed and dealt with. 
But there is no desire to go in-depth to get to the 
intellectual authors behind these crimes. It is the 
intellectual authors that generate the violence.
    So there is nothing that can be done if we don't get a 
personal commitment from prosecutors and judges and from the 
Colombian government. We need to get political will from them. 
It is that simple.
    Chairman Miller. Thank you.
    Ms. Hoyos, you have also made an effort to try and identify 
the intellectual authors of the murder of your father. Can you 
tell us what that entails?
    Ms. Hoyos [through translator]. It has been a real struggle 
for me to try to identify the intellectual authors of my 
father's murder. The fact is that nobody shows the will to 
identify those people. In fact, the fact is there is a state 
policy to do away with and eliminate all of these union people.
    This hasn't been easy for me. It has been hurtful, painful 
because it is the state, the government that should be 
investigating these things. But I have had to face this pain of 
interrogating the material actors of these crimes. I have had a 
face-to-face interview with the man who killed my father in my 
attempt to try to find out who the intellectual authors are 
behind this crime.
    And although I have made some progress, I keep running up 
against the brick wall of impunity in Colombia. There really is 
no will to investigate these cases.
    Chairman Miller. Thank you. My time has expired.
    I will turn to Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. I listened to all the 
statements in the anteroom and read through all the documents.
    I have a question, Mr. Miller. I am sorry I missed the 
start. Did you insert into the record the correspondence with 
the Colombian embassy?
    Chairman Miller. Yes, yes.
    Mr. Souder. Okay, good, thank you. There are obviously 
different perspectives here. And one of my frustrations--I have 
worked the narcotics area since I was first elected to Congress 
and have been to Colombia at least 12 times or more. That the 
American people already are struggling with a mislabeling of 
Colombia. It is for one a beautiful country. And it would be 
nice if when people come in with criticism that they would 
remind the American people what a beautiful country it is 
rather than just criticizing their country because all America 
hears is criticizing Colombia.
    That Congressman Frank and I have sponsored legislation and 
worked to try to open up the cruise ships. In the Cartagena, as 
we saw the violence go down, there has been an incredible drop 
in violence in the nation of Colombia.
    A lot of people think of Colombia solely as cocaine or 
maybe coffee or maybe emeralds. But it is a very diversified 
economy. Most of the flowers in America--you can go to the huge 
areas on Medellin as well as Bogota and throughout the country, 
and they will be all the way to Indiana in 48 hours coming in 
overnight into Miami and spreading around. I think, 67 percent 
of cut flowers in America come from Colombia.
    The cement industry, the coal industry, the huge coal mines 
that are open again--you were once our eighth largest supplier 
of oil until FARC cut the lines and cut the rails, which are 
now mostly getting reopened. But it is a country that, unlike 
most of Latin America where you have 2 or 3 percent of the 
people having all the wealth, is arguably the biggest middle 
class.
    Yes, there are still rich families. Those rich families 
still dominate. But compared to the rest of Latin America, is 
an extraordinary story of a middle-class development, of a 
spread society that has still great poverty, as there is all 
over Latin America. But it is an extraordinary success story 
and becoming more of a success story.
    Killing Pablo is not all of Colombia. Nor is this terrible 
violence. Anyone who has a family member killed, any person who 
is killed is a tremendous tragedy. And it is really sad that 
prosecutions aren't going fully forth in every country in the 
world where that happens, including in Colombia.
    But we need to get this in perspective because there was 
really minimal perspective here, that violence--Colombia is 
also the oldest democracy in Latin America, by the way, and 
successful democracy--that narcotics, mostly because of 
problems in the United States as well as in Europe, have driven 
an incredible problem of violence throughout the country. There 
was always violence. It has gone up and down.
    But the incredible problem of violence--to put it in 
perspective, whether you believe it is 42 or slightly higher to 
80 homicides in the trade union movement, we are talking about 
basically last year, which was an improved year, homicides 
totaling 17,000. And we are debating whether it is 40 or 80 in 
a country where there is 17,000, which, by the way, is a drop 
from 27,000 that when I first went to Colombia in my first term 
about 12 years, 11 years ago, I guess it was, when we actually 
went in.
    After a period of time where you couldn't even move 
anywhere, we could just go in for 3 hours. Then we could stay 
overnight. The last few times I have been into Medellin, you 
could wander around if you needed to. If you wanted to walk, 
you could walk. Up where the coal mine was, where the railroads 
had been cut and they are no longer cut, at one point, 
somewhere near 80 percent of the mayors and councils in the 
country were unoccupied because the leaders had been 
assassinated. There has been an incredible turnaround in 
Colombia.
    We need to make sure that the judicial system progresses. 
We have poured money into making the judicial system try to 
progress. But, you know, there is only so much the United 
States can do to tell countries when we say follow the rule of 
law, you have to do it our way or the highway. And that we have 
seen improvements. We need to make more improvements.
    But this selective, what I believe is reliving the 1980s, 
the FARC may have started like the Sandinistas or Guatemala or 
Salvador. But it has turned into drug thugs. Then the business 
groups, admittedly probably anti-union as well, formed 
paramilitaries that communicated violence throughout the 
country. Then those paramilitaries went off on their own and 
became drug thugs. And that some of those people then were 
interrelated. And as they try to clean up, their parties are 
going to be interrelated, some of them. Medellin is a classic 
example of the struggle there with that.
    But to not stress the progress and only highlight a small 
sector of the country is a terrible disservice to the nation of 
Colombia, to this government that is working hard to do it, to 
a president of their country who had his father assassinated, a 
vice president who was kidnapped, who has taken on his own area 
where the paramilitaries in Medellin and tried to work with 
them. It is not as easy as it is made sound.
    And I would like to hear in general some praise of Colombia 
for their progress, not just harp, harp, harp, criticize. Human 
Rights Watch when I met with them the first time--I was sent 
there because I was favorable to trying to deal with Human 
Rights Watch. Robin Kirk has written a good book that shows 
some of the trouble.
    But Human Rights Watch has had selective vision on what 
they say in Colombia and has become, in my opinion, a 
discredited flack and that your numbers when you tried to 
relate in your testimony that the Bogota versus the general 
population assassination rate, without saying that most union 
members were not in Bogota and that Bogota has, in fact, 
changed, that the mere presentation that you made to this 
Congress and some of the others are so academically flawed as 
to be seen as partisan, not really trying to help the United 
States deal with a very difficult problem.
    And that is how do we, in fact, if we do a free trade 
agreement, work with your government to protect union rights. I 
agree with the premise. It is terrible what happened to this 
lady's father and anybody else who gets killed, whether they 
are union members or others in Colombia.
    I yield back.
    Chairman Miller. Thank the gentleman.
    Mr. Hare?
    Mr. Hare. Well, I don't know where to start. To my friend 
who, you know, was talking about the flowers. I had an 
opportunity with several other members of Congress to meet some 
women who came from Colombia and worked in the flower industry. 
And I saw what their hands looked like. I saw and heard the 
hours that they had to work, the treatment that they were 
subjected to--would not be tolerated in this country.
    I can't for the life of me believe that--with Valentine's 
Day coming up I can tell you I am not sending my wife flowers. 
And I am doing so because for those people who are having to go 
through that type of a situation every day. I will do the candy 
route, and they can bag the flowers.
    I will tell you, Mr. Roberts, I could not disagree with you 
more. You have brought a wonderful paint brush for our country 
and telling us just how great things are. Yet I am looking at 
numbers that 2,694 murders, 96 percent of them unsolved, people 
who lose their father and aren't prosecuted. And if they are, 
the prosecutions are a sham.
    You talk about a trade agreement. You mentioned trade 
unionists, which I happen to be one. And I take great pride in 
that. So I thank you for that compliment.
    But I have to tell you if we are supposed to pass a trade 
agreement at some point with the country, I would think that it 
would be inherent upon this Congress and upon all Americans to 
want to trade with a country who has basic fundamental rights 
and respects them. And with all due respect to the numbers that 
you have given to us today, you know, I don't think that is 
going to happen. And I don't think it ought to happen until the 
act is cleaned up.
    It may have been reduced. But I can tell you that wouldn't 
be tolerated in this country. And we are supposed to look at a 
trade deal when this young woman's father and this judge was 
fired simply because he had the unmitigated gall to prosecute 
people. So, you know, with all due respect to your facts and 
your figures, I find it appalling that this is still going on 
and the numbers are going up.
    And while some people say, well, maybe it has gone from 
only 39 to 49, these are human beings. They are fathers. They 
are mothers. They are sons. They are daughters.
    You have young people getting together trying to--have to 
find out because the government won't do it and they are 
covering it up. And everybody in this room knows it. And, you 
know, I just--with all due respect, you know--you also 
mentioned the term protectionist. And then I will ask Dr. 
Sanchez a question.
    If protectionist means to me protecting the lives of people 
who want to have and work in an industry, whatever that 
industry is, protecting their lives so that they don't have to 
go home and have their sons and daughters see them shot before 
their very eyes and then be harassed at the funeral of their 
father--if that is protectionism, then, again, I will wear that 
as a badge of honor.
    Let me just say, Judge Sanchez, you presided over a case 
that Representative Grijalva and I circulated a dear colleague 
letter on Juan Carlos Ramirez Ray. And you also ordered the 
Colombian attorney general's office to conduct an investigation 
into the role of the prison director and the prison supervisor 
in his killing. Do you know if the attorney general ever 
pursued anyone beyond the hired guns in this case?
    In other words, we have heard a lot about the intellectual 
authors. And let me ask you two other quick questions because I 
know my time is going to run out. Do you see the government 
undertaking any real effort to fully investigate cases? Or is 
it content in most cases to just convict the gunman but not 
follow the evidence to the intellectual authors?
    Mr. Sanchez [through translator]. Thank you. Regarding the 
case of Juan Carlos Ramirez, he was, in fact, murdered in front 
of his mother. No one gave him any help. And he was killed by 
members of the AUC, the self-defense forces in Colombia.
    Unfortunately, the prosecutors did not investigate the 
intellectual authors of the crime, and they investigated only 
some of the material authors of the crime. In fact, they 
dropped an investigation versus a sergeant who was indirectly 
involved in order to avoid a total impunity. However, we later 
found out that this sergeant was having a love affair with the 
director of the prison. So I ordered an investigation of that 
prison official as a possible participant as an intellectual 
author.
    To date we have no information at all on the outcome of 
that investigation of that case. And that is what we need. We 
need reporting in order to tell the community what happens with 
these investigations and what are the outcomes.
    Going back to the case of Juan Carlos Ramirez, he was a 
young man who was murdered along with others because of his 
unionist beliefs. He was a young man of about 25 years of age 
or so. And he lived with his mother. And basically he was a 
person who fought for the rights of others.
    This particular murder took place when he was made fun of 
in front of a formation. He was threatened by prison officials. 
He was told that he would be murdered by the AUC. And, in fact, 
the AUC did back up that threat. It was a member of the AUC who 
ended up killing him.
    For me this is a shameful situation as a Colombian. It 
pains me to see this taking place in my country. And that is 
why I am here. I am here to try to put an end to these murders. 
It is precisely because my country is beautiful that I am here, 
that I want to put an end to this so that it can be a more 
beautiful country, so that all of you can go visit there 
without any major risk. Thank you.
    Chairman Miller. Thank you.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman [speaking Spanish].
    Mr. Roberts, I had a delegation from Colombia in my office 
several months ago, union leaders and business leaders. And 
they were really wanting us to do the Colombia Free Trade 
Agreement, wondering why we couldn't move forward on this 
because they really wanted it for the betterment of their 
businesses, their unions, their family situation and their 
country.
    As you know, our economy has been experiencing severe 
hardships. Can you explain how a continued delay of passage of 
the Colombia Free Trade Agreement impairs our economy and holds 
back American workers?
    Mr. Roberts. Thank you, sir. Yes, I agree that there are--
our research has indicated many unionized workers in Colombia, 
as I stated, as I testified, as in favor of the Colombia Free 
Trade Agreement. And I also met with the leaders of some of 
those unions. And they understand that Colombia's future is in 
a globalized economy and that they will benefit and their 
children will benefit where they will have more prosperity if 
they go that route rather than try to go backwards into a 
system of autarchy and socialism.
    I would compare Colombia's situation with Mexico's in that 
whereas Mexico has benefited from having the NAFTA in place now 
for more than 10 years and has had a substantial increase in 
the middle class jobs, Mexico is currently suffering from a 
terrible problem with narco-terrorists, especially in the 
Northern part of the country. Whereas in Colombia, they need 
that FTA to catch up to where Mexico is in terms of institution 
building. But they also need--whereas Plan Colombia has been 
more successful counterinsurgency at this point than the Merida 
Initiative, which we also support expanding and funding.
    In terms of U.S. jobs, clearly, the last count I saw was 
that U.S. manufacturers and people--United States companies 
selling to Colombia had to pay $1 billion in tariffs every 
year. That makes us less competitive.
    That means jobs at Caterpillar and other places are not 
there because we are not able to sell into a country like 
Colombia where they do have a vibrant economy, where they do 
need tremendous investment in infrastructure that can only be 
done if the country has jobs and is producing tax revenues. And 
that will come with the continuation of the globalization 
process, I think, in Colombia. Thank you, sir.
    Mr. McKeon. What provisions specifically are contained 
within the Colombia Free Trade Agreement to specifically 
address violence towards Colombian labor? Because the agreement 
has not been passed, is it fair to say that Colombian workers 
are worse off than they otherwise might be due to congressional 
inaction?
    Mr. Roberts. I don't have the agreement in front of me. I 
do know that after the Speaker Pelosi and the Democrats took 
over in 2006, there were provisions added about labor 
environment, which we would support as long as they don't 
disrupt too much private investment.
    However, the fact that--I think it is the process that 
strengthens the government and the institutions. It is the 
constant meeting with hundreds and thousands of private sector 
people and government people that go along with having a free 
trade agreement, negotiating one and then having one in place. 
That is what strengthens a government. And that is what will, 
as has already been the case. As we have seen, there has been 
progress made since 2002, since Colombia launched on the path 
toward modernizing and doing free trade agreements.
    And I would note that it is not just free trade agreements 
with the United States. But Colombia has negotiated free trade 
agreements with a lot of our competitors up and down the 
Western hemisphere and in Europe. And so, the United States, 
really, I think, needs to get onboard here. And we need a 
Pacific rim trade area so that we can be more competitive with 
our colleagues in Asia and Europe.
    Mr. McKeon. Less than 2 years ago the Democratically 
controlled Congress ratified the Peru Trade Promotion Agreement 
with overwhelmingly bipartisan support. How similar are the 
labor provisions that are contained in the Colombia agreement 
to the Peru agreement?
    Mr. Roberts. As far as I know, there is virtually no 
difference. And it is befuddling to me, sir, why the Congress 
would have approved the deal with Peru and not with Colombia 
because they are very much almost two sides of the same coin in 
terms of the problems that they face, their resources, their 
commitment of their governments to moving forward with 
globalization. So I don't understand why there would be a 
delay.
    Mr. McKeon. Thank you very much.
    Chairman Miller. Thank you.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the witnesses for their testimony. And I apologize 
for not being present throughout the time. But I have read and 
understand, tried to understand what you are saying.
    Mr. Roberts, on page nine of your testimony, you highlight 
the fact that the prosecutor general's office in Colombia has 
resolved 73 cases of union member murder and convicted 156 
individuals since 2001. How many open cases are there in 
Colombia with respect to alleged murders of union officials?
    Mr. Roberts. I know there are a number, sir. I would have 
to get back to you with the specific number.
    Mr. Andrews. Well, I think from the prior testimony, the 
number is at least 1,032 cases that have been under 
prosecution. Now, let me say that that is probably a number 
that is understated. Since there are some number of cases where 
there are files that can't be located. There are 1,104 cases 
that were initiated, but only 1,032 files can be identified. 
And there were, at least by the accounts of one witness, 2,694 
murders.
    So first of all, it looks like a minority of the murders 
have any kind of prosecution. But let us look at the ones that 
the government itself says there have been prosecutions for, 
which is 1,032.
    What kind of record do you think it is, 73 resolutions out 
of 1,032 cases? Do you think that is pretty good prosecutorial 
batting average?
    Mr. Roberts. Clearly, sir, that would be unacceptable. And 
as I have testified, the Colombian government has taken many 
steps to deal with that, including the setting up of a special 
unit. One of the former judges is here with us.
    I have also noted in my written testimony that a number of 
these murders occurred before 2001, probably the vast majority. 
Record keeping being what it is in a developing country like 
Colombia, I think it is understandable that there would be some 
problems.
    Mr. Andrews. Well, of course, I would note that the judge 
who testified is a former judge. And the reasons he is a former 
judge are somewhat interesting. But, I mean, one of the 
arguments implicitly in your testimony is that the great 
progress that has been made by the Colombian government should 
be rewarded in whatever fashion by the United States. Yes, I 
find these numbers to be disturbing that where you have the 
number of over 1,000 open cases--here is the breakdown, as I 
understand it, from the earlier testimony.
    One hundred and twenty convictions, little over 10 percent; 
208 cases where a suspect has been identified but there has not 
been yet a resolution of the case; and 654 cases, 59 percent of 
the cases, where there is no suspect that has been identified, 
which indicates either a very preliminary form of investigation 
or a very ineffective form of investigation. And I am not 
asking you to commit to the truth of this statement, but 
hypothetically that if these data would indicate a government 
that is at best incompetent when it comes to prosecutions and 
at worst, indifferent or complicit, do you think it should be 
the policy of this country to reward such a government or not?
    Mr. Roberts. Well, sir, as I have tried to put it in my 
case is you have to put this in context. All of these 
governments in the region have been historically weak. We know 
that the government of Colombia in Bogota--its reach to that 
extent throughout the whole country, which is the size of 
California and Texas put together. There were areas that were 
basically lawless. That explains why there were these mercenary 
groups formed by landowners.
    Mr. Andrews. Well, but with all due respect, do the other 
countries in the region have the record of labor murder that 
Colombia does? My understanding is 60 percent of the reported 
labor murders in the world came from Colombia. I mean, do the 
other countries have this sort of problem?
    Mr. Roberts. I am not sure of exact comparisons. I know 
that other countries do have problems.
    Mr. Andrews. Of this magnitude?
    Mr. Roberts. Right now in Colombia there are more people in 
jail for human rights violations after an episode of post-
conflict period than in any other country in Latin America in 
history. So the government has taken steps.
    And I think in terms of the United States leverage, it is 
with a free trade agreement, with international----
    Mr. Andrews. But those steps have been, in my view, 
shockingly ineffective. Over 1,000 prosecutions, out of a 
universe of 2,700, by the way, but 1,000 or so prosecutions 
and, according to our records, 120 convictions. And 60 percent 
of the cases have not been followed through to the point where 
there is a suspect identified.
    I mean, at the very least that raises a presumption of 
incompetence. It may raise a presumption of something worse 
than that, of complicity on behalf of the organization that is 
involved.
    And when we hear the former judge's testimony, it would 
tend to lend one's thought to the complicity. So I think this 
is a dismal track record of prosecution. And I think any 
decision we make has to be framed in that regard.
    I would yield back the balance of my time.
    Chairman Miller. The gentleman yields back.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Ms. Edwards would appreciate your help with my brief 
opening statement [speaking Spanish].
    A little translation?
    Ms. Edwards. Yes. Last summer I spoke to a priest who told 
me that I cannot go to Heaven unless I speak Spanish. And I do 
want to go to Heaven, and therefore, I am speaking Spanish. 
However, I don't want to go today, so I am going to go back to 
speaking English.
    Mr. Kildee. Thank you.
    I understand, Mr. Sanin, that the Colombian government 
recently passed a law that gives the president the right to 
declare any strike illegal if it affects the economy. Don't all 
strikes affect the economy, at least some small part? Is this 
law consistent with ILO standards? What changes do you believe 
should be made to this particular law? And what additional ways 
have Colombia's laws regarding the right to strike been 
criticized by the ILO?
    Mr. Sanin [through translator]. What I can say is that 
there was a new law that was implemented, law number 1210 of 
2008, which is supposed to regulate the issue of strikes. And I 
would say it addresses and resolves two of the 10 issues 
brought up by the ILO. The big problem is that the--the problem 
that persists is that there is still presidential authority to 
declare strikes illegal.
    And as far as what ILO has recommended, the problem with 
this law is that there is actually no change in substance. The 
only thing that it has addressed is a change in authority. That 
is the authority to declare the illegal has passed from the 
ministry to the judges. But there is nothing substantively 
different in this law.
    So therefore, strikes continue to be illegal. And this 
problem persists in Colombia. I can give you numbers.
    In the past 6 years, 62 strikes were declared illegal. And 
what this implies for workers also is that their employers can 
fire them with impunity. So in sum, I can say that this law has 
given us no substantive changes in procedures.
    Mr. Kildee. Thank you. Go with God.
    Ms. Woolsey. I think you make us all look like fools, Mr. 
Kildee.
    Thank you, witnesses. You have been wonderful. And you have 
been brave. And you have been appropriately outspoken, I 
believe.
    It is obvious that most of us here are actually appalled 
hearing your testimony about how slow worker protections are 
coming about in Colombia. It is not good enough to be this 
slow. Nor is it good enough for us as individuals to be 
outraged sitting up here.
    So what I would like to ask you, Dr. Sanchez and Ms. 
McFarland is--and then the rest of you, if there is time. What 
can we in the United States, what can the international 
community do to protect trade unionists in Colombia and to 
protect workers in general? What would be your suggestions?
    Why don't we start with you, Ms. McFarland?
    Ms. McFarland. Thank you. I think the U.S. has a very 
powerful tool at its disposal, which is the U.S./Colombia Free 
Trade Agreement. And unfortunately, I don't think these issues 
can be addressed through the agreement. It is not like anti-
union violence or killings are going to be reduced because, you 
know, there is language in the agreement that says that the 
right to strike will be respected.
    Instead, the changes have to happen beforehand. The U.S. 
should press Colombia to meet benchmarks, meet conditions 
before the agreement is entered into. President Obama himself 
noted that without real change in addressing human rights 
abuses he would make a mockery of the labor protections in the 
agreement.
    And we have a lot of ideas about what specific steps 
Colombia needs to take. In the first place, Colombia needs to 
significantly increase the number of convictions for trade 
unionist killings and other violence. This means that they need 
to investigate the whole universe of cases of trade unionist 
killings, not just the 1,000 they have open.
    They need to create a systematic plan to investigate these 
cases and not just one by one, as has been described here. They 
need to go after intellectual authors.
    The other thing that they need to do is go after the 
paramilitary groups. Sure, the Colombian government says that 
they have demobilized the paramilitaries. But as I have 
described, even though 30,000 individuals went through this 
demobilization process and turned in weapons and went through 
ceremonies, there is lots of evidence that many of those people 
weren't even paramilitaries.
    They were civilians recruited to pose as paramilitaries for 
purposes of these ceremonies. And now scores of groups are all 
over the country. They are estimated to have tens of thousands 
of members. And they are committing the same abuses that the 
paramilitaries were committing in the past.
    The congress of Colombia is heavily infiltrated, 
apparently, by these groups, if you go by the supreme court 
investigation. And unfortunately, the Colombian government has 
not supported the investigation. It has not taken seriously the 
claims that there are new paramilitary groups out there. And 
until it starts doing that, you are not going to make progress 
in anti-union violence.
    Ms. Woolsey. All right.
    Dr. Sanchez?
    Thank you, Ms. McFarland.
    Mr. Sanchez [through translator]. Thank you. Your question 
is what can the United States do in order to help protect 
unionists. And the answer is you must do everything you can. 
You must spare no effort. However, in principle what needs to 
happen is that the judicial apparatus needs to be strengthened. 
It must come before the military apparatus.
    As far as prosecutors and judges, in the schools where they 
are trained, we must raise awareness among them that they need 
to investigate, not only the material authors, but also the 
intellectual authors. Because as I said before, they are the 
ones behind all of this. And only by stopping them can we end 
this scourge. And if we do not do that, this problem will go on 
and on and on. Thank you.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Miller. Congresswoman Titus?
    Ms. Titus. Thank you, Mr. Chairman.
    And thank all of you for your testimony, especially Ms. 
Hoyos. That must be very difficult to speak personally about 
your father.
    We have heard from Mr. Roberts and others who defend 
President Uribe and things that have happened recently as 
having gotten much better. They paint a rosy picture, even, of 
the situation since the demobilization of 2006. They seem to 
argue that the paramilitary groups no longer exist and they 
refer to them, and I quote, as emerging gangs or criminal 
bands.
    A number of human rights organizations, though, and 
scholars like Gustavo Duncan at the University of the Andes 
have taken the opposite position. They seem to say that groups 
like the New General and the Brack Eagles, especially have 
taken the place of these old paramilitary groups. And they are 
doing the exact same things and that these union deaths and the 
displacement of so many Colombians from the rural part of the 
country, a problem we haven't even addressed but that is 
getting more and more serious, can stem from their activities.
    I wonder if you would just address in more detail these 
organizations, who the members are, who is financing them, if 
they do still have ties with the old AUC and then conclude and 
tell me if perhaps maybe it is time for a truth commission and 
international courts to start to look at this problem. Thank 
you.
    Ms. McFarland. Thank you. Well, these new groups are 
connected to the paramilitaries. A lot of their leaders are 
never demobilized mid-level commanders of the paramilitaries. 
They are operating in the same regions as the old 
paramilitaries. And they are engaging in extortion, threats, 
displacement of civilians, killings and drug trafficking, just 
like the old paramilitaries. They have inherited their drug 
trafficking routes.
    There are about 22 of them. Their command structure is less 
clear perhaps than with the old groups. And that is one 
distinction.
    But whether they are paramilitaries or emerging criminal 
gangs is primarily a matter of semantics. It is not about the 
substance. And they are having a serious humanitarian impact.
    The rate of displacement in Colombia has not been going 
down in recent years. It has been going up since 2004. Last 
year in the first 6 months of the year, according to the main 
organization monitoring displacement, there were 270,000 people 
who were internally displaced just in 6 months. And that was 
the highest rate in 23 years, a lot of that because of the new 
armed groups.
    In Medellin, which has been touted here as this example of 
security now, last year there was a 35 percent increase in 
homicides, also because of these new groups, apparently. So 
these are serious threats. And they are a threat to trade 
unionists as well. Most of the trade unionist killings that 
happened in the last year or two have happened in the regions 
where these groups are active.
    So I would say it is a very serious problem that needs to 
be addressed. And the government by calling them emerging 
criminal gangs and dismissing them is refusing to deal with it.
    Chairman Miller. Mr. Sanin?
    Mr. Sanin [through translator]. Okay, what I can say is I 
have here--I was talking about some of the threats and some of 
the numbers. And I would be glad to share the numbers with you. 
Most of the crimes that have occurred against union members in 
the last few years have been done by these groups. They go by 
different names, but the problem is the same. It hasn't 
changed.
    And the threat to trade unions exists because the trade 
unions exist because they exist to defend workers' rights. And 
although I can't tell you what the size of these new groups 
might be or what their names are, we feel their threat every 
day daily. We have threats and we have--we are harassed by 
these people.
    I can tell you that Monday of this week the cooperative in 
the city of Antioca received a threat. The threats have not 
stopped. And I can also give you another number, which is that 
1,500 union members are protected by this federal government. 
And they are protected because the federal government has 
determined that they are at risk. And that risk is determined 
by an investigation that is carried out by the state. And the 
state has found that those people at risk are at risk precisely 
because they are threatened by these groups that have all 
emanated from the previous auto-defense groups.
    Chairman Miller. Thank you.
    Mr. Cassidy?
    Mr. Cassidy. Yes, thank you.
    I guess I direct my question more to Ms. McFarland than to 
Mr. Roberts for your comments on that. I am struck that through 
history when there is more trade, an economy becomes more open. 
As the economy becomes more open, typically workers' rights 
improve.
    And I think about the role of multi-nationals in South 
Africa in which the South Africans under apartheid did not 
have--had a second-rate health care, unless they worked for a 
multi-national. And then the multi-national basically demanded 
that they be put into a private hospital with the same kind of 
protections.
    Similarly, I think of how when Nike went to China, there 
are allegations that they weren't treating their workers right. 
And indeed, Nike brought in Western style of how you treat 
workers because of domestic pressure, if you will, United 
States pressure, upon their business structure.
    So when I hear--Ms. McFarland, I am very sympathetic to 
eliminating these paramilitary groups if they exist. Except for 
the question of facts, both sides saying different things. I 
think the real issue is how do we bring workers' rights.
    Now, as I look through history, the more closed a society, 
the more likely there is abuse of workers. The more open the 
society, the less likely.
    And so, I actually wonder if we are not--if we oppose the 
Colombian Free Trade Agreement that we are not actually 
condemning the workers, if you will, just accepting for a 
second the argument that there is a problem, condemning the 
workers to a prolonged kind of absence of rights. And if we 
open it up and our guys walk in and Nike comes in and brings 
those kind of human rights and says we are not going to 
tolerate abuses of our unionized workers, et cetera, et cetera, 
if that wouldn't be an independent force for change, a very 
powerful force for change if we look at history.
    I remember there used to be similar arguments about Korea. 
Don't give them free trade until they open up their economy and 
open up their political system. We did it anyway, and now they 
are one of the most open governments in the Far East. So it 
almost seems like the paradigm is allow trade and trade brings 
in workers' rights.
    How would you respond to that, Ms. McFarland?
    Ms. McFarland. Well, my understanding is that the academic 
record is very mixed on that question of whether trade actually 
improves rights or not. But in any case, in Colombia's 
situation, when U.S. corporations have been present, that 
hasn't necessarily reduced anti-union violence.
    In fact, Chiquita brand operated actively in the Uraba 
region in Colombia in probably the worst period of anti-union 
violence in that country for years and is now--you know, has 
recently accepted having been paying paramilitary groups there. 
I don't think necessarily investment and allowing access to 
markets and all that will improve the situation of violence, 
which is very particular, by the way.
    It is not just about, you know, changing the laws or 
changing the rules and how you are treating workers. We are 
talking about killings. And if you are living under fear that 
you will be killed, you are not going to be able to exercise 
your rights freely.
    Mr. Cassidy. I am not familiar with the Chiquita brand, but 
I am willing to accept that. okay? But the very fact that 
Chiquita brand will stop doing that now that there is the light 
of U.S.-kind of, my gosh, am I going to buy their bananas or 
not in my store at Harris Teeter. Actually, Chiquita is going 
to change their ways.
    Whereas if there were a domestic industry, domestic to 
Colombia, there would be no such pressure upon them. The fact 
that they are an American brand bringing their bananas in 
through Biloxi, Mississippi distributed across the United 
States means that Chiquita is more likely to change. That 
almost makes my argument.
    Ms. McFarland. I think that is purely speculative. We don't 
know that Chiquita is likely to change. All we know is what it 
did.
    Mr. Cassidy. I suspect----
    Ms. McFarland. It spent several years paying 
paramilitaries.
    Mr. Cassidy. I just say that because if we look at the 
example of Nike, we can expect that they would.
    Ms. McFarland. Why? Was Nike charged with----
    Mr. Cassidy. Nike was allegedly--did not have workers' 
rights in the plants, I think, in China. And they went back and 
they made sure they corrected it.
    Ms. McFarland. As I understand in Nike's case, there have 
been campaigns to get it to change.
    Mr. Cassidy. Yes. Isn't that great? And that is because 
free trade made them subject--and they are a moral--I am not 
knocking them. I am not knocking Nike. In fact, I am kind of 
praising them for being responsive. But also saying that they 
have been a positive instrument for change in the countries in 
which they were operating.
    Ms. McFarland. And what I am saying is that in the country 
where trade unionists are getting killed in large numbers, it 
is just as likely that foreign corporations coming in will be 
sucked into that situation.
    Mr. Cassidy. Well, I am not sure I agree with that.
    Mr. Roberts, what are your thoughts?
    Mr. Roberts. Well, it should not come as a surprise that I 
agree with you, sir. And I think you have stated an excellent 
case. I think you should be a guest contributor to our index 
next year, actually. And I think you are right that this 
globalization effect is positive for workers and for consumers 
and citizens alike. And there are unique cases.
    I know that Chiquita had some problems. But in general, I 
don't think we need to be this speculative. I think we can look 
at the facts.
    We can look at how the data shakes out that when you have 
stronger rule of law, when you have clear access to property 
rights and a transparent and non-corrupt judicial system, when 
you have rules of the road, a level playing field for 
investors, for businesses, you have private capital that you 
have many more actors than just a government, that you have 
wealth disbursed with many power centers. You do tend to have 
this affect of more openness of more of a push for rights and 
for rule of law than if you were in a closed system.
    You know, I would say, to use the Nike term for the U.S./
Colombia Free Trade Agreement, just do it. And let us enjoy 
these benefits.
    Mr. Cassidy. You know, I think also to be philosophical, 
Michael Novak in the spirit of democratic capitalism as a 
Catholic theologian looked at that and found that, my gosh, 
capitalism actually does tend to bring in a freer society.
    So I yield back. Thank you.
    Chairman Miller. The gentleman yields back.
    Mr. Payne?
    Mr. Payne. Thank you very much. I thought they were two 
great examples of great corporate citizens, Nike with the 
charge of what they pay in China and what they charge for those 
sneakers, you know, in our cities and little kids pressuring 
their parents to buy Nike sneakers because they play basketball 
and that is about all they look up to, these basketball 
players. And so, these parents are almost extorted by their 
kids saying we have got to have these Nike sneakers or I am not 
in with the group.
    So I don't want to get started on Nike as a great corporate 
citizen or even Chiquita banana that had the U.S., you know, 
put a charge against the lomay countries that were getting 
banana preferences from Great Britain. One thing Great Britain 
did was to say our former colonies could sell us their bananas 
because we felt a responsibility to their trade. And we don't 
grow bananas in the United States.
    But Chiquita and their Mr. Cantor, our trade ambassador, 
sued the European countries who were assisting the Caribbean 
countries. And now the banana business is gone, and drugs have 
replaced the employment of people who used to grow bananas. You 
know that Chiquita has pretty fancy bananas. And the poor 
Caribbean countries were unable to compete.
    But they were two great examples of how this globalization, 
if you look at the other side of the picture, hasn't presented 
a very positive picture for countries that are struggling as I 
indicated, especially in the Caribbean where they have no more 
banana industry. And they are almost out of the way. But that 
wasn't what I was going to ask.
    I just wanted to--so it is interesting how we can look at 
the same set of circumstances and have a totally different 
position. Certainly, I have traveled through Colombia in 2007, 
my last trip to Bogota and to Quito out in Soachaa. And, of 
course, I agree, Cotahana is a beautiful place.
    But I would instruct people to go out to Soacha and to some 
of the other areas where Afro-Colombians and indigenous people, 
who we hear very little about--many of the indigenous people 
really have been eliminated over the years. And the Afro-
Colombians who live in very squalor conditions, virtually no 
rights--I have met several times with President Uribe who says 
he really wants to improve things. And he has. He has done 
better than the previous persons, but, you know, when you 
compare what they did, absolutely nothing, any little bit is a 
little bit better, I think, than nothing.
    But the situation that I saw was very depressing. And the 
fact that labor leaders--we have seen the numbers that have 
been killed. I know my specific question, I guess, would deal 
with the Colombian government's claim that it has taken steps 
to improve labor rights in Colombia by passing in 2008 in June 
a new law on labor cooperatives.
    Last fall, thousands of sugar cane cutters, many of whom 
are African-Colombians, Afro-Colombians, protested over 50 days 
due to poor labor conditions experienced under the labor 
cooperatives model. Afro-Colombian sugar cane cutters claim 
that these cooperatives do not provide them with benefits, do 
not allow them to organize unions, bargain collectively for 
wages and protect their labor rights. The labor cooperative 
model is used by the sugar cane and the oil palm industry, 
which employs many Afro-Colombians.
    And I just might ask you, Mr. Sanin, what is your opinion 
of this model. And in your opinion, is there a trend in sectors 
that employ Afro-Colombians to discourage Afro-Colombians from 
organizing into trade unions? And is the Afro-Colombian--is the 
Colombian government in general addressing, in your opinion, 
the basic concerns of Afro-Colombian workers in that country?
    Mr. Sanin [through translator]. Thanks very much for your 
question. On this issue of the cooperative labor organizations 
is very, very sensitive in Colombia. There are 4 million 
workers who work under these conditions. And they have 
absolutely no rights. They are a very low-cost labor.
    They are not allowed to unionize. And they are barred also 
from striking. The ILO has clearly said that these rights--that 
this goes against everything that has to do with workers' 
rights. The new law that Colombia enacted in 2008 is no 
solution to these problems.
    So we have a model now in Colombia where we have no 
workers' rights, no right to unionize, no right to collective 
bargaining. And that is why these workers went on a spontaneous 
strike. And it did involve the palm workers, the sugar cane 
cutters as well as port workers. And as you rightly said, many 
of these workers are Afro-Colombian. And they find themselves 
in a situation of extremely precarious work conditions. And 
again, I repeat. This new law has not resolved any of these 
problems.
    Mr. Payne. Well, thank you very much. I appreciate that. 
And we will continue to press that issue.
    And the palm workers--many of the Afro-Colombians don't 
want to deal with the palm industry in the first place. And as 
I mentioned before, the Chiquita--that was the WTO that the 
suit went in against the Caribbean islands that, of course, 
Chiquita won, and the Caribbean islands lost. And the WTO and, 
like I said, are struggling now to exist with no commodities to 
sell.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you, Mr. Payne. Before I recognize 
Congressman Polis, I would--Congressman McKeon has asked that I 
insert in the record as part of this hearing the Washington 
Post editorial from Saturday, April 19, 2008 called Colombia's 
Case. And without objection, it will be done.
    [The information follows:]

               [From the Washington Post, April 19, 2008]

   Colombia's Case: The intellectual poverty of a free-trade deal's 
                               opponents

    House Speaker Nancy Pelosi (D-Calif.) says the Bush 
administration's free-trade agreement with Colombia may not be dead, 
even though she has postponed a vote on it indefinitely. If the White 
House doesn't ``jam it down the throat of Congress,'' she said, she 
might negotiate. Ms. Pelosi wants an ``economic agenda that gives some 
sense of security to American workers and businesses * * * that 
somebody is looking out for them''--though she was vague as to what 
that entails. Nor did she specify how anyone could ``jam'' through a 
measure on which the administration has already briefed Congress many, 
many times.
    Still, in the hope that Ms. Pelosi might in fact schedule a vote, 
it may be worth examining once more the arguments against this tariff-
slashing deal. Perhaps we should say ``argument,'' because there is 
really only one left: namely, that Colombia is ``the most dangerous 
place in the world to be a trade unionist'' and that the government of 
President Alvaro Uribe is to blame. As AFL-CIO President John Sweeney 
put it in an April 14 Post op-ed, union workers in Colombia ``face an 
implicit death sentence.''
    Colombia is, indeed, violent--though homicide has dramatically 
declined under Mr. Uribe. There were 17,198 murders in 2007. Of the 
dead, only 39--or 0.226 percent--were even members of trade unions, let 
alone leaders or activists, according to the Colombian labor movement. 
(Union members make up just under 2 percent of the Colombian 
population.)
    This hardly suggests a campaign of anti-union terrorism in 
Colombia. Moreover, the number of trade unionists killed has fallen 
from a rate of about 200 per year before Mr. Uribe took office in 2002, 
despite a reported uptick in the past few months. (Arrests have already 
been made in three of this year's cases, according to Bogota.) And 
evidence is sparse that all, or even most, of the union dead were 
killed because of their labor organizing. As Mr. Sweeney and other 
critics note, precious few cases have been solved, which is hardly 
surprising given that Colombia's judicial system has been under attack 
from left-wing guerrillas, drug traffickers and right-wing death 
squads--a war, we repeat, that Mr. Uribe has greatly contained. But in 
cases that have been prosecuted, the victims' union activity or 
presumed support for guerrillas has been the motive in fewer than half 
of the killings.
    An April 10 letter to the editor from Tom Malinowski of Human 
Rights Watch suggested that we would not make such arguments ``if death 
squads with ties to the U.S. government were targeting Post reporters 
for assassination.'' We like to think that our criticism would be 
energetic but fair, especially if the government was responding 
aggressively to such a campaign and the number of killings was 
declining. No fair-minded person can fail to note that Colombian 
unionists are far safer today than they used to be.
    There are two important countries at the north of South America. 
One, Colombia, has a democratic government that, with strong support 
from the Clinton and Bush administrations, has bravely sought to defeat 
brutal militias of the left and right and to safeguard human rights. 
The other, Venezuela, has a repressive government that has undermined 
media freedoms, forcibly nationalized industries, rallied opposition to 
the United States and, recent evidence suggests, supported terrorist 
groups inside Colombia. That U.S. unions, human rights groups and now 
Democrats would focus their criticism and advocacy on the former, to 
the benefit of the latter, shows how far they have departed from their 
own declared principles.
                                 ______
                                 
    Congressman Polis?
    Mr. Polis. Thank you, Mr. Chairman [speaking Spanish].
    First, thank everybody for coming, especially Yessika 
Hoyos. It is very difficult to open her heart and share. And we 
deeply appreciate that.
    My question is for Dr. Sanchez [speaking Spanish].
    The question is how does the justice system function in 
Colombia with regard to labor issues and the prosecution of 
those who attack labor leaders compared to other forms of 
crimes and how the labor system functions, corruption or 
prosecution of right wing radicals who attack others.
    Mr. Sanchez [through translator]. Yes, this is considered a 
more serious crime in Colombia. I am referring to killing 
someone who is protected by international law, by international 
agreements as unions are. There is a harsher sentence. The fact 
is it is a more serious crime to commit against the life of 
this person.
    And could you please repeat the second part of your 
question?
    Mr. Polis [speaking Spanish].
    I can in English. Is the implementation of the law more 
highly flawed with regard to prosecuting the crimes of labor 
leaders, not compared to a perfect model, but compared to in 
reality the prosecution of other crimes?
    Mr. Sanchez [through translator]. Yes, it is about----
    Mr. Polis [speaking Spanish].
    Mr. Sanchez [speaking Spanish].
    Mr. Polis. Mr. Chair, if I can address, it looks like the 
other gentleman would like to address the question as well.
    Mr. Sanchez [through translator]. The law is enforced 
equally to all persons in Colombia, whether they be citizens or 
not. The law applies the same. And investigations are carried 
out the same.
    That in some cases, in fact, the intellectual authors 
behind a crime are not investigated. That depends on the judge 
behind that investigation. But in the law, per se, it is 
applied equally to all.
    Mr. Sanin [through translator]. The problem that we have is 
that we have very few prosecutors and very few investigators 
for this kind of crime. There is a tremendous imbalance in the 
system.
    We have, for example, lots and lots of prosecutors for 
intellectual property rights, for example. There is no 
equilibrium here. There is no balance in the two. The 
institutional design of the country is not balanced.
    We have lots of protections and lots of prosecutions for 
crimes against property, for example, against business, but 
very, very little protection or prosecution of cases that have 
to do with workers' rights. For example, I can give you just 
one number. The crimes that affects trade unions.
    Anything that is done against trade unions is a crime. And 
yet we have not one single case that has been prosecuted 
against people who are guilty of operating against trade 
unions. And as we said before, we have a 96 percent rate of 
cases that have not been solved.
    Chairman Miller. Thank you.
    Mr. Sestak?
    Mr. Sestak. Thanks, Mr. Chairman.
    Mr. Sanin, could you let me know what you think would be 
the prospects for improved unionization and for protection of 
unionists if the treaty, the Colombian treaty, is not passed as 
compared to if it is?
    Mr. Sanin [through translator]. Okay, thank you very much 
for the question. The issue is that Colombian society is 
different from any other society. It is not like Central 
America. It is not like Peru. It is not even like any of the 
other Andean community countries.
    We have to bear in mind that 60 percent of unionized 
workers killed worldwide are killed in Colombia. The whole 
structure of the law and the practice of the law in Colombia 
goes against basic ILO standards. More than 50 percent of 
Colombian workers are not protected.
    So this makes us a very vulnerable society for the issue of 
trade integration. However, I would like to point out that this 
discussion that is being held in the U.S., this debate can 
possibly help. It may help push Colombia to make this a 
priority issue and to get it resolved. Thank you.
    Mr. Sestak. Ms. McFarland, may I ask you the same question? 
You have watched this and have an historical perspective. There 
is things in the treaty like our own unions are able to go to 
the labor department and now under this treaty make a 
representation by the treaty that something is amiss. And then 
if the labor department finds it is amiss, they can report to 
our trade representative.
    Agnostically, my question is the same. If this treaty is 
not passed, what are the prospects for the improvement of 
unionization and their protection of unionists as compared to 
if it is passed?
    Ms. McFarland. I think the question is really under what 
conditions can it be passed. I mean, at least at Human Rights 
Watch we are not anti-trade. We are not pro-trade. We are 
agnostic on that issue. What we do think----
    Mr. Sestak. That is why I decided you would be the second 
one just from your perspective on unionization, improvement or 
not with the passage.
    Ms. McFarland. What we do think is, what I do think is that 
with the passage of the free trade agreement you are not going 
to solve the problem of anti-union violence, which is the most 
serious problem affecting union rights in Colombia. And with 
conditions on the agreement, preconditions that problem can be 
addressed. A lot of progress could be made. And that is why we 
are calling for delay in the consideration of the agreement.
    Mr. Sestak. Mr. Sanchez?
    I mean, we just might have to deal with the treaty as it 
is.
    Dr. Sanchez, that same question. The treaty as it is--will 
unionization prospects be improved by the passage and 
protection of unionists be improved if this treaty were passed 
or as compared to if it is not passed?
    Mr. Sanchez [through translator]. This issue is really one 
for the experts in trade. I am a criminologist, and I can't 
really say if this agreement is going to be a good thing or a 
bad thing. It should really be addressed by someone who is more 
informed on that issue.
    Mr. Sestak. Thank you. I appreciate your input. I do 
believe that whether it is 36 or 54 murders and assassinations 
in 2007 out of the 17,900 and some, whether it is systemic or 
not is really the question, not just the magnitude.
    But for me the real question on this treaty, having voted 
for the Peru treaty, is are unionists aided, abetted in making 
this less systemic because the potential leverage we may then 
have as compared to us potentially having a different political 
dynamic in that country, particularly in view of what you said 
this administration has now changed in having this passed this. 
Are we better or not better for addressing that systemic issue 
by the passing of this treaty? Thank you very much.
    I yield back the balance of my time.
    Chairman Miller. Mr. Wu?
    Mr. Wu. Thank you, Mr. Chairman.
    I understand that this hearing was convened, not expressly 
to talk about trade treaties, but since we are on that topic, I 
have spent a good amount of time drafting some provisions to be 
added to a bill which was submitted in the last Congress to put 
human rights on a par with environmental; provisions and with 
labor provisions and other fundamental provisions of the trade 
agreement so that they are subject to the same kind of scrutiny 
and review after the fact and similar enforcement mechanisms.
    Now, I understand that, and I am a believer in asking folks 
to meet certain preconditions before trade treaties are signed 
or ratified. But I want to also hear whether these in-treaty 
mechanisms, if they can be incorporated in treaties and if they 
can be enforced, whether that would be helpful to the human 
rights and organizing regimes going forward post-treaty.
    Chairman Miller. If I just might, the gentleman is quite 
correct. These witnesses did not come here to testify on the 
free trade agreements or treaties or what have you. They are 
free to comment on your question, but I just want them to know 
that they are also free not to comment because they did not 
come here to testify on that subject matter.
    Mr. Wu. Absolutely. I just wanted to follow up on--
particularly our witness from Human Rights Watch since she 
seemed to have some opinions on this topic.
    Ms. McFarland. Yes, I think it would be a great thing to 
start looking at ways in which human rights can be incorporated 
into trade agreements. However, I don't think that that is the 
way to solve the problem in Colombia.
    Getting Colombia to do anything about the anti-union 
violence and impunity has been like pulling teeth. And it has 
only been with the possibility of non-ratification of the free 
trade agreement on the table that they have established this 
special prosecutors unit that is starting to make a little bit 
of progress. I think now we have the possibility of moving them 
a little further on that now that there is change in 
Washington.
    But it is not something that you are going to achieve 
through a side agreement once the agreement has been ratified. 
I mean, what is really motivating the Colombian government and 
moving things forward right now is its desire to have the 
agreement ratified. Once it is in place, you know, you can get 
little things, maybe, but it won't be the same.
    Mr. Wu. Okay, thank you for that comment. I want to make 
clear that I agree with you that it is important to make major 
strides so that the human rights environment is roughly 
proportional pre-treaty. But what I have in mind is not a side 
agreement, but to have something integral to the agreement with 
strong enforcement mechanisms so that post-agreement there is 
an enforcement mechanism and leverage, not just on issues of 
tariff or non-tariff barriers, but also for enforceable 
provisions for environmental concerns, labor concerns and human 
rights concerns.
    Ms. McFarland. I think we would certainly welcome the 
opportunity to work with you on developing such language. I 
just think that, as I said before, the situation in Colombia is 
very particular.
    Mr. Wu. Yes.
    Ms. McFarland. And----
    Mr. Wu. They tend to be in each particular country.
    But, Mr. Chairman, I also was not prepared to address this 
topic with this panel today. But since we are on this subject 
and we have a good panel, for anyone who is interested in the 
language as drafted, I would like to get that to you before the 
end of the hearing. And I would very much appreciate your 
comments to the extent that you have helpful suggestions going 
forward.
    Thank you very much, Mr. Chairman.
    Chairman Miller. Thank you.
    Ms. McFarland, if I might--and we are going to wrap this 
hearing up. I have questions now, and then Mr. Hare has 
questions, and that will be the end of the inquiry here.
    It has now been a couple of years since the former 
intelligence chief, Jorge Noguera was arrested and indicted. 
Can you bring us up to date what is taking place with respect 
to this case?
    Ms. McFarland. Sure. Mr. Noguera came under investigation 
for widespread collaboration with paramilitaries within the 
intelligence service while he was the chief of the intelligence 
service. He has been charged with, not only cooperating with 
the paramilitaries, but also providing them--well, he is under 
investigation for allegedly providing paramilitary groups with 
lists of trade unionists who are under the protection of the 
intelligence service and some of whom were later killed by the 
paramilitaries.
    Unfortunately, the investigation of that piece, his alleged 
involvement in the homicides of trade unionists, has not really 
moved forward. And the entire case has suffered lots of delays 
basically because of procedural problems with the attorney 
general's office.
    The attorney general was supposed to assume direct 
responsibility for the investigation. He decided to delegate it 
to another prosecutor. One court told him he couldn't do that. 
He decided to ignore that decision based on the opinion of his 
deputy attorney general.
    And so, the supreme court finally had to tell him last year 
you can't delegate, you have to do this yourself. And Noguera 
has been arrested, released, arrested, released a few times. He 
was recently rearrested for the charges involving collaboration 
with the paramilitaries. But the part about trade unionist 
homicides is sort of floating with no clear direction.
    Chairman Miller. Thank you.
    Ms. Hoyos, I wonder if you might comment on what it is you 
hope to achieve with your new organization.
    Ms. Hoyos [through translator]. My organization, the sons 
and daughters, children of people who are victims of human 
rights violations, people who have been killed, who have 
disappeared. We are a generation that are dreaming of a new 
country. And we are stigmatized because we have this dream of a 
new country.
    I love Colombia. I am not here because I don't love 
Colombia. I am here because I do love Colombia. I am here 
because we are looking for the truth, because we don't want a 
repeat of these crimes. We don't want these crimes to be 
forgotten. We don't want impunity. And we don't want any more 
young people to suffer what we suffered through.
    Just last year, I met a young woman, a 24-year-old--21-
year-old, excuse me, the daughter of Guillermo Rivera, who was 
assassinated also in this manner. And I met her only because 
she found herself in the same circumstance that I had found 
myself in.
    We don't want other people to suffer what we have suffered 
through. We want a country that respects us, that respects 
life, that respects our dreams and that does not pursue us and 
does not condemn us because we have those dreams and those 
thoughts.
    Chairman Miller. Well, thank you very much. And obviously 
we wish you well with your organization.
    I had the opportunity a month ago to view the video that 
you and your sister made in tribute to your father and also in 
pursuit of justice. And it is really quite remarkable. And he 
must have been quite a remarkable and important person in his 
community and certainly to his family. So thank you for doing 
that to share with others who are concerned with this issue.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    And, Ms. Hoyos, let me first of all tell you how sorry I am 
about your father. Just from listening he was obviously a 
wonderful man. And I am sure he is very proud of you.
    You said that you have, you know, forgiven the two people 
who did this, the assassins. What do you know about--I mean, 
what led them to become hired assassins, that you know? And how 
did you come to the decision to forgive them, which is an 
incredible thing for you to be able to do?
    Ms. Hoyos [through translator]. I forgave these two young 
men precisely because they are very young men. And in Colombia, 
unfortunately, many young men turn to violence because of lack 
of opportunities to do anything else. I forgave them because 
they are young, because they are just two young people.
    That doesn't mean that I have given up on finding out the 
truth. I want the truth. I want to know who is behind these two 
young men. I want to know who the intellectual authors of this 
crime are because I know that those people are still free and 
perhaps are still committing more crimes.
    Mr. Hare. Okay.
    And then my last question would be to you, Dr. Sanchez. Why 
do you think that the killers see union leaders as such a 
threat? Or maybe if anybody would like to take a crack at that.
    I mean, why do they see this as such a threat to Colombia?
    Mr. Sanchez [through translator]. Labor unions in Colombia 
have always been labeled as sympathizers of the left or of the 
guerrillas. But the fact is that unionists are killed by both 
the guerrillas as well as the AUC. In other words, they are 
killed by the left as well as by the right and in some cases, 
even by common criminals simply because these people do not 
agree with the beliefs of the unions.
    However, there is also a climate of intolerance in 
Colombia. People in Colombia and people in the world seem to 
sometimes forget that it is thanks to the labor movement that 
we have days off, that we have an 8-hour work day, that we have 
Social Security. It is thanks to their commitment that we have 
that.
    And it is because of that dissent expressed by labor 
unions. That dissent is sometimes seen by some as a threat to 
the system. It is used as an excuse.
    However, not all murders are institutional in nature or 
against the institution of labor. Some people simply feel that 
it is okay. There was, in fact, a time in Colombia in my 
country when a lawyer said that it was no crime to kill the 
indigenous. It was that extreme attitude that we are facing 
then and that we have to work against. Thank you.
    Chairman Miller. Thank you. I want to again thank, 
certainly, all the members of the committee for their 
participation.
    And I want to thank our panelists for traveling here today 
to share your expertise and your knowledge of this situation. 
And I appreciate your courage in coming forth.
    It was referred to a number of times here about the beauty 
of the country of Colombia. And for those who have visited 
Colombia it would not take more than a few seconds to realize 
why people say that because of the spectacular nature of the 
country and its natural assets and, of course, when you meet 
its people.
    But that is not a substitute for serious inquiry into human 
rights. I can remember standing at the American embassy with 
the American ambassador at the height of violence in Chile and 
him telling me that this is a beautiful country, and that I 
really should go to Valparaiso and enjoy the beaches and see 
the people who use the beaches, and I should go shopping and 
enjoy the people who are shopping, and that my concerns were 
misplaced because it is such a beautiful country. My concerns 
weren't misplaced.
    It took almost 30 years, but we brought Mr. Pinochet to 
justice. And the world now knows the history of what was taking 
place while people were suggesting it is a beautiful country.
    I had the same treatment from then President Dabusan, that 
I should go walk and enjoy the rivers of Salvador because it is 
such a beautiful place. And we all know the history of violence 
by that government against its people.
    People will vote, and members of Congress, I mean, will 
vote, and people will consider pro or con the free trade 
agreement. This inquiry by this committee is independent of the 
consideration of that agreement. I hope what we do will be 
helpful to members of Congress should that agreement be put 
back forth in front of the Congress. That is a decision for the 
new president of the United States and for the Congress.
    But I laid out in my letter to President Uribe the purposes 
of this investigation in my September 12th letter of 2008 when 
there was going to be an opportunity for us to meet with one 
another. And I made it very clear.
    I said I would like to discuss with him at that time, but I 
have said this as we embarked on this inquiring using the 
committee resources that my goals and purposes were, one, an 
effective and sustainable and transparent Colombian system of 
justice to protect the rights of working people and to 
vindicate the lives of the victims of the anti-labor violence; 
two, further investigation and prosecution of the intellectual 
authors who planned the attacks and the killings of labor union 
leaders in Colombia; and three, additional reforms to bring 
Colombia labor laws up to the minimum core labor standards set 
by the International Labor Organization and cited by both the 
U.S. State Department and the U.S. Department of Labor.
    That is the intent of this inquiry. This inquiry will 
continue until those results are achieved. That is the purpose 
of this inquiry.
    I had the opportunity to travel and to meet with Judge 
Sanchez at that time when I was in Colombia and with the other 
judges, with the prosecutors and believed--and the Fiscalia's 
office--and believed that these assets should be strengthened 
and encouraged by this government. And this Congress spoke to 
that issue by redirecting some money from Plan Colombia to the 
Fiscalia's office to strengthen the prosecutions. In an 
explicable fashion, that money was not sent for a year.
    So in a quest to achieve a sustainable and transparent 
Colombian system of justice with respect to this issue, we lost 
almost a year's time in strengthening that office. That was 
tragedy. I don't know what the Bush administration was thinking 
when that money was not forwarded in a timely fashion. And 
hopefully we will get into that when we get back into the 
appropriations process in this Congress.
    But I want people to be very clear about the intent of this 
inquiry and the expected results of this inquiry and the 
sustainability of the ability of this committee to continue 
this. I have been involved in very, very long human rights 
inquiries in many parts of the world. And we expect to see this 
one through to a satisfactory conclusion with respect to the 
protection of human rights of workers and their families and 
others, in this case, in the country of Colombia.
    And again, I want to express my appreciation for the 
cooperation that we have received from the government of 
Colombia as we have tried to sort through this subject matter. 
So again, thank you so very much for your contribution to the 
effort of this committee. And I hope that we will be able to 
continue to call upon you as a resource for our future 
discussions.
    And with that, the members of Congress will have 14 days to 
submit additional materials for the hearing record. It may be 
that some members of Congress will submit follow-up questions 
that we will forward to you. And we would hope that you would 
be able to answer them in a timely fashion.
    And with that, the committee stands adjourned. Thank you.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, for holding this hearing on workers' 
rights and violence against union leaders in Colombia.
    As the Chairman said, over the past twenty years, Colombia has been 
the most dangerous place in the world to belong to a labor union. There 
have been more labor killings in Colombia than in all other nations of 
the world combined over the past few years, and according to a leading 
Colombian think-tank, the National Labor School, almost 2,700 trade 
union members have been killed in Colombia over the past two decades. I 
appreciate all of the witnesses here today lending us their time to 
examine this situation in Colombia. I hope that through this hearing, 
we can shed light on the atrocities that are ongoing in Colombia.
    Thank you again, Chairman Miller, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [Additional submissions by Mr. Miller follow:]

                                 AFL-CIO Executive Council,
                                  Washington, DC, February 26,2009.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S.House of Representatives, 
        Washington, DC.
    Dear Chairman Miller: Please find attached the AFL-CIO's latest 
fact sheet on violence, impunity and labor law in Colombia. We wish to 
submit this information to be included in the record of the hearing 
held by the House Committee on Education and Labor on February 12 
entitled, ``Examining Workers' Rights and Violence Against Labor Union 
Leaders in Colombia.''
                               attachment

   Colombia: Continued Violence, Impunity, Flawed Labor Laws and Non-
     Enforcement of the Law Eclipse the Colombian Government's Few 
                            Accomplishments

                          February 2009 Update

Violence Against Trade Unionists On The Rise
    The National Labor School (ENS) now reports that 49 trade unionists 
were murdered in Colombia in 2008, a 25% increase over the number of 
trade unionists murdered in 2007--39. Even the Colombian government's 
statistics show an increase in assassinations.\1\ Of note, sixteen 
trade union leaders were assassinated last year, for example, Guillermo 
Rivera Fuquene, President of the Union of Public Service Workers of 
Bogota (SINSERVPUB), Carlos Burbano, Vice-President of the Hospital 
Workers Union (ANTHOC), Leonidas Gomez Roso, officer of the National 
Bank Workers' Union (UNEB), and William Rubio Ortiz, officer of the 
Union of National Environmental System Workers (SINTRAMBIENTE). This 
too represents an increase over 2007, when 10 leaders were murdered.
    Because of the flawed demobilization process, thousands of 
``demobilized'' and never-demobilized paramilitaries are creating new 
and dangerous organizations. The OAS Mission to Support the Peace 
Process in Colombia (MAPP/OEA) has noted the resurgence of several new 
groups with thousands in their ranks. Many of the 157 individual and 
collective death threats against trade unionists in 2008 were issued by 
such groups, including Aguilas Negras Bloque Norte de Colombia, Nueva 
Generacion Aguilas Negras de Santander, Aguilas Negras Bloque Sena de 
Colombia, Comando Carlos Castano Vive, Campesinos Embejucaos de 
Colombia and Aguilas Negras Comando No Paheces.
    There is no question that the continued murders and death threats 
have a chilling effect on union activity. Today, workers continue to 
have good reason to fear for their lives when they exercise their 
fundamental labor rights--especially the crucial rights to organize, 
bargain collectively, and strike. They know that 2,694 union members 
have been murdered in Colombia since 1986, with 482 of those murdered 
during the Administration of President Alvaro Uribe.
    The Colombian government claims that union members are killed at no 
greater rate than the overall population. It is simply not meaningful 
to compare random crime statistics to targeted assassinations. Clearly, 
trade unionists who are engaged in industrial disputes, or who are 
active in human rights activities, are targeted precisely for their 
work. In Colombia, trade unionists continue to be assassinated 
precisely for exercising freedom of association and collective 
bargaining rights and other forms of trade union advocacy, and account 
for a preponderance of all labor leaders killed throughout the world.
Persistent Impunity
    The Fiscalia General reports that it has secured 171 sentences in 
131 cases related to violence against trade unionists.\2\ Further, the 
government has obtained sentences in 31 of the 185 priority cases, or 
16.75%. The recent increase in prosecutions, the vast majority of which 
were carried out in 2007 and 2008 (and following significant 
international pressure for results), is an improvement over past 
neglect by the current and previous administrations. However, behind 
these statistics are several troubling realities. First, nineteen of 
the sentences handed down were not for murder, but to a lesser charge, 
so do not address the impunity rate for homicides. In roughly 35% of 
the sentences, the person found responsible for the crime was tried in 
absentia or is otherwise not in custody and thus potentially still at 
large. And in the majority of cases, the person convicted of the crime 
is not the intellectual author, but rather the foot soldier that 
carried out the order to kill. For these reasons, the Uribe 
Administration still has a long way to go to end impunity in Colombia. 
Even if one reads the statistics in the light most favorable to the 
government, the rate of impunity still hovers around 96 percent.
    Of note, the Office of the Attorney General is not even attempting 
to investigate all outstanding unsolved murder cases, but rather only 
the subset of cases that have been previously presented to the ILO and 
new murder cases from 2006 onward. Thus, the Attorney General is 
charged with investigating about 1,302 cases, which accounts for less 
than half of all union murder cases since 1986.
    The government has claimed that the recent rulings show that in 
most cases, the crimes bear no relation to trade union activity. 
However, the information that the Attorney General used to provide 
regarding motives in cases of anti-union violence does not necessarily 
represent the determinations of the sentencing judges. In one report, 
the Attorney General claimed that the motive in 38 sentences was 
``alleged membership in subversion,'' implying that the perpetrator of 
the crime believed that the victim was a member of the guerrilla 
forces. However, in Colombia, legitimate human rights advocates, 
community leaders, and union members are accused of being ``guerillas'' 
simply for advocating on behalf of their constituency. Further, these 
statistics reflect the state of mind of the gunmen (who may have been 
told to kill someone on the false pretense that the target is a 
guerilla), not the people actually responsible for planning the crimes, 
and thus do not necessarily reflect the true criminal intent.
    For example, in the case of Luciano Enrique Romero, a former Nestle 
worker and member of Sinaltrainal, the Attorney General writes, ``If it 
is true that he was a unionist, it is also true that he was an 
informant of the 6th Front of the ELN, according to the testimonies 
gathered in the process, that he was very close to Comandante Tulio, 
and that he was known by the alias `PEPE.' '' This definitive statement 
is directly contradicted by the judge in the case. After viewing all of 
the evidence, Judge Jose Nirio Sanchez wrote that ``the supposed 
guerrilla military affiliation of the deceased was not proven, though 
his ideology of defending human and labor rights was frequently noted * 
* * It can be inferred that the deceased, Luciano Enrique Romero 
Molina, had no military status nor could he be characterized as a 
combatant.'' He goes on to say that the alias ``Pepe'' belonged to 
another person entirely and that the initial claims, which had been 
cited in the Attorney General's documentation, were unfounded.
    This is but one of the numerous examples where the statistics of 
the Attorney General and the sentences of the specialized judges 
diverged. Of note, the Attorney General, as of December 2008, is no 
longer reporting motives in its statistical updates.
Judiciary Politicized
    In 2007, the government named three special judges to preside over 
cases related to violence against trade unionists. However, the 
judiciary has removed one highly qualified judge, Judge Sanchez, for 
unexplained reasons. It was this judge who, in addition to 
contradicting the Attorney General in the Luciano Romero case, 
sentenced officers of the 18th Brigade of the Colombian Army for 
murdering three union leaders in the department of Arauca. The judge 
found that these officers had planted guns in the hands of the 
unionists to make it appear that the victims were members of the 
guerrilla organization, ELN. This decision put the judge directly at 
odds with President Uribe, who continues to accuse these and other 
unionists of being guerrillas.
    The six-month term of these judicial posts came under criticism as 
undermining the government's commitment to investigating and 
prosecuting the thousands of unsolved homicide cases. However, after 
intense international pressure, the government announced on March 28, 
2008, that it had approved the budget to create and fund three 
permanent specialized courts. However, a new decree from the judiciary, 
issued on July 11, 2008, merely assigns three judges to adjudicate 
these cases for one more year. Under the decree, the cases will be 
transferred to the new 10th and 11th benches of the special criminal 
circuit and the 56th bench of the criminal circuit of Bogota. The 
government once again failed to demonstrate long-term commitment to the 
process, favoring instead short-term extensions of judicial authority 
to review these important cases.
    Finally, significant questions remain as to whether these judges 
will be able to perform their important jobs without interference from 
the Uribe Administration. For example, President Uribe has attempted to 
intimidate the Colombian Supreme Court on numerous occasions by 
publicly attacking the lead justice handling the parapolitics 
investigation, which led to the threat of mass resignation by the other 
justices last year. In August 2008, in an effort to further undermine 
the Supreme Court, the Uribe Administration proposed a constitutional 
amendment that would remove all investigations into members of Congress 
from the jurisdiction of the Supreme Court and move them to a local 
court in Bogot . The amendment is a clear effort to put an end into the 
investigations of these congressmen, the vast majority of which belong 
to President Uribe's governing coalition.
Failed Demobilization Contributes to More Anti-Union Violence
    The flawed demobilization process has also contributed to thousands 
of ``demobilized'' and never-demobilized paramilitaries creating new 
and dangerous organizations. The regular reports of the OAS Mission to 
Support the Peace Process in Colombia (MAPP/OEA) have noted the 
resurgence of several new groups with thousands in their ranks. 
Although they have assumed distinct organizational frameworks, many of 
these groups are associated to powerful local or regional economic and 
political interests, and continue the violent legacy of the 
paramilitaries, including narcotics trafficking and targeted 
assassinations. Groups such as the ``Aguilas Negras'' (Black Eagles) 
are responsible for some of the death threats leveled against trade 
unionists in 2007-08. This year, the Aguilas Negras have issued death 
threats against members of SINALTRAINAL, the trade union representing 
food and beverage workers in Colombia, and members and leaders of the 
Union Sindical Obrera (USO), which represents workers in the oil 
industry. The Aguilas Negras also issued a gruesome warning to the 
organizations responsible for organizing the March 6 Peace March, some 
of which were in fact murdered shortly thereafter.\3\
            Labor Law Reform
    In response to years of intense domestic and international 
pressure, the government recently approved legislation that would 
reform the labor code with regard to the right to strike and on the 
administration of labor cooperatives. However, these new laws create 
new problems as they attempt to resolve old ones.
            Strikes
    Article 2 of Law 1210 of 2008 responds to one persistent ILO 
criticism by transferring the authority to determine the legality of a 
strike from the Ministry of Social Protection (MSP) to the Labor 
Chamber of the Superior District Court. The reason why this decision 
should lie with the courts, not the government, is that it is far less 
likely that a court will issue a decision based on political, rather 
than legal, grounds. However, the new law maintains a substantial role 
for the MSP. Under Article 4, the MSP can on its own initiative file a 
complaint with the court contesting the legality of the strike. Indeed, 
the MSP may file a complaint even if none of the parties, such as the 
employer, chooses to file a complaint. The fact that the MSP may 
unilaterally intervene in the judicial process may substantially limit 
the effectiveness of this legal reform.\4\
    The government also approved a new law on compulsory arbitration, 
which partially addresses the ILO's concerns. Before, the MSP had the 
authority to suspend a strike and refer a dispute to mandatory 
arbitration when the strike exceeded 60 days. The ILO criticized 
compulsory arbitration because, in most cases, compulsory arbitration 
robs unions of their leverage in a labor conflict, as the employer can 
simply decide to wait out the strike knowing that the government will 
eventually bring it to and end. Article 1 of the Law 1210 provides 
that, sixty days after the initiation of a strike, the employer and 
union should spend three days trying to resolve their differences by 
whatever mechanism they choose. If the parties are unable to reach an 
agreement during this time, the government or a party can petition for 
the intervention of the sub-commission of the Wage and Labor Policies 
Commission. This sub-commission will attempt to mediate the conflict 
for up to five days. If there still is no resolution, then both parties 
together may request the establishment of an arbitration tribunal from 
the MSP. If the parties opt for arbitration, the workers are obligated 
to return to work within 3 days.
    However, Article 1(2) now provides that the President may order the 
cessation of any strike that, ``with regard to its nature or magnitude, 
affects the health, security, public order or the economy, in whole or 
in part, of the population.'' This language very loosely tracks the 
ILO's ``essential service'' proviso, but differs in important ways. The 
ILO has held that strikes may be prohibited in essential services, with 
the term ``essential service'' meaning ``those services whose 
interruption would endanger the life, personal safety or health of the 
whole or part of the population.'' \5\ The ILO definition is different 
from Law 1210 in significant ways. First, a strike's impact on the 
``economy'' is not relevant under ILO jurisprudence. Indeed, if a 
strike could be prohibited merely because it affects the economy, 
almost no strike would ever be legal. An otherwise legal strike may 
also affect the ``public order,'' loosely defined. The term 
``security'' or ``public order'' may be legitimate only if those terms 
are read to be synonymous with ``personal safety.'' Second, the ILO 
requires that the interruption of a service ``endanger'' the life, 
personal safety or health of the population. The Colombian law provides 
that a strike need only ``affect'' health, security, public order or 
the economy, which is a far lower standard than ``endanger.''
    Finally, these two reforms leave many of the obstacles with regard 
to the right to strike in place. For example, there is still a total 
prohibition on the calling of strikes by federations and 
confederations. The law also bans strikes in several sectors of the 
economy that are not properly considered ``essential services'' under 
international law, such as transportations, civil service, and the oil 
industry. Further, the law allows for the dismissal of union members 
that have participated in a strike in an industry that is not properly 
deemed an essential service under international law.
            Cooperatives
    In theory, a labor cooperative is a voluntary association of 
workers, is democratically self-managed and equitably distributes the 
gains realized by the economic activities of its members. However, it 
is quite the opposite for Colombian workers. Today, several hundred 
thousand workers are routinely exploited in management-created and/or 
dominated associated labor cooperatives in Colombia. One of the central 
problems associated with these cooperatives is that those who work for 
them are classified as ``associates'' rather than ``employees'' and 
thus excluded from the coverage of the nation's labor laws. This means 
that workers in cooperatives cannot form a union, bargain collectively 
or strike. It also means that maximum hour and overtime pay provision 
are not applied to them.
    This situation has led to very low wages, few benefits, and, 
particularly in the rural sector, extreme forms of exploitation. This 
does not just affect low-skilled labor. Indeed, many health care 
professionals have been affected. As public hospitals and health 
centers were privatized in recent years, the successor private employer 
dismissed the workers and rehired them, non-union, through a 
cooperative or temporary service agency at much lower wages and for 
much longer hours.
    The government recently issued a new law on labor cooperatives, Law 
1233, which, with few exceptions, largely restates many of the 
provisions found in Decree 4588 of 2006. Importantly, the new law does 
absolutely nothing to bring workers employed in these cooperatives 
under the coverage of the nation's labor laws--maintaining a permanent 
underclass of workers without access to the basic labor guarantees that 
are to be enjoyed by all workers. As the ILO Committee on Freedom of 
Association recently observed, ``workers associated in cooperatives 
should have the right to establish and join organizations of their own 
choosing.'' \6\
    The new decree does require labor cooperatives to make 
contributions to three government benefits programs (National 
Apprenticeship Service--SENA, Colombian Institute for Family 
Wellbeing--ICBF, and the Family Equalization Fund) as well as the 
social security system, which covers health care and retirement. The 
decree also requires the labor cooperative to pay the monthly minimum 
wage for the class of work performed. In 2008, the monthly minimum wage 
in Colombia is 461,500 pesos, or roughly $265. If enforced, this 
provision does establish a floor on wages, albeit low, that did not 
previously exist. However, as the U.S. State Department has observed, 
``The national minimum wage did not provide sufficient income to 
purchase the basic market basket of goods for a family of four.'' \7\ 
According to DANE, the cost of the basic basket of goods in 2008 is 
955,990 pesos, roughly double the minimum wage.
    The decree does state that labor cooperatives are prohibited from 
``intermediation,'' meaning the hiring out of a cooperative associate 
to a third party like a temp worker. If this provision is violated, the 
decree provides that the third party and the cooperative are jointly 
responsible for any wages and benefits owed to the worker. This 
prohibition is nothing new and is essentially a restatement of a 
largely un-enforced provision of Decree 4588 of 2006. The new law also 
does not prohibit third-party contracting altogether. Like Decree 4588, 
the law allows for cooperatives to engage in third-party contracting to 
produce goods and services, so long as the purpose is to produce or 
perform a specific object or task.
    It is almost certain that employers will continue to use these 
cooperatives as a means to evade the formation of unions, collective 
bargaining, and other such responsibilities they would normally face if 
the workers employed in cooperatives were simply treated as workers. 
Indeed, one of the largest labor conflicts with regard to cooperative 
workers occurred after this new law was issued.
    Roughly 20,000 people work in Colombia's lucrative sugar industry--
planting, harvesting and processing sugarcane. Most of these workers 
have been hired through associated labor cooperatives. In the sugar 
industry, workers often perform this backbreaking work in excess of 
seventy hours a week and, for this, do not even receive the minimum 
wage. Further, without adequate protective equipment, or no equipment 
in many cases, workers sustain serious occupational injuries, some of 
which are disabling. On August 25, 2008, thousands of sugarcane workers 
held an assembly in Candelaria, Valle, where they then authorized a 
``strike'' over the failure of the owners of the sugar industry to 
negotiate with the workers over a list of basic demands submitted on 
July 14, 2008. The strike began on September 15, 2008, as the employers 
had completely refused to negotiate.
    In response, the sugar mills were largely militarized and several 
workers had been threatened with death or have received threatening 
calls since the strike began. Other workers have been fired simply for 
holding meetings with fellow workers. Rather than trying to mediate the 
conflict, Minister of Labor, Diego Palacio, has denounced the strike 
and accused the strikers of being manipulated by forces ``outside of 
the labor movement''--a very thinly veiled reference to the guerillas.
    Due to intense international pressure, the sugar mill owners 
finally capitulated and accepted some of the workers demands. The union 
won an average 15% wage increase, a limitation on the working day of 8 
hours plus a maximum of two hours overtime (replacing the 12-14 hours 
previously worked daily), employer contributions to sick pay, and 
employer commitments to housing, education and social security for 
workers and their families. Stricter controls are to be placed on the 
weighing of harvested cane, a procedure through which workers have in 
the past been routinely robbed. However, the union was not able to win 
direct employment contracts to replace the system of cooperatives that 
has allowed the mill owners to evade responsibility for collective 
bargaining and health and retirement benefits.
    Finally, these reforms in no way address all of the concerns raised 
by the ILO. First, the application of the labor law is limited to less 
than three million people, of a working population of nearly nineteen 
million. As most workers do not have a direct contract of employment, 
they are deemed outside the scope of the law. Colombian labor law also 
continues to present serious obstacles to the full exercise of the 
right to freely associate, to bargain collectively and to strike.\8\ 
The refusal to register new unions, described below, was also a serious 
issue. These factors explain in part why only 4 out of 100 workers are 
in unions today, and why far fewer are covered by a collective 
barraging agreement.
            Denial of Union Registration
    The ILO has provided that a government may establish registration 
requirements that are solely a mere formality. If conditions for 
granting registration were tantamount to obtaining previous 
authorization from the authorities for the establishment of a union, 
this would constitute an infringement of ILO Convention 87.\9\ In 
Colombia, the government has in fact applied the regulations to 
arbitrarily deny unions their registration. According to ENS, 253 new 
union organizations were denied registration by the Ministry of the 
Social Protection between 2002 and 2007. It is important to note that 
the denial of union registration skyrocketed under the current 
administration. In 2000-2002, only four union registrations had been 
denied. In 2003 alone, the first full year of the Uribe Administration, 
the number soared to 70.
    The ILO has taken note. In June 2008, the Committee on the 
Application of Standards ``called upon [Colombia] to ensure that all 
workers, including those in the public service, may form and join the 
organization of their own choosing, without previous authorization, in 
accordance with the Convention. In this regard, the Committee called 
upon the Government not to use discretionary authority to deny trade 
union registration.'' \10\
    Recently, the Colombian Supreme Court issued a series of rulings in 
late-2008 which divested the Ministry of Social Protection of the 
ability to deny registration to new unions, changes in union statutes, 
or new boards of directors. However, new regulations putting into 
effect this ruling have yet to be issued. And, it remains to be seen 
what will be done in all of those cases over the last several years 
where workers were illegally denied the right to form a union.
            The ILO ``Blacklist''
    The GOC has repeatedly asserted that the ILO has given it a clean, 
or at least cleaner, bill of health, because Colombia was not included 
on a non-existent ILO ``blacklist.'' In fact, Colombia continues to be 
subject to the scrutiny of the ILO system because its violations of 
Convention 87 and 98 are so egregious. Indeed, Colombia continues to be 
under the review of the ILO Committee on Freedom of Association, the 
ILO Committee of Experts, and, the ILO Conference Committee on the 
Application of International Labor Standards.
    There is simply no ILO ``blacklist.'' Governments are invited to 
appear before the Committee on Standards to address the concerns raised 
in the annual report of the Committee of Experts, based on an agreed-to 
list between the Employers and Workers Groups. Although the Employers 
Group unjustifiably vetoed the Workers Group demand to include Colombia 
on the list of governments for review during the June 2008 session, 
Colombia agreed to appear before the Committee. During that session, 
the Committee on Standards found that the sharp increase in trade union 
murders in 2008 was particularly disturbing and signified a major 
problem with respect to ending impunity. Moreover, the Committee 
unequivocally concluded that the proposed changes in the labor law were 
inadequate in reversing the effective violations of freedom of 
association and collective bargaining rights due to the creation of 
cooperatives, the use of temporary employees, and other legal ruses.
    The GOC's assertion that it has been removed from an ILO blacklist 
due to its voluntary agreement to appear before the Committee on the 
Application of International Labor Standards at the ILO conference in 
Geneva in June of 2008 is a distortion of fact and of ILO reality.
            Para-Politics Scandal Widens, Calling into Question 
                    Legitimacy of Colombian Congress
    Today, over 60 members of Congress, roughly 20%, have come under 
criminal investigation for collaborating with paramilitaries. More than 
30 of them are already under arrest. Nearly all of these individuals 
are members of President Uribe's inner circle. This circle includes his 
cousin and ally, Senator Mario Uribe, who recently attempted to evade 
arrest by unsuccessfully seeking refuge in the Embassy of Costa Rica in 
Bogota. President Uribe has attempted to take credit for the 
housecleaning, and has invoked the recent arrests as an example of his 
administration's adherence to the rule of law. However, the 
investigations would most likely not have happened but for the efforts 
of the independent Supreme Court. Indeed, President Uribe's proposal to 
let all of the implicated politicians avoid prison contradicts this 
assertion. Most recently, President Uribe blocked a bill that would bar 
political parties linked to paramilitaries from holding onto the seats 
of those members who are convicted of paramilitary collaboration. If 
the bill were implemented, President Uribe would lose his majority in 
Congress.
    Without questions, the government's direct ties with the 
paramilitaries preclude it from being able to effectively end impunity 
from trade union violence and to pass the necessary reforms in Congress 
to assure compliance with core labor standards.
                                endnotes
    \1\ The Fiscalia General de la Nacion (Office of the Attorney 
General of Colombia), registered 42 murdered unionists in 41 cases in 
2008, up from 27 murdered trade unionists in 26 cases. This is a 50% 
increase according to the government.
    \2\ As stated in the report of the Fiscalia General dated January 
20, 2009.
    \3\ The threat, which bore the image of a human skull with black 
wings, warned: ``Death to the leaders of the March for Peace and 
guerillas and supporters who disguise themselves as displaced persons 
but are guerillas and for this we declare them military objectives of 
the Black Eagles and also such NGOS, associations and foundations * * * 
You used the march of March 6 this year to diminish us further and to 
put the people against us, we will start to kill you one by one, we are 
going to be implacable. We will not leave any loose ends.''
    \4\ In the U.S., for example, an employer may file a charge with 
the NLRB to seek a determination as to whether the strike constitutes 
an unfair labor practice. In some cases, an employer may also seek an 
injunction with a court. However, the government has no independent 
right to file a complaint concerning the legality of a strike.
    \5\ ILO Committee on Freedom of Association (CFA), Digest of 
Decisions 2006 para. 576.
    \6\ CFA Digest of Decisions 2006 para. 262.
    \7\ U.S. State Department, Human Rights Country Practice Report 
(Colombia), March 11, 2008.
    \8\ For a list of those concerns, see pp. 12-15 of Workers' Rights, 
Violence and Impunity in Colombia, available online at www.aflcio.org/
issues/jobseconomy/globaleconomy/upload/colombia--briefing.pdf.
    \9\ See, e.g., Digest para. 294.
    \10\ See also, ILO CEACR, Individual Observation Concerning Freedom 
of Association and Protection of the Right to Organize Convention No. 
87, Colombia (2008).
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                  
                                ------                                

                                             U.S. Congress,
                                Washington, DC, September 12, 2008.
President Alvaro Uribe Velez,
Presidency of the Republic of Colombia, Bogota, Colombia.
    Dear President Uribe: I was very pleased to learn that you will 
travel to Washington, D.C. next week to meet with Congressional 
leaders, and I look forward to discussing our mutual concern over the 
historical and ongoing violence against Colombians who are labor 
leaders, labor organizers, or simply members of labor unions. As you 
know, I traveled to your beautiful country earlier this year and met 
with your Vice President and Attorney General, as well as various 
leaders from Colombian labor unions, human rights organizations, and 
the specialized labor judges that handle the significant backlog of 
labor-homicide cases. I am sorry that your travel schedule and mine 
prevented us from meeting last January during my stay in Bogota, but I 
look forward to meeting with you and welcoming you to the United 
States.
    Since I visited your country, I have written two letters to the 
Colombian government and sent my Committee staff on a return trip to 
Colombia to further investigate various labor issues, including the 
still-unexplained decision to remove Judge Jose Nirio Sanchez from his 
position as a specialized labor judge. I agree with the assessment of 
many Colombian observers--including your own Vice President Francisco 
Santos--that Sanchez was an excellent judge who was diligently working 
on Colombia's enormous backlog of labor-homicide cases. Nevertheless, 
in January 2008, the Consejo Superior de la Judicatura decided by a 
contentious split vote of 12 to 11 to remove Judge Sanchez from his 
position in the middle of open criminal cases pending before him. 
Unfortunately, I do not think we will ever know whether Sanchez was 
removed in retaliation for his politically-sensitive legal rulings that 
convicted high-profile defendants such as the violent right-wing 
paramilitary leader Salvatore Mancuso, several soldiers from the 
Colombian Army, and implicated the multinational Nestle Corporation in 
anti-labor killings. Because we may never know why Judge Sanchez was 
removed from his position on the bench, I believe it is now time to 
look forward. Our two ally nations should work together to help 
Colombia improve its labor laws, decrease the ongoing violence, and 
finally put an end to the impunity enjoyed by those who have 
perpetrated thousands of anti-labor killings.
    These challenges have taken on heightened significance this year as 
the violence in Colombia has escalated. Even according to the 
statistics kept by the Government of Colombia, 2008 has already been a 
more violent year than all of 2007 in terms of labor-homicides. During 
only the first eight months of this year, the assassins have made more 
threats, caused more bloodshed, and taken more lives of labor leaders 
than they did in all twelve months of last year. Given this troubling 
context, I would like to discuss with you the urgent need for:
    1) an effective, sustainable, and transparent Colombian system of 
justice to protect the rights of working people and vindicate the lives 
of the victims of anti-labor violence;
    2) further investigation and prosecution of the intellectual 
authors who planned the attacks and killings of labor union leaders in 
Colombia; and
    3) additional reforms to bring Colombian labor laws up to the 
minimum core labor standards set by the International Labor 
Organization (ILO) and cited by both the U.S. State Department and U.S. 
Department of Labor.
    Indeed, the Democratic Majority in our Congress already recognized 
these exact challenges in Colombia by appropriating millions of dollars 
last year to help Colombia further develop the rule of law, prosecute 
human rights cases, and improve labor conditions. My colleagues in the 
Congress and I are quite proud that last year we improved on Plan 
Colombia by appropriating more funds to help Colombia address its very 
serious problems related to the issues of the ongoing anti-labor 
violence and weak labor standards. As you know, the ILO has issued 
repeated proclamations--as recently as June 2008--expressing serious 
concern over various deficiencies in Colombian labor law.
    Thus, many members of our Congress are currently very disappointed 
that the Bush Administration has not yet even transferred to the 
Colombian Attorney General's Office the funds that we appropriated last 
year. If the Bush Administration had not created these inexplicable 
delays, the Government of Colombia could have already hired even more 
investigators and prosecutors, and Colombia might by now be several 
steps closer to creating an effective and sustainable system of justice 
to address the grave problem of anti-labor violence. However, I am 
hopeful that the next Administration will work more closely with the 
Government of Colombia to bring about improvements in Colombian labor 
laws and human rights, increased trade, and an even stronger 
relationship between our two ally nations.
    In the meantime, I believe the United States Congress must continue 
to examine these issues and search for solutions. Indeed, one advantage 
stemming from our Congress' decision to postpone the vote regarding the 
proposed Colombia Free Trade Agreement is that it has given my 
colleagues and me additional time needed to assess whether or not 
Colombia has in fact created an effective and sustainable system of 
justice to combat anti-labor violence. In my capacity as Chairman of 
the Committee on Education and Labor, my staff and I have taken 
advantage of that time by meeting regularly with Colombian human rights 
advocates and many Colombian government officials. I hope that this 
ongoing fact-finding work will allow Congress to provide helpful 
recommendations to the next Administration in the United States over 
how we can further strengthen our nation's relationship with Colombia 
in such a way that promotes increased trade and higher labor standards. 
As a first step in this process, please consider the following concerns 
about labor rights in Colombia.
I. The Need for an Effective, Sustainable, and Transparent System of 
        Justice That Will Protect the Rights of Working People and 
        Vindicate the Lives of Slain Labor Union Leaders in Colombia
    According to the Escuela Nacional Sindical (ENS), almost 2,700 
Colombian union leaders or union members have been murdered since 1986. 
The overwhelming majority of these killings remain uninvestigated and 
un-prosecuted by the Colombian Attorney General's Office. Moreover, at 
Colombia's current and disappointing pace of investigations and 
indictments, it would take the Attorney General's Office several 
decades to get through its entire backlog.
    In the past months, various Colombian human rights attorneys have 
conveyed to me and my Committee staff the serious problems that still 
hinder Colombia's judicial system for addressing anti-labor killings. I 
have not created an exhaustive list, but I do respectfully ask that you 
please consider addressing the following problems so that Colombia's 
judicial system becomes more effective, sustainable, and transparent.
    A) The temporary nature of the specialized labor judges.
    Colombian Vice President Santos wrote to me on March 28, 2008, 
reporting that the Executive Branch had approved the budget for the 
Judicial Branch to create three permanent specialized courts to 
adjudicate the criminal cases stemming from anti-union homicides. 
However, in June and July 2008, the Colombian Judicial Branch approved 
two new decrees that still do not actually accomplish this goal. The 
first decree created three new permanent judicial positions, but 
without any mention of what type of cases those judges will hear. See 
Agreement No. 4924 (dated June 25, 2008). The second decree assigned 
those three permanent judges to exclusively hear labor-homicide cases, 
but only for a one-year period. See Agreement No. 4959 (dated July 11, 
2008). Thus, when read together, these two decrees clearly demonstrate 
that the three specialized judges' assignments to hear labor-homicide 
cases will expire yet again in July 2009.
    The Colombian Judicial Branch has already once allowed the 
expiration of the mandate of these three judges to cause disruptions in 
ongoing legal proceedings. As you will remember, these three judicial 
positions were allowed to expire for the first time on December 31, 
2007. By the time I met with the three judges in Bogota on January 12, 
2008, they had been out of work for almost two weeks, had been forced 
to cancel January hearings for pending criminal trials, and they did 
not even know whether they would be allowed to ever return to work on 
the labor-homicide cases. Two of the three judges were eventually 
reinstated, and I understand that many of the January hearings were 
eventually rescheduled for the following month. Nevertheless, the 
expiration of these three judicial positions caused unnecessary 
disruption and delay, and I imagine we can both agree that the repeat 
of such a scenario should be avoided if at all possible.
    Thus, I am reassured that some members of the Uribe Administration 
have recently expressed concern about the still-temporary nature of the 
position of the specialized labor judges. On August 23, 2008, the 
Colombian Ministry of Social Protection wrote informally to the 
Colombian Judicial Branch to inquire whether further changes would be 
made so that the three judicial slots would be guaranteed for labor-
homicide cases not just through July 2009, but rather until the entire 
backlog of such cases has been fully adjudicated. (My Committee staff 
has a copy of the written inquiry on file). I ask that you please 
inform me of any response that the Ministry of Social Protection 
receives regarding its inquiry to the Judicial Branch. In addition, I 
would like to discuss with you whether the Government of Colombia will 
pledge publicly to continue the mandate for these three judicial slots 
to handle labor-homicide cases beyond July 2009 and until the entire 
backlog of labor-homicide cases has been completed.
    B) The fact that the written judicial opinions in labor-homicide 
cases are not easily accessible by the relatives of victims, human 
rights attorneys, or the public.
    When my Committee staff traveled to Colombia last month, we 
requested a copy of each of the 123 written judicial opinions 
corresponding to the 100 labor-homicide cases that have been 
adjudicated thus far. (Some murder cases result in more than one 
written sentence because the case may have multiple defendants). 
However, the Attorney General's Office told my Committee staff that it 
would be exceedingly difficult to provide a copy of all 123 of the 
written opinions because they are not stored by the Colombian 
government in one central location, but rather scattered throughout 
many government buildings in several different cities. The Attorney 
General's Office also explained that some of the 123 sentences may have 
gone missing due to bureaucratic complexities, and that in general, the 
Colombian government does not have sufficient resources to find and 
keep a central inventory of the written judicial opinions.
    My Committee staff also made the same request to the head 
administrator of the Consejo Superior de la Judicatura, who seemed 
slightly more optimistic that it might be possible to eventually 
provide a copy of each of the 123 written opinions. However, we are 
still waiting for the Judicial Branch to respond definitively.
    I imagine that you and I both agree on the importance of allowing 
the sons and daughters or spouses of slain labor leaders to easily 
access and read the judicial opinion that either convicts or acquits 
the person accused of killing their deceased family member. For those 
Colombians who have lost a loved-one to such senseless violence, the 
judicial record of the case against the killer is one small part of 
achieving justice. In addition, these written judicial opinions serve 
as important learning tools for human rights attorneys who plan on 
litigating similar labor rights cases in the future. While the 
decisions do not create binding legal precedent because they are issued 
by trial court judges rather than the Colombian Supreme Court, those 
written opinions nevertheless create a written record of an important 
and concerning part of Colombia's history. For all of those reasons, 
Colombian human rights attorneys have asked my help in persuading the 
Government of Colombia to make public and easily accessible all of the 
written judicial opinions, including all new decisions that are issued 
going forward.
    Therefore, I would like to discuss with you whether the U.S. 
Congress should consider appropriating funds to help Colombia 
centralize and make public these judicial opinions as part of the next 
set of appropriations for Plan Colombia. As you know, under the 
leadership of Chairman David Obey and Chairwoman Nita Lowey of the 
Committee on Appropriations, last year the Democratic Majority improved 
on Plan Colombia by allocating greater amounts of funds dedicated to 
Colombia's efforts to develop the rule of law and improve labor 
conditions. It strikes me that any efforts to make public the judicial 
opinions in Colombian labor-homicide cases falls squarely within that 
goal of promoting the rule of law. In fact, the federal trial courts in 
the United States often publish their written judicial opinions on the 
internet within hours of the judge's final decision. Thus, I am 
interested in helping Colombia create such an internet-based system 
that will allow the Colombian public--and the families of victims in 
particular--to acquire easier access to the written judicial opinions 
in labor-homicide cases.
    C) The secrecy by the Attorney General's Office as to the contents 
of its full backlog list of labor-homicide cases yet to be investigated 
and adjudicated.
    According to the Colombian Attorney General's Office, approximately 
1,300 union leaders or union members have been murdered or faced 
serious acts of violence in Colombia since the mid-1980's. However, 
this figure is only half the number of the approximately 2,700 murders 
for the same time period as chronicled by the Escuela Nacional Sindical 
(ENS). The ENS is Colombia's leading non-profit labor think-tank, and 
it has been cited by the U.S. State Department in its human rights 
reports related to labor violence. I am concerned that we cannot begin 
to compare and reconcile the names on the two lists because the 
Colombian Attorney General's Office refuses to release its list of 
names. Indeed, it will be impossible to know the true scope of the 
killings, and thus the scope of the work that lies ahead, until this is 
done. Recently, the leading Colombian labor union federations submitted 
a petition to the ILO complaining over the fact that the Colombian 
government refuses to share this information with them. To the 
contrary, the ENS has proven willing to subject itself to transparency 
and public scrutiny, having published and shared its complete list of 
approximately 2,700 union killings with the Colombian government, labor 
unions, human rights attorneys, and even my Committee staff. I 
therefore respectfully encourage the Office of the Attorney General to 
make this information available as soon as practicable.
    D) The ongoing inaccuracies in the Attorney General's published 
statistics about the defendants' motives in completed judicial 
decisions in labor-homicide cases.
    Colombian human rights advocates have expressed their concern that 
the Attorney General's Office may be publishing inaccurate summaries 
about the judicial determinations of the motives of the killers in 
labor-homicide cases. These summaries are created by the Attorney 
General's Office once per month, and they tally how many fully-
adjudicated cases to date were found by the judge to have had various 
different possible motives. For example, a judge may find that the 
assassin's motive for killing the union leader was the deceased's pro-
union activity. In the alternative, the judge may find that the motive 
of the assassin who murdered the union leader was not the deceased's 
union-activity, but rather any number of other motives such as 
``personal issues'' or ``political activity.'' In order to create these 
documents, the prosecutors in the Attorney General's Office read each 
judicial opinion, decide what the prosecutors believe was the ruling of 
the judge, and then add up the number of cases that fall into each 
category. For example, the Attorney General's summary for July 2008 
states that 21 murders had ``union activity'' as the motive, as 
compared to 8 cases with ``personal problems'' and 1 case with 
``political activity'' as the motive.
    The problem with these summaries, however, is that the statistics 
seem to fluctuate dramatically and illogically from month to month. For 
example, when I traveled to Colombia in early January 2008, the 
Attorney General's Office gave me the summary for December 2007, which 
claimed that as of that time the judges had found the ``personal 
problems'' motive in 10 total cases since the prosecutions began. 
However, as I just noted above, the July 2008 summary claims that there 
now are only 8 total cases in which ``personal problems'' was the 
motive. It is simply illogical that as the total number of judicial 
decisions has increased from last December to this July, that somehow 
the number of those cases in which the motive was found by a judge to 
be ``personal problems'' has somehow decreased. This irregularity leads 
me to believe that either the prior statistics were inaccurate, or in 
the alternative, the current statistics are the problem.
    Unfortunately, because the Attorney General's Office does not place 
footnotes in these summary documents in order to explain which specific 
cases it considers to fall into each category, the public cannot verify 
the claims made in those summaries. I hope that in the future the 
Attorney General's Office will exhibit more precision when creating the 
summaries it distributes to members of the U.S. Congress and the 
public.
    Finally, I want to note how much personal anguish the 
misclassification of the motive in a labor-homicide case can cause to 
the families of the victims of that violence. Please consider the 
example of Colombian labor leader Jorge Dario Hoyos Franco, who was 
tragically gunned-down by two assassins in the year 2001. When the 
Attorney General's Office began to investigate the case, the 
prosecutors' original theory was that the defendant--a Colombian Police 
Officer named Monroy--had wanted to kill Hoyos Franco as a ``crime of 
passion'' due to an alleged adulterous affair in which Hoyos was 
supposedly engaged. However, after this case went to trial in 2007, 
Judge Jose Nirio Sanchez rejected this original theory, finding that it 
had ``fallen by its own weight'' because the woman in question 
testified under oath that she did not even know Hoyos Franco. (Criminal 
Sentence against defendant Carlos Alberto Monroy, dated Aug. 14, 2007.) 
Therefore, Judge Sanchez ruled that the evidence in the case: 
demonstrates that the motive of the HOYOS FRANCO murder was not about a 
love affair, as was the focus of the investigation in the beginning, 
but rather [as demonstrated] by the statement made by the defendant 
[Monroy] to the previously mentioned illegal armed organization [known 
as the AUC], which during that time * * * drew up a list of union, 
civic, popular and communal leaders that in their estimation were 
military targets * * * [and because the] activities [in favor of labor 
unions by] the murder victim [Hoyos Franco] had [been] undertaken for 
several years and for that precise reason he was killed.
    (Id.) This binding legal decision by a Colombian judge should have 
definitively settled the matter of the motive behind the killing of 
Jorge Dario Hoyos Franco. However, more than three months after the 
judicial opinion, the Attorney General's Office released a November 
2007 document that still listed the Hoyos Franco case as one with the 
``personal problems'' motive. (This document is on file with my 
Committee staff.) I am told that the young daughters and widow of the 
deceased union leader were pained that their own government continued 
to publicize the lie that their father and husband had allegedly 
committed an adulterous affair even after that theory had been 
discredited in a Colombian court of law. I understand that the family 
repeatedly petitioned the Attorney General's Office to revise the 
document and accurately classify the case, but that change was 
apparently not made until only recently.
    E) The fact that the Attorney General's Office has not publicly 
committed to a work-plan for completing the entire backlog of the 
thousands of labor-homicide cases.
    The Colombian Office of the Attorney General has made some modest 
progress in the last year in securing convictions in labor-homicide 
cases, especially compared to the situation only a few years ago when 
there were hundreds of labor-homicides per year and virtually no 
convictions whatsoever. As I understand it, there are now convictions 
in 100 labor-murder cases, and a corresponding 123 judicial sentences 
because some of those 100 cases have more than one defendant. Thus, if 
one takes the Attorney General's statistics of approximately 1,300 
total cases, then Colombia has secured convictions in only 7.6% of 
cases. If one takes the ENS statistics of approximately 2,700 murders, 
then Colombia has secured convictions in only 3.7 % of cases. In either 
event, the modest progress of the past year still leaves a highly 
troubling level of impunity for the perpetrators of these killings. 
Well over 90% of the murderers have escaped justice.
    The Bush Administration has done far too little to help Colombia 
improve its labor laws and combat anti-labor violence. In fact, it was 
not until the leadership of the Democratic Majority that last year our 
Congress significantly increased the funds in Plan Colombia that are 
dedicated specifically to fostering the rule of law and prosecuting 
human rights cases. Almost nine months have passed, and disappointingly 
the Bush Administration has still not actually transferred those funds 
to the Colombian Attorney General's Office. I cannot think of a 
plausible reason for this delay, but I do wonder whether the Colombian 
Attorney General's Office might have investigated and brought more 
killers to justice if the Bush Administration had only exercised 
greater diligence and concern for these important labor issues. I hope 
that the next Administration will work much more closely with the 
Government of Colombia to help implement a plan that will eventually 
investigate, prosecute, and adjudicate every last remaining labor-
homicide case. The family members of the slain union leaders deserve 
nothing less.
    As I noted above, at Colombia's current pace of investigations and 
indictments, it would take the Attorney General's Office several 
decades to get through its backlog. Therefore, I urge the Government of 
Colombia--and the Attorney General's Office in particular--to publicly 
commit to a plan that will dramatically improve the pace of 
investigations and indictments, and thus assure members of the U.S. 
Congress that Colombia will achieve the goal of prosecuting every 
murder on the entire backlog list of labor-homicide cases.
II. The Need for Further Investigation and Prosecution of the 
        Intellectual Authors Who Planned the Attacks and Killings of 
        Labor Union Leaders in Colombia
    Of the modest number of convictions that the Attorney General's 
Office has begun to win in the past few years, the vast majority of the 
cases have been against the ``material authors'' of the crimes (i.e. 
the man who pulled the trigger of the gun, or the man who stabbed the 
union leader to death with a machete). Such convictions are, of course, 
extremely important. I commend the Attorney General's Office for 
creating a special unit for prosecuting these labor cases, and I am 
hopeful that these specialized prosecutors will eventually bring 
indictments in the large number of murder cases that remain 
uninvestigated.
    However, impunity will persist unless the Government of Colombia 
does more to investigate and prosecute the ``intellectual authors'' who 
ordered, planned, or paid for the low-level assassin to perpetrate the 
killing. For example, serious allegations have been leveled against a 
cabinet-level official in the Uribe Administration, high-level military 
officers in the Colombian Army, top right-wing paramilitary leaders, 
and even some multinational corporations. In some of these cases, the 
Colombian specialized labor judges have issued Court Orders requiring 
the Attorney General's Office to investigate such alleged intellectual 
authors. But to this date, very few such investigations and 
prosecutions have gone forward. Therefore, I want to mention three 
emblematic cases in which the Colombian government's efforts to 
investigate, prosecute, or imprison the alleged intellectual author of 
the anti-union homicides have thus far failed.
    A) Jorge Noguera of the Uribe Administration.
    As you know, Colombia's former intelligence chief--Jorge Noguera--
was arrested in February 2007 and indicted for helping violent right-
wing paramilitaries to infiltrate the highest levels of the Colombian 
government. Mr. Noguera--who reported directly to the President as the 
director of the DAS (``Departamento Administrativo de Seguridad'')--
allegedly facilitated Colombian government cooperation with several 
paramilitary groups, particularly the ``Northern Block'' led by the 
violent narco-trafficker ``Jorge 40.'' Sadly, Noguera is not the only 
high-level Colombian government official caught up in this ``Para-
Politics Scandal.'' Indeed, the Colombian Supreme Court has recently 
indicted almost 30 members of the Colombian Congress for colluding with 
the right-wing ``AUC'' paramilitary organization, which the U.S. State 
Department has officially classified as a Foreign Terrorist 
Organization. The Colombian Supreme Court has also launched formal 
investigations into another 30 members of the Colombian Congress. In 
response, the Uribe Administration has recently proposed stripping the 
Supreme Court of its long-standing jurisdiction on this matter, which 
would quash any further investigations.
    I raise this complicated and troubling issue because the 
allegations against Noguera are directly related to the labor issues 
that constitute the focus of this letter. Specifically, Noguera is 
accused of compiling lists of the union leaders under government 
protection and then giving those lists to the paramilitaries so the 
union leaders could be targeted for death. Several of those very union 
leaders were reportedly threatened or killed. If the Colombian Attorney 
General eventually proves this allegation in court, the Noguera case 
will constitute perhaps the most dramatic of several examples of direct 
Colombian government participation in anti-labor violence and killings.
    Unfortunately, more than eighteen months have passed since the 
original indictment was filed in February 2007, and the case against 
Noguera has completely stalled due to procedural mistakes made by the 
Attorney General's Office. The Colombian Supreme Court has found that 
the evidence and allegations against Noguera are legally valid, but the 
Court has rejected the case for procedural reasons on two consecutive 
occasions. As a result of these ongoing prosecutorial mistakes, Noguera 
was released from prison in June 2008 and he currently remains at 
large. I understand that the Attorney General is now preparing to re-
file his case.
    Several Colombian human rights attorneys have expressed their 
concern to me and my Committee staff that the continual procedural 
defects and corresponding delays are not typical. Thus, these Colombian 
observers worry that the politically-connected Noguera will ultimately 
go free without even facing a trial. Therefore, I would like to discuss 
this case with you when we meet. In particular, I would like to hear 
your thoughts about whether your Attorney General's Office will ever 
bring the Noguera case to trial.
    B) The murder of labor leader Luciano Enrique Romero Molina, and 
the Colombian Court Order to investigate the Nestle Corporation.
    In late 2007, Judge Jose Nirio Sanchez issued a 110-page legal 
ruling in a case stemming from the brutal murder of a Colombian labor 
leader named Luciano Enrique Romero Molina. As Judge Sanchez explained 
in his decision, in late 2005--months after passage of the ``Justice 
and Peace'' Law--Molina was scheduled to testify before an 
international human rights tribunal in Switzerland regarding the labor 
conditions at a Colombian factory of the multinational Nestle 
Corporation. However, just weeks before his scheduled testimony, Molina 
was abducted and tortured by paramilitaries. When Molina refused to 
give them information about his complaints against the Nestle 
Corporation, the paramilitaries stabbed him to death with more than 
fifty strikes of a machete.
    Judge Sanchez convicted the individual defendant who was directly 
responsible for the killing, but significantly, he also ordered an 
investigation into whether the Nestle Corporation was in any way 
responsible for ordering the killing. While courts outside of 
Colombia----such as the Inter-American Court for Justice and the 
federal courts in the United Status--have dealt with cases in which 
multinational corporations have been accused of playing a role in anti-
union violence in Colombia, Judge Sanchez's ruling appears to be 
groundbreaking for the Colombian courts. According to human rights 
observers in Colombia, this was the first judicial decision since the 
backlog process began in which one of the three Colombian specialized 
labor judges called for an investigation of the possible role a 
multinational corporation in the assassination of a Colombian labor 
leader.
    Last month, my Committee staff inquired about the status of this 
investigation while visiting the Attorney General's Office in Bogota. 
We were told that the prosecutor and investigator assigned to the 
Nestle case had not done anything whatsoever to advance the 
investigation because they did not feel there was sufficient evidence 
to warrant any further efforts. According to their own admission, the 
prosecutors in the Attorney General's Office have apparently decided 
not even to interview or take the depositions of the management of the 
Nestle workplace or of any of the deceased's former coworkers. I would 
like to discuss whether you believe the Attorney General's Office 
should abide by the Court Order of the now-displaced Judge Jose Nirio 
Sanchez and conduct an actual investigation into this serious matter.
    C) The Colombian Police Officer who planned the assassination of 
labor leader Jorge Dario Hoyos Franco has been convicted in absentia, 
and therefore has not served a single day of his 40-year sentence.
    As discussed in Section One of this letter, the well-known 
Colombian labor leader Jorge Dario Hoyos Franco was gunned-down by two 
young assassins who drove by him on a motorcycle late at night in March 
2001. Prior to his murder, Hoyos Franco had been receiving regular 
death threats related to his union leadership. He had even faced 
several unsuccessful attempts to kidnap him. Within a few years of 
Hoyos Franco's murder, the Attorney General's Office had successfully 
convicted the two material authors who were paid to shoot him. However, 
the intellectual authors of this crime still remain at large to this 
day.
    Several years after the first trial convicting the two young 
assassins, the Attorney General's Office began to investigate one of 
the alleged intellectual authors. The investigation focused on a man 
named Carlos Alberto Monroy, who had served as a Colombian Police 
Officer at the time of Hoyos Franco's assassination. The Attorney 
General's Office decided to prosecute Monroy in absentia, as is allowed 
pursuant to Colombian law. Judge Jose Nirio Sanchez presided over the 
trial and heard testimony that Officer Monroy had provided the 
assassins with their motorcycle and firearms, and that he had paid and 
directed the young men to perpetrate the murder. Judge Sanchez 
convicted Monroy and sentenced him to 40 years in prison. However, 
Monroy is still at large and has not served a single day of his prison 
sentence.
    The family of Jorge Dario Hoyos Franco has urged the Attorney 
General's Office to find, capture, and incarcerate Monroy, but thus far 
these efforts have not proven successful. In addition, the family has 
urged the Attorney General's Office to continue investigating the 
additional alleged intellectual authors of this one assassination. 
Until those two things happen in this case, impunity will persist.
III. The Need to Reform Colombian Labor Laws to Reach the Minimum Core 
        Labor Standards Set by the International Labor Organization and 
        Cited by both the U.S. State Department and U.S. Department of 
        Labor
    Before the U.S. Congress took up a vote on the Peru Free Trade 
Agreement last year, Peru undertook measures aimed at bringing its 
legal regime fully into compliance with the core international labor 
standards. In contrast, Colombia has still not completed such measures. 
Therefore, it is my sincere hope that the next Administration in the 
United States and the U.S. Congress will work cooperatively with the 
Government of Colombia to help further improve Colombian labor laws.
    Indeed, this work is critical because the ILO, the U.S. State 
Department, the U.S. Department of Labor, and other international labor 
advocates have all identified a large number of areas in which 
Colombia's labor laws are non-compliant with the core international 
labor standards. I will not list all of them below, but I do want to 
mention at least some of the problematic areas of law that Colombian 
workers and labor advocates most often raised with me during my 
Committee trip to Bogota.
    A) ``Workers' Cooperatives'' that create a legal fiction that 
misclassifies workers as ``self-employed'' and thus robs them of their 
right to join unions and bargain collectively.
    When I was in Colombia earlier this year, I met with workers and 
labor advocates in numerous sectors of the economy--from the flower 
industry to manufacturing to health care--who told me that the legal 
arrangements called ``Cooperativas de Trabajo Asociado''--or ``Workers' 
Cooperatives''--were preventing them from exercising their fundamental 
labor rights. Under this controversial labor arrangement, an employer 
can hire a worker, but nevertheless deem that worker to be ``self-
employed'' so that the worker loses the legal right to join a union or 
bargain collectively.
    According to the most recent U.S. State Department Human Rights 
Report on Colombia, ``[t]he continued growth and prevalence of workers' 
cooperatives further diminished collective bargaining.'' (U.S. State 
Department Report, dated March 11, 2008.) In fact, the State Department 
acknowledged that many Colombian employers inappropriately utilize 
Worker's Cooperatives to create a legal fiction that harms workers: 
``Most cooperatives engaged in subcontracting, and in some cases, 
private sector employers forced workers to form cooperatives and were 
themselves managing the cooperatives' daily operations.'' (Id.)
    In July 2008, the Colombian Congress passed a modest reform that 
changes some small aspects of these legal arrangements known as 
Workers' Cooperatives. For example, under the new law, Workers' 
Cooperatives can no longer operate without making tax payments to the 
government for national programs for social services. However, it 
remains unclear whether the recent legislation actually addresses the 
real problem raised by the ILO, the U.S. State Department, and other 
labor organizations.
    In August 2008, Colombian labor law attorneys who represent the 
main Colombian labor federations submitted a legal petition regarding 
this and various other labor issues to the Committee of Experts at the 
ILO. According to the legal analysis of these attorneys, even after the 
recent reform, ``the Workers' Cooperatives that comply with this law 
will still be able to continue operating as tools to evade labor rights 
and prejudice the labor conditions of workers.'' (Legal observations 
submitted by the Colombian Commission of Jurists, dated Aug. 25, 2008.) 
As I understand it, the Committee of Experts of the ILO will now review 
the recent Colombian labor law reforms over the period of months 
spanning from this fall to next spring. The ILO Committee of Experts 
will then report its findings in June 2009 to the full ILO. I look 
forward to reading the ILO's findings.
    I have also instructed the attorneys on my Committee staff to 
remain in contact with other legal experts--from the U.S. Government as 
well as various Colombian human rights groups--to continue gathering 
information regarding the issue of Workers' Cooperatives so that we can 
eventually determine whether the recent reform brings Colombia into 
compliance with internationally-recognized core labor standards. In 
addition, I look forward to reading the conclusions of the Committee on 
Ways and Means, which is performing a comprehensive review of 
Colombia's labor laws.
    B) Even considering the one other new Colombian labor law regarding 
judicial determinations for strikes, the recent reforms still leave 
unchanged entire areas of Colombian labor law that have been criticized 
by the ILO, the U.S. State Department, and other labor organizations.
    The Colombian Congress also recently passed a second labor law 
reform that moves the power to declare the legality or illegality of a 
strike from the Executive Branch to the Judicial Branch. Colombian 
labor attorneys have told my Committee staff that this one reform 
constitutes a step forward. However, much work remains. There are 
additional entire areas of law where Colombia has been criticized by 
the ILO and U.S. State Department, but Colombia still has not passed 
any labor law reforms whatsoever in those additional areas.
    These remaining issues range from Colombia's overly broad list of 
``essential public services'' to the problematic labor arrangements 
called ``Pactos Colectivos.''
    In fact, my Committee staff has learned from employees of the U.S. 
State Department that the Colombian Ministry of Social Protection 
recently asked the U.S. Agency for International Development (U.S. AID) 
to conduct a comprehensive study related to the additional improvements 
that Colombia could make to comply with the internationally recognized 
core labor standards. I understand this request to be--at least 
implicitly--an admission by the Colombian government that even after 
the two most recent labor law reforms, Colombian law remains non-
compliant with internationally recognized core labor standards. I am 
hopeful that the Government of Colombia's request for this study 
signifies that Colombia is willing to eventually make the additional 
needed changes to bring its labor laws into compliance with 
international standards. I wish the Bush Administration would have 
begun the negotiations on these labor law reform issues years ago, and 
as stated above, I hope the next Administration in the United States 
will take these issues more seriously.
    C) Colombian legal procedures for union registration still have 
vague and subjective standards that lead to improper denials and delays 
in the recognition of labor unions.
    When I was in Colombia in January, I traveled outside of Bogota to 
a small town called Facatativa, which is in the flower-producing region 
of the country. There I met with a group of Colombian workers who had 
been struggling to organize a union at the flower farm where they work 
so that they could improve their wages and working conditions. However, 
these workers had been waiting many months for the Ministry of Social 
Protection to merely register their union, whereas that process should 
only take a number of days. I have since learned that the delays 
experienced by these particular workers--unfortunately--are far too 
common in Colombia.
    In fact, the ILO has issued repeated proclamations expressing 
serious concern that Colombian workers have been improperly prevented 
from forming and joining labor unions because of the Ministry of Social 
Protection's mandatory prior registration requirements that give undue 
discretion to the Ministry's bureaucrats in charge of granting union 
recognition. For example, the ILO Committee of Experts released a 2008 
report on the application of ILO Convention 87 in Colombia and noted: 
``[t]he arbitrary refusal to register new trade union organizations, 
new trade union rules or the executive committee of a trade union at 
the discretion of the authorities for reasons that go beyond the 
express provision of the legislation.'' In addition, the ILO's concerns 
over arbitrary denials of union registration in Colombia have also been 
cited in a recent report by the U.S. Department of Labor. (2008 U.S. 
DOL Bureau of International Labor Affairs Report on Colombia, at 11). 
The representatives of the ILO Office in Bogota have told my Committee 
staff that the Government of Colombia could address this serious 
problem if it would only re-write its labor laws to replace the vague 
and subjective standards for union registration with more objective 
concrete rules. The ILO has also suggested that the Colombian 
government could better train the Ministry of Social Protection 
bureaucrats charged with applying those standards. Therefore, I hope 
that you and I can discuss the changes necessary to accomplish these 
goals.
                                 ______
                                 
    The issues raised above are numerous, though they are not 
exhaustive. These issues take on heightened urgency at this particular 
moment in Colombia's history as the violence in 2008 has escalated 
above 2007 levels. Indeed, during only the first eight months of this 
year, the assassins have made more threats, caused more bloodshed, and 
taken more lives of labor leaders than they did in all twelve months of 
last year. However, I remain optimistic that Colombia can overcome 
these significant problems. I am also hopeful that the next 
Administration in the United States will work more cooperatively with 
the Government of Colombia to bring about improvements in labor laws 
and human rights, increased trade, and an even stronger relationship 
between our two ally nations. I will continue to work on these issues 
in my capacity as the Chairman of the Committee on Education and Labor, 
and I look forward to working with you and your government to promote 
greater respect for labor rights.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
                                Human Rights Watch,
                               350 Fifth Avenue, 34th Floor
                                   New York, NY, November 20, 2008.
Hon. Nancy Pelosi, Speaker,
Hon. George Miller, Chairman, Committee on Education and Labor,
Hon. Charles Rangel, Chairman, Committee on Ways and Means,
U.S. House of Representatives, Washington, DC.
    Dear Speaker Pelosi, Chairman Miller and Chairman Rangel: I write 
to thank you for the leadership you have shown on human rights in 
Colombia in connection with the debate over the US-Colombia Free Trade 
Agreement (FTA), and to follow up on concerns you have raised about the 
plight of Colombian trade unionists.
    Human Rights Watch agrees with the position that the Speaker set 
out last year: before Congress considers the FTA, Colombia must show 
``concrete and sustained'' results in addressing ongoing violence 
against trade unionists, impunity, and the role of paramilitary groups 
in that violence.
    Free trade should be premised on fundamental respect for human 
rights, especially the rights of the workers producing the goods to be 
traded. In Colombia, workers cannot exercise their rights without fear 
of being threatened or killed. Without concrete and sustained results 
in addressing this basic problem, ongoing anti-union violence and 
impunity would, as President-elect Barack Obama has noted, make a 
``mockery'' of labor protections in the agreement. We believe that 
Colombia should be in compliance with such protections before the 
accord takes effect, as has generally been demanded with FTA commercial 
provisions.
    In fact, under US pressure related to the FTA, Colombia has started 
to take some positive steps on impunity for anti-union violence. But 
those steps are limited and incomplete, and in other areas (such as the 
rate of violence), Colombia has been sliding back this year. Also, the 
progress made on impunity has been won only with the possibility of FTA 
rejection on the table. If Congress were to prematurely approve the 
FTA, the progress made could rapidly be undone. Nor would the threat of 
fines or sanctions for violating FTA labor requirements provide 
anywhere near the incentive for change as the fear of accord denial.
    In a September 12 letter to President Alvaro Uribe of Colombia, 
Chairman Miller highlighted a number of significant problems affecting 
Colombian trade unionists' ability to exercise their rights. Yet, as 
explained below, more than two months later the Colombian government 
has yet to remedy many of those problems and continues to fall short in 
other areas that should be addressed before FTA ratification.
1. Ongoing violence against trade unionists
    As you know, Colombia has the highest rate of trade unionist 
killings in the world. According to the National Labor School (Escuela 
Nacional Sindical or ENS), Colombia's leading organization monitoring 
labor rights, 2,685 unionists have been killed since 1986. In addition, 
more than 3,700 unionists have reported receiving threats.
    The rate of yearly killings has fluctuated over time, dropping 
between 2001 and 2006. This reduction may be explained by many factors, 
including the establishment of a protection program--partly funded and 
supported by the United States--for threatened union leaders. 
Nonetheless, even with the protection program in place, in 2006 the 
National Labor School registered 76 killings of unionists, adding up to 
more than half of the total number of unionists killed in the whole 
world that year.
    After dropping to 39 last year, the number of killings has 
increased once again in 2008. Through October, 41 trade unionists have 
been reported killed, compared with 33 through October 2007. More than 
150 unionists have reported being threatened so far this year.
2. Widespread impunity for anti-union violence
    Last year Colombia's Attorney General established a specialized 
group of prosecutors to reopen many of the uninvestigated cases of 
threats against and killing of trade unionists. Since then, the group 
reports that it has obtained 96 convictions. This is an important 
achievement that can be directly traced to US pressure in relation to 
the FTA. Yet, as Chairman Miller pointed out in September, at the 
current rate of convictions, it would take decades for the prosecutors 
to get through the backlog. Also, there are serious reasons to be 
concerned about the sustainability of this effort:
    <bullet> The specialized prosecutors are not investigating the 
majority of reported cases.
    The Office of the Attorney General reports that as of October 20, 
the specialized prosecutors unit is only reviewing a total of 1,272 
cases involving anti-union violence--including both threats and 
killings (even though nearly all the 2,685 reported killings and more 
than 3,700 threats remain unsolved). When Human Rights Watch asked 
representatives of the Office of the Attorney General what they planned 
to do with the thousands of other reported cases of threats and 
killings, she gave multiple explanations:
    First, the Office said that the specialized group was only looking 
at the cases that had already been reported to the International Labor 
Organization (ILO) when the specialized group was created. But the ENS 
and trade unions later submitted all information they have on all 2,685 
registered killings to the ILO. It makes no sense to exclude many cases 
from investigation just based on the date on which they were reported 
to the ILO.
    Second, the Office said they had decided not to expand the number 
of cases assigned to the specialized prosecutors simply because they do 
not have the resources to handle that many cases. Thus, the remaining 
cases would be assigned to ordinary prosecutors who may be spread out 
around the country, who will not be focused specifically on antiunion 
violence and are more vulnerable to pressure or threats. This 
explanation is surprising in light of the vast resources the US 
Congress has already assigned to the Human Rights Unit, precisely to 
strengthen these sorts of investigations. It is also not a good reason 
to simply exclude more than half the cases from the specialized 
prosecutors' workload, rather than organizing and prioritizing them in 
a useful manner.
    Third, the Office said that many of the cases had been inaccurately 
reported as trade unionist killings, claiming that the victims were not 
union members or had been killed for non-union-related reasons. Yet 
when Human Rights Watch asked her for a list of all the cases that the 
specialized group was investigating, as well as the list of cases that 
they had decided not to investigate because they did not really involve 
unionist killings, she refused to provide such a list. The Office of 
the Attorney General has also refused to provide such lists to union 
representatives, making it impossible to have a meaningful discussion 
about the basis on which they are excluding many cases from 
investigation.
    <bullet> The specialized labor judges have only been appointed 
through July 2009.
    As Chairman Miller pointed out in September, the latest resolution 
of the Superior Council of the Magistracy (Consejo Superior de la 
Judicatura) naming three specialized judges to handle the trade 
unionist cases provides that their appointments expire in July 2009. 
There is no guarantee that the judges will have their appointments 
renewed.
    <bullet> Many convictions involve paramilitaries in the Justice and 
Peace process.
    An important factor that has led to the increase in convictions is 
that some paramilitary commanders participating in what is known as the 
``Justice and Peace'' process have been taking responsibility for 
unionist killings. But this means that once the Justice and Peace 
process is over, the rate of convictions is likely to quickly drop off. 
Also, the convictions in these cases often do little to further truth 
or justice.
    Under the ``Justice and Peace Law'' paramilitaries known to be 
responsible for atrocities are given an opportunity to admit all their 
crimes. In exchange, they are set toreceive a single reduced sentence 
of five to eight years, rather than the much longer sentences--up to 40 
years, in some cases--ordered in individual cases of trade unionist 
assassinations.
    The law began to be applied last year, around the same time as the 
convictions for unionist killings started to go up. Based on Human 
Rights Watch's review of several of the rulings in these cases, as well 
as the statements of persons close to the investigations, a substantial 
share of the 96 convictions in unionist cases are based primarily on 
the statements given by paramilitaries under the Justice and Peace Law.
    The statements in these cases are often general, however, 
paramilitary commanders like Ever Veloza (also known as ``HH'') have 
admitted having command responsibility for thousands of killings, 
including unionist killings. But they often do not describe the 
circumstances surrounding the killings or identify other accomplices or 
participants in the crime. As a result, these convictions often do 
little to establish the truth about the killings.
    Finally, since the Colombian government extradited many of the most 
important paramilitary commanders to the United States, these 
commanders have ceased cooperating with the Colombian investigations. 
As a result, even the minimal statements of responsibility that might 
have been available under the Justice and Peace Law may now be out of 
reach in cases for which these commanders bear responsibility.
    <bullet> Lack of progress in high-profile cases
    In some of the most high-profile cases of unionist killings that 
Chairman Miller highlighted in his September letter there has been 
little progress. For example, in the case of intelligence chief Jorge 
Noguera, who allegedly gave sensitive information about trade unionists 
to the killers, investigations have moved inexplicably slowly or have 
been hampered by procedural errors. Similarly, in the murder of labor 
leader Luciano Romero, despite a court order to investigate potential 
involvement of Nestle Corporation in the killings, the Office of the 
Attorney General has failed to move any such investigation forward. 
And, as Chairman Miller noted in his letter, a Colombian Police officer 
who was convicted in absentia of the killing of labor leader Jorge 
Dario Hoyos has yet to be caught or arrested.
    In another significant case involving the military's killing of 
three trade unionists in Arauca in 2003, while lower level soldiers 
have been convicted of the killings, prosecutors appear to have made 
little progress in investigating the potential responsibility of 
military officers up the chain of command.
3. Stigmatization of unionists High-level officials continue to 
        stigmatize legitimate union activity as a cover for the abusive 
        left-wing guerrillas
    Colombian President Alvaro Uribe recently dismissed international 
concerns over the violence, describing the unionists as ``a bunch of 
criminals dressed up as unionists.'' Such statements put unionists at 
greater risk, suggesting that the violence against them might be 
justified and that accountability for the killings may not be a 
priority for the government.
4. The rise of successor groups to the paramilitaries
    Because most trade unionist killings have never been investigated, 
it is impossible to know exactly who is responsible and why all the 
killings were committed. Nonetheless, it is clear that in many cases, 
the killers are paramilitaries, who have admitted to deliberately 
persecuting unions. In fact, as of March 2008, the Office of the 
Attorney General reported that of all the persons convicted in unionist 
killings, 73 (the largest share) belonged to paramilitary groups.
    As a result, to address the violence against unionists in a 
sustained manner, it is crucial that the Colombian government 
effectively dismantle the paramilitary groups that pose the greatest 
threat to unions.
    The Uribe administration claims that paramilitaries no longer exist 
thanks to a demobilization program it has implemented in recent years. 
But while more than 30,000 individuals supposedly demobilized, 
Colombian prosecutors have turned up evidence that many of them were 
not paramilitaries at all, but civilians recruited to pose as 
paramilitaries. Law enforcement authorities never investigated most of 
them.
    Meanwhile, new armed groups often led by mid-level paramilitary 
commanders have cropped up all over the country. The Organization of 
American States (OAS) Mission verifying the demobilizations has 
identified 22 such groups, totaling thousands of members. The groups 
are actively recruiting new troops and are committing widespread 
abuses, including extortion, threats, killings, and forced 
displacement. In Medellin, for example, after a steady decline in 
official indicators of violence, there has been a surge in homicides, 
apparently committed by these groups. The bulk of the 150 threats 
received by unionists this year have been signed by groups purporting 
to be paramilitaries.
5. Extrajudicial executions
    Another recent threat to unionists is posed by the Colombian Armed 
Forces. In recent years there has been a substantial rise in the number 
of extrajudicial killings of civilians attributed to the Colombian 
Army. Under pressure to demonstrate operational results by increasing 
their body count, army members apparently take civilians from their 
homes or workplaces, kill them, and then dress them up to claim them as 
combatants killed in action. The killings of the three trade unionists 
in Arauca in 2003 fit this general pattern.
    The Attorney General's Office is currently investigating cases 
involving more than a thousand victims of extrajudicial executions 
dating back to mid-2003. The Defense Ministry has issued directives 
indicating that such killings are impermissible. But such directives 
have been regularly undermined by statements from high government 
officials, including President Uribe, who until recently accused human 
rights defenders who reported these killing of colluding with the 
guerrillas in an orchestrated campaign to discredit the military.
    Since October, the Uribe administration has started to more 
explicitly acknowledge the problem and has dismissed several soldiers 
and officers from some military units in connection with some of the 
most well known killings. However, it is crucial that these dismissals 
be followed by effective criminal investigations, prosecution, and 
punishment of those responsible for executions--including commanding 
officers who may have allowed or encouraged them--that have been 
reported on a regular basis all over the country. It is too early at 
this time to determine whether such punishment will occur.
    Once again, I would like to thank you for having taken a firm 
position in defense of human rights in connection with the FTA. As I 
hope this letter makes clear, Colombia still has a lot of work to do 
before the FTA should be considered. By continuing to delay the deal's 
approval, the United States will show that human rights are not just 
words, but rather basic values that have real consequences for US 
policy. Please do not hesitate to contact us if we can be of any 
assistance on this or other matters.
            Sincerely,
                                              Kenneth Roth,
                                                Executive Director.
                                 ______
                                 
                                     Bogota, 10 de febrero de 2009.
Senor George Miller,
Congresista Camara Baja, Washington D.C., Estados Unidos.
    Respetado senor Miller: Hemos conocido de la celebracion de una 
audiencia en el Congreso Norteamericano sobre derechos de los 
trabajadores y violencia contra sindicalistas en Colombia, ``Examining 
Workers' Rights and Violence against Labor Union Leaders in Colombia'', 
que se llevara a cabo la proxima semana en la ciudad de Washington. Por 
esta razon, la Comision Colombiana de Juristas (CCJ) que es una 
organizacion de derechos humanos con estatus consultivo ante Naciones 
Unidas, quiere entregar a usted un informe sobre la situacion de 
impunidad en la que se encuentran los casos en los que son victimas las 
y los sindicalistas colombianos. La informacion alli contenida es 
producto del seguimiento que la CCJ hace a los informes de la Fiscalia 
General de la Nacion y los jueces de casos de sindicalistas.
    En esta ocasion queremos resaltar para su consideracion, tres 
aspectos importantes que encontrara dentro del documento anunciado:
    1. El porcentaje de impunidad en los casos de homicidio contra 
sindicalistas sigue siendo del 96%.
    2. Un analisis cuantitativo del trabajo de la subunidad y de los 
jueces que nos permite concluir que al ritmo de unas 70 sentencias 
anuales emitidas por los jueces del pais y los de descongestion de OIT, 
en las que en cada una de ellas se refiriera a una victima 
sindicalista, la justicia tomaria 37 anos para superar la impunidad, 
bajo el supuesto de que no ocurran mas asesinatos a partir de hoy, y se 
mantenga la unidad especial de investigacion y juzgamiento.
    3. Siendo la violencia antisindical en Colombia es una violencia 
sistematica, deliberada y selectiva, el metodo de investigacion 
utilizado por la Fiscalia no permite una investigacion integral.
    4. Las razones de la violencia que, la Fiscalia incluye en sus 
informes como supuestos resultados de las sentencias, denotan 
precipitacion de la Fiscalia por concluir que no se trata de casos de 
violencia antisindical.
    Quedamos atentos a cualquier inquietud o aclaracion que usted 
tenga.
            Cordialmente,
                                    Gustavo Gallon Giraldo,
                                   Lina Paola Malagon Diaz,
            Director Abogada Proteccion Juridica Sistema Universal.
                                 ______
                                 
    [Whereupon, at 12:51 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
